<html>
<title> - PENDING LEGISLATION HEARING</title>
<body><pre>[Senate Hearing 111-623]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-623
 
                      PENDING LEGISLATION HEARING 

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2010

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

61-587 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana                  Scott P. Brown, Massachusetts
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director






















                            C O N T E N T S

                              ----------                              

                              May 19, 2010
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................    27
    Prepared statement...........................................    27
Murray, Hon. Patty, U.S. Senator from Washington.................    28
Brown, Hon. Scott, U.S. Senator from Massachusetts...............    31
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    33
Begich, Hon. Mark, U.S. Senator from Alaska......................    36

                               WITNESSES

Pamperin, Thomas J., Associate Deputy Under Secretary for Policy 
  and Program Management, Veterans Benefits Administration, U.S. 
  Department of Veterans Affairs; accompanied by Richard J. 
  Hipolit, Assistant General Counsel; and Walter A. Hall, 
  Assistant General Counsel......................................     2
        and
Jesse, Robert, M.D., Acting Principal Deputy Under Secretary for 
  Health, Veterans Health Administration; accompanied by Richard 
  J. Hipolit, Assistant General Counsel; and Walter A. Hall, 
  Assistant General Counsel......................................     4
    Prepared statement...........................................     5
    Additional views.............................................    12
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................    20
Jefferson, Hon. Raymond, Assistant Secretary of Veterans' 
  Employment and Training Service, Department of Labor; prepared 
  statement......................................................    23
    Response to post-hearing questions submitted by:
        Hon. Daniel K. Akaka.....................................    25
        Hon. Patty Murray........................................    26
de Planque, Ian, Deputy Director, Veterans Affairs and 
  Rehabilitation Commission, The American Legion.................    39
    Prepared statement...........................................    41
Tarantino, Tom, Legislative Associate, Iraq and Afghanistan 
  Veterans of America; prepared statement........................    46
Hilleman, Eric A., Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................    52
    Prepared statement...........................................    54
    Response to post-hearing questions submitted by Hon. Patty 
      Murray.....................................................    61
Weidman, Richard, Executive Director for Policy and Government 
  Affairs, Vietnam Veterans of America; accompanied by Alan 
  Oates, Chairman, Agent Orange/Dioxin and Other Toxic Exposures 
  Committee......................................................    63
    Prepared statement...........................................    64
    Response to post-hearing questions submitted by Hon. Patty 
      Murray.....................................................    70

                                APPENDIX

Gillibrand, Hon. Kirsten E., U.S. Senator from New York; prepared 
  statement......................................................    81
Greene, Hon. William P., Jr., Chief Judge, U.S. Court of Appeals 
  for Veterans Claims; prepared statement........................    82
Paralyzed Veterans of America; prepared statement................    85
Rossie, John Paul, Executive Director, Blue Water Navy Vietnam 
  Veterans Association; prepared statement.......................    88
Wells, CDR John B., USN (Ret.), Director of Legal and Legislative 
  Affairs, Blue Water Navy Vietnam Veterans Association; prepared 
  statement......................................................    90
Wilson, John L., Assistant National Legislative Director, 
  Disabled American Veterans; prepared statement.................    97
Boland, Rev. Michael M., Administrator, President & CEO, Catholic 
  Charities of the Archdiocese of Chicago; letter................   107
Ryan, Norbert R., Jr., USN (Ret.), President, Military Officers 
  Association of America; letter.................................   108
National Coalition for Homeless Veterans; letter.................   109
The Military Coalition; letter...................................   111
Corporation for Supportive Housing, National Alliance to End 
  Homelessness, Volunteers of America, Common Ground, Local 
  Initiatives Support Corporation (LISC), National Policy 
  and Advocacy Council on Homelessness; letter...................   113


                      PENDING LEGISLATION HEARING

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Brown of Ohio, Begich, 
Brown of Massachusetts, and Burr.

        OPENING STATEMENT OF DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The hearing of the Committee on Veterans' 
Affairs of the U.S. Senate on pending health and benefits 
legislation will come to order. Aloha.
    Today we will look at legislation pending before the 
Committee. The bills on the agenda reflect the desire among 
members of both parties to better serve the veterans who have 
served us so well. As we begin this legislative cycle, I will 
briefly note the progress the Committee has already made in 
this Congress.
    Last October, advance funding legislation from this 
Committee was enacted to finance VA health care 1 year ahead of 
the regular appropriations process. This was a major change and 
one long overdue. Earlier this month, the President signed the 
Caregivers and Veterans Omnibus Health Services Act. This new 
law creates a program to support the caregivers of wounded 
warriors. It will also improve health care for veterans in 
rural areas, help VA adapt to the needs of women veterans, and 
strengthen VA's workforce. At this point, we must focus on 
proper implementation.
    Turning to the agenda before us, I will leave it to the 
witnesses and the various Members on this Committee to talk in 
more detail about the bills. I will note briefly a series of 
small and technical bills that I introduced. While they will 
likely not garner much attention this morning, they are a 
direct result of Committee oversight of VA's claims benefits 
process.
    These bills address specific problems involving VA pension, 
survivor benefits, claims for veterans who are unable to 
understand and complete an application, and judicial review.
    While we work with the administration to fully attack the 
claims process, it is my hope that these small but important 
steps will improve the quality and timeliness of benefits 
decisions.
    Finally, I note that there are bills on the agenda that 
carry significant mandatory costs which trigger PAYGO issues. 
We are working with CBO to get firm numbers on those costs, but 
it is important to be aware of the challenges of moving 
legislation that has mandatory spending.
    I offer my thanks again to my colleagues and to the 
witnesses who are here.
    I want to welcome our witnesses and thank you for being 
here today. Secretary Jefferson, as I believe you have been 
advised, you will not be permitted to testify today since the 
Department's testimony was not received until shortly before 5 
o'clock yesterday, over 31 hours late. Given this late 
submission, I was inclined to exclude Labor's participation and 
that of other witnesses who did not comply with Committee rules 
since the Members have not had the opportunity to review the 
testimony. I do not suppose that you are directly responsible 
for this situation. [Laughter.]
    But as the designated witness, you have to be the one to 
hear the Committee's concerns and carry them back to the 
Secretary and his top managers. If the Department is to 
participate in the legislative process, there must be at a 
minimum timely submission of testimony on pending legislation.
    Other witnesses, including the VA, were able to review and 
comment on a large list of pending legislation and testimony 
that was submitted by the Committee's deadline of Monday at 
9:30 a.m. I will be following up to learn exactly what happened 
with respect to today's hearing and to identify ways to keep 
this problem from occurring again.
    Moving on, we have VA witnesses Tom Pamperin, Associate 
Deputy Under Secretary for Policy and Program Management, 
Veterans Benefits Administration; Dr. Robert Jesse, M.D., 
Principal Deputy Under Secretary for Health at the Veterans 
Health Administration. They are accompanied by Richard J. 
Hipolit and Walter Hall, both assistant general counsels for 
VA.
    I thank you all for being here this morning. Mr. Pamperin, 
you may begin with your testimony.

    STATEMENT OF THOMAS J. PAMPERIN, ASSOCIATE DEPUTY UNDER 
SECRETARY FOR POLICY AND PROGRAM MANAGEMENT, VETERANS BENEFITS 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 ACCOMPANIED BY RICHARD J. HIPOLIT, ASSISTANT GENERAL COUNSEL; 
         AND WALTER A. HALL, ASSISTANT GENERAL COUNSEL

    Mr. Pamperin. Thank you, Mr. Chairman, and good morning. I 
am pleased to be here today to provide the VA's views on 
pending legislation.
    I will not be able to address a few of the bills on today's 
agenda because we did not have sufficient time to develop and 
coordinate the administration's position and cost estimates, 
but with your permission we will provide that information in 
writing for the record. Those bills are S. 3286, S. 3314, 
S. 3325, S. 3330, S. 3348, S. 3352, S. 3355, S. 3367, S. 3368, 
S. 3370, and Senator Burr's draft bill to improve VA's 
multifamily transitional housing program. Similarly, for most 
of the bills I will address today, we request permission to 
provide cost estimates for the record at a later date.
    Chairman Akaka. We will look forward to those for the 
record.
    Mr. Pamperin. Very good.
    VA supports S. 3107, the cost-of-living adjustment. Current 
economic assumptions project no increase in the cost of living. 
If that assumption holds true, there would be no benefit costs 
associated with this bill.
    While VA cannot support a number of bills in their present 
form, we can support them with modification and would be glad 
to work with the Committee on them.
    S. 1866 would extend eligibility for burial in a national 
cemetery to the parents of certain veterans. On October 8, 
2009, VA provided testimony to the Subcommittee on Disability 
Assistance and Memorials Affairs, House Committee on Veterans' 
Affairs, on a similar bill, H.R. 761. At the request of that 
committee, VA provided technical assistance clarifying the 
impact of the provisions of the bill. The amended bill, which 
addresses VA concerns, was incorporated into H.R. 3941.
    S. 3192, the Fair Access to Veterans Benefits Act of 2010, 
would require the Court of Appeals for Veterans Claims to 
extend ``for such time as justice may require'' the 120-day 
period for appealing a board decision.
    Although the VA supports extension of the 120-day appeal 
period under certain circumstances, we have several concerns. 
Because the bill would not limit the length of time that an 
appeal period could be extended, appellants could potentially 
be able to appeal to the board at any time after it was 
issued--even decades later--as long as good cause was shown.
    To avoid these and other potential problems resulting from 
an unlimited appeal period and retroactive application, the 
administration is developing a proposal that would take a more 
focused approach.
    S. 3234, the Veteran Employment Assistance Act, would 
create programs aimed at improving employment, training, and 
placement services furnished to veterans, especially those 
serving in Operation Iraqi Freedom and Operation Enduring 
Freedom.
    Section 8 of the bill would authorize VA, in consultation 
with DOL and the Department of Interior, to establish a program 
to award grants to States to establish a veterans conservation 
corps.
    VA supports efforts to expand volunteer and employment 
opportunities for veterans. However, VA does not support the 
provision of these services through grant programs unless funds 
are expressly appropriated for that purpose.
    VA does not support S. 1780, the Honor America's Guard and 
Reserve Retirees Act, which would deem certain persons who have 
otherwise performed qualifying active duty to have been on 
active duty for purposes of VA benefits who are entitled under 
Chapter 1223 of Title 10 of the U.S. Code to retired pay. 
Active service is the foundation for providing VA benefits. In 
recent years, the Guard and Reserve have played an important 
role in the Nation's overseas conflicts. Virtually all those 
who served in recent conflicts were called to active duty and 
qualify for benefits. This bill, however, would extend the same 
status to those who were never called.
    S. 1939, the Agent Orange Equity Act, would expand the 
category of veterans who are afforded the presumption of 
service connection for exposure to Agent Orange. Agent Orange 
was not sprayed overseas and did not affect high-altitude 
airplanes.
    Although it is not part of today's agenda, the 
administration is developing an administrative proposal to 
would cover many health care, benefits, and management issues. 
The VA's proposal will include proposals to change voc rehab, 
promote greater efficiency, and permit extension of the 
delimiting date for education, and provide Veterans Group Life 
Insurance to those insured for less than the maximum amount.
    I would turn it over to Dr. Jesse.
    Chairman Akaka. Thank you very much, Mr. Pamperin.
    Now we will receive the testimony of Dr. Jesse.

STATEMENT OF ROBERT JESSE, M.D., ACTING PRINCIPAL DEPUTY UNDER 
     SECRETARY FOR HEALTH, VETERANS HEALTH ADMINISTRATION; 
 ACCOMPANIED BY RICHARD J. HIPOLIT, ASSISTANT GENERAL COUNSEL; 
         AND WALTER A. HALL, ASSISTANT GENERAL COUNSEL

    Dr. Jesse. Thank you. Good morning, Mr. Chairman and 
Members of the Committee. It is my pleasure to appear before 
you for the first time today as the Acting Principal Deputy 
Under Secretary for Health, and I am pleased to be here with 
Mr. Pamperin to discuss three bills on the agenda that pertain 
specifically to Veterans Health Administration.
    I do not yet have a clear position on S. 3325, which would 
prohibit collection of co-payments for telehealth or 
telemedicine visits of veterans, and I request permission to 
provide views and cost estimates for the record at a later 
date.
    S. 2751 would designate the VA medical center in Big 
Spring, TX, as the George H. O'Brien, Jr., Department of 
Veterans Affairs Medical Center. We defer to Congress in the 
naming of Federal facilities in honor of individuals, and we 
thank the Committee for honoring distinguished veterans like 
Mr. O'Brien and the like.
    S. 3035, the Veterans Traumatic Brain Injury Care 
Improvement Act of 2010, would require the Secretary to submit 
to Congress a report on the feasibility and advisability of 
establishing a Polytrauma Rehabilitation Center or Polytrauma 
Network Site for VA in the northern Rockies or the Dakotas.
    VA shares the Committee's concern for providing treatment 
facilities for polytrauma in this region. We heard the concerns 
raised earlier this month by Ms. Karen Bohlinger, the Second 
Lady of Montana, and the challenges she and her son have faced 
in receiving accessible care for TBI. We were heartened to hear 
that her son is receiving good care in Seattle, and we believe 
their experience may be made a little easier with the 
enhancement of a Polytrauma Support Clinic Team VA is 
establishing in Fort Harrison, MT. This VA facility will have a 
strong telehealth component and meets the needs and the 
workload volume of veterans with mild to moderate Traumatic 
Brain Injury in Montana, the Dakotas, and northern Rockies.
    Since we have already conducted an evaluation of the needs 
for TBI facilities in the northern Rockies and Dakotas and we 
are already taking action to improve both access to care and 
quality of care available in the region, VA believes that 
further legislation is not necessary.
    I would like to say further that VA is planning to spend 
about $13 million over the next 10 years to staff and maintain 
the enhanced Polytrauma Support Clinic Team at Fort Harrison, 
and I would be pleased to provide the Committee with more 
detailed information about our findings and decisions regarding 
the needs of veterans in the northern Rockies and Dakota 
region.
    S. 1940 would require the Secretary to complete a study of 
the effects on children of exposure of their parents to 
herbicides used in support of military operations in the 
Republic of Vietnam during the Vietnam era. Mr. Chairman, VA 
supports a greater scientific understanding of the effects on 
children of parents exposed to herbicides in Vietnam. However, 
VA is unable to support S. 1940 because it would be extremely 
difficult at this time to assemble data that would result in a 
scientifically valid conclusion. The challenges of such a study 
include developing methods and techniques to track and locate 
subjects across multiple generations and account for diverse 
health effects. We believe it would be very difficult to 
identify, locate, and obtain consent of enough participants to 
render any findings valid. Moreover, such a study would take 
more than 1 year to complete.
    These are concerns we have about this legislation, and I 
hope they may help explain why VA believes that the study 
S. 1940 would require is not currently feasible. We estimate 
the costs of conducting the study would be approximately $6.3 
million over 5 years.
    This concludes my statement, and I would be pleased to 
answer any questions you or the Committee might have. Thank 
you.
    [The prepared statement of Mr. Pamperin and Dr. Jesse 
follows:]
   Prepared Statement of Thomas J. Pamperin, Associate Deputy Under 
    Secretary for Policy and Program Management, Veterans Benefits 
                             Administration
    Mr. Chairman, I am pleased to be here today to provide the 
Department of Veterans Affairs' (VA) views on pending legislation. Also 
testifying this morning is Dr. Robert Jesse, Acting Principal Deputy 
Under Secretary for Health, Veterans Health Administration, and 
accompanying us are Assistant General Counsels Richard J. Hipolit and 
Walter A. Hall.
    I will not be able to address a few of the bills on today's agenda 
because we did not have sufficient time to develop and coordinate the 
Administration's position and cost estimates, but with your permission 
we will provide that information in writing for the record. Those bills 
are S. 3286, S. 3314, S. 3325, S. 3330, S. 3348, S. 3352, S. 3355, 
S. 3367, S. 3368, S. 3370, and Senator Burr's draft bill to improve 
VA's multifamily transitional housing program. Similarly, for most of 
the bills that I will address on today's agenda, we request permission 
to provide cost estimates for the record at a later date.
                                s. 1780
    S. 1780, the ``Honor America's Guard-Reserve Retirees Act,'' would 
deem certain persons (namely, former members of the National Guard or 
Reserves who are entitled under chapter 1223 of title 10, United States 
Code, to retired pay for nonregular service or who would be entitled to 
such retired pay but for their age) who have not otherwise performed 
``qualifying active duty service'' to have been on active duty for 
purposes of VA benefits.
    Under current law, a National Guard or Reserve member is considered 
to have served on active duty only if the member was called to active 
duty under title 10, United States Code, and completed the period of 
duty for which he or she was called to service. Eligibility for some VA 
benefits, such as disability compensation, pension, and dependency and 
indemnity compensation, requires a period of ``active military, naval, 
or air service,'' which may be satisfied by active duty, or by certain 
periods of active duty for training and inactive duty training during 
which the servicemember becomes disabled or dies. Generally, those 
periods are: (1) active duty for training during which the member was 
disabled or died from disease or injury incurred or aggravated in line 
of duty; and (2) inactive duty training during which the member was 
disabled or died from an injury incurred or aggravated in line of duty.
    S. 1780 would eliminate these service requirements for National 
Guard or Reserve members who served in such a capacity for at least 20 
years. Retirement status alone would make them eligible for all VA 
benefits, despite not having served on active duty or in active service 
or, if called to active duty, not having served the minimum active-duty 
period required for eligibility.
    VA does not support this bill. Current benefits eligibility is 
based either on active duty or a qualifying period of active service 
during which a member was physically engaged in serving the Nation in 
an active military role. Active service is the foundation for providing 
VA benefits. In recent years, the National Guard and Reserves have 
played an important role in our Nation's overseas conflicts. Virtually 
all those who served in recent conflicts were called to active duty, 
which qualifies them as Veterans and provides potential eligibility for 
VA benefits. This bill, however, would extend the same status to those 
who were never called to active duty and did not suffer disability or 
death due to active duty for training or inactive duty training, and 
hence do not have active service. VA would be obligated to provide 
compensation and health-care for disabilities resulting from injuries 
incurred in civilian activities, as well as from diseases that develop, 
during the 20 years that count toward retirement, regardless of any 
relationship to actual active duty or training drills. Providing 
compensation and other VA benefits based solely on retirement status 
would be inconsistent with VA's mission of providing benefits to 
Veterans who earned them as a result of active service.
    Statutes already authorize memorial benefits (burial in national 
cemeteries, burial flags, and grave markers) to this group of 
individuals. Therefore, S. 1780 would not provide any additional 
benefit related to the National Cemetery Administration (NCA), nor 
would it present any additional budget concerns related to the benefits 
NCA provides.
                                s. 1866
    S. 1866 would extend eligibility for burial in a national cemetery 
to the parents of certain Veterans, provided that VA determines that 
space is available in open national cemeteries and that the Veteran 
does not have a spouse, surviving spouse, or child who has been buried 
or who, if deceased, would be eligible for burial in a national 
cemetery under 38 U.S.C. Sec. 2402(5). Although the bill is apparently 
intended to apply to the parents of deceased Veterans, as drafted it 
would also apply to the parents of living Veterans, as well as to the 
parents of servicemembers and other individuals eligible for burial in 
national cemeteries. Currently, only parents who are eligible in their 
own right as a Veteran or spouse of a Veteran are eligible for burial 
in a national cemetery. While VA cannot support this bill as currently 
drafted, we would support this bill if it were modified to allow for 
burial of parents only in cases involving the death of an unmarried and 
childless servicemember who died due to combat or training-related 
injuries.
    On October 8, 2009, VA provided testimony to the Subcommittee on 
Disability Assistance and Memorials Affairs, House Committee on 
Veterans' Affairs, on a similar bill, H.R. 761. At the request of that 
Committee, VA provided technical assistance clarifying the impact of 
provisions of the bill. The amended bill, which addressed VA concerns, 
was incorporated into H.R. 3949 as section 303, the ``Corey Shea Act.'' 
The House of Representatives passed that bill on November 3, 2009, and 
it was sent to the Senate and referred to this Committee.
    As VA testified regarding H.R. 761, the primary reason we do not 
support S. 1866 is our concern that, by extending eligibility for 
national cemetery burial to parents, this bill would reduce the number 
of gravesites available for Veterans, who have served our Nation. We 
believe that preserving sufficient burial space for Veterans should 
take priority over extending burial eligibility to others.
    We also note that the definition of ``parent'' in 38 U.S.C. 
Sec. 101(5) is broad enough that more than two individuals could 
qualify for burial as the parent of a particular Veteran. Birth 
parents, adoptive parents, step parents, and foster parents could be 
eligible for burial under this bill as currently drafted.
    Furthermore, the Secretary already may permit the burial of a 
Veteran's parents in a national cemetery. Section 2402(6) of title 38, 
United States Code, which permits the Secretary to designate ``other 
persons or classes of persons'' as eligible for burial, authorizes the 
Secretary to permit the burial of parents in a national cemetery. In 
2007 and 2008, the Secretary approved two separate requests for the 
burial of a parent in the same grave as an unmarried, childless 
servicemember who died as a result of wounds incurred in combat. 
Neither deceased servicemember had a spouse or child who was buried or 
would be eligible for burial in a national cemetery.
    VA would support legislation adopting similar burial eligibility 
criteria for parents to address the small number of compelling cases in 
which an unmarried servicemember without children dies due to combat or 
training-related injuries. By using Department of Defense Casualty 
Offices' records, VA would be able to determine whether a deceased 
servicemember died as a result of combat or training-related injuries 
and whether the servicemember has a surviving spouse or child eligible 
for burial. This narrower proposal, to extend to parents eligibility 
for burial in the same gravesite with their child, would allay our 
concern that extending eligibility to parents would reduce the number 
of national cemetery gravesites available for Veterans. VA would, 
therefore, support a modified version of S. 1866 to formally and 
publicly recognize the ultimate sacrifice of fallen servicemembers and 
the unique burden of their surviving parents without negatively 
impacting burial access for qualified Veterans. VA would be glad to 
provide technical support should the Committee request it in order to 
modify the bill.
    If S. 1866 as currently drafted were enacted, VA would incur 
estimated costs of $27,000 in the first year, $180,000 over five years, 
and $462,000 over ten years.
                                s. 1939
    S. 1939, the ``Agent Orange Equity Act of 2009,'' would expand the 
category of Veterans who are afforded a presumption of service 
connection for certain diseases by 38 U.S.C. Sec. 1116(a) and a 
presumption of exposure to certain herbicide agents by section 1116(f). 
It would essentially change the category from Veterans who served in 
the Republic of Vietnam during a specified period to Veterans who 
served in the vicinity of the Republic of Vietnam during that period, 
including the inland waterways of, ports and harbors of, the waters 
offshore, and the airspace above the Republic of Vietnam. It would also 
extend the presumptions to Veterans who served on Johnston Island 
during the period from April 1, 1972, through September 30, 1977, or 
who received the Vietnam Service Medal or the Vietnam Campaign Medal. 
All of these changes would be effective as of September 25, 1985.
    Under VA's regulation implementing section 1116, 38 CFR 
Sec. 3.307(a)(6)(iii), ``service in the Republic of Vietnam'' includes 
service in the waters offshore and service in other locations if the 
conditions of service involved duty or visitation in the Republic of 
Vietnam. While the presumption of herbicide exposure already extends to 
Veterans with duty or visitation on the ground in Vietnam or on its 
inland waterways, S. 1939 would greatly increase the number of Veterans 
eligible for service connection of the diseases presumed associated 
with herbicide exposure to include many Veterans whose service would 
not have placed them at risk of exposure to herbicides. Those who would 
be included under the bill include Veterans who served aboard naval 
vessels operating on open offshore waters far from the coastline of 
Vietnam; Veterans who served on high altitude jet aircraft flying 
missions over Vietnam airspace; Veterans who served on Johnston Island 
in the Pacific Ocean between April 1, 1972, and September 30, 1977, 
where unused herbicide agents were stored and ultimately disposed of; 
and Veterans who served in Thailand, Laos, or Cambodia, or the airspace 
above those nations, in support of the war effort in Vietnam.
    VA does not support this bill. The intended purpose of legislation 
codified at 38 U.S.C. Sec. 1116 was to provide a presumption of 
herbicide exposure for Veterans who may have been exposed to tactical 
military herbicide use within the Republic of Vietnam and to provide 
presumptive service connection for certain diseases associated with 
this potential exposure. Extensive aerial spraying of Agent Orange and 
other herbicide agents in Vietnam between 1962 and 1971 is well 
documented. This tactical herbicide use was aimed at destroying enemy 
food crops, removing jungle cover from enemy positions, and providing 
defoliated free fire zones around U.S. bases to discourage enemy 
attacks. Because of the difficulty of determining which military units 
or individual servicemembers may have been directly exposed, the 
presumption was extended to all Veterans who served within the country 
or on its inland waterways. Any of these Veterans may have been 
exposed, and that justifies extending the presumption to them. However, 
the same cannot be said of the categories of Veterans who would be 
added by this bill.
    Herbicides were not sprayed over the open offshore waters of 
Vietnam, and high-altitude jet aircraft had no contact with the 
herbicides sprayed by low-altitude propeller-driven cargo planes. On 
Johnston Island, herbicides were stored in a remote fenced-in security 
area with limited access for military personnel. Receipt of the Vietnam 
Service Medal or Vietnam Campaign Medal for war effort support in 
Thailand, Laos, or Cambodia is not related to the potential for 
exposure to tactical herbicide use in Vietnam itself.
    S. 1939 would thus provide a presumption of herbicide exposure to 
Veterans who were not exposed to tactical military herbicide use. This 
would create an inequity in that Veterans who were not exposed would be 
afforded the same favorable presumption as those who were or may have 
been exposed. S. 1939 would essentially change the basis for the 
presumption from service in an area of documented herbicide use to any 
service that supported the war effort in Southeast Asia.
    In summary, VA does not support this bill because it would expand 
the presumption of herbicide exposure to categories of Veterans who 
were not exposed to the tactical herbicides used in Vietnam. It would 
undermine the original Congressional intent of providing health care 
and disability compensation to deserving Veterans whose diseases are 
presumptively associated with herbicide exposure during Vietnam 
service.
                                s. 1940
    S. 1940 would require the Secretary to complete a study of the 
effects on children of exposure of their parents to herbicides used in 
support of military operations in the Republic of Vietnam during the 
Vietnam era. While VA supports a greater scientific understanding of 
the effects on children of parents exposed to herbicides in Vietnam, VA 
does not support S. 1940 because it would be extremely difficult at 
this time to assemble data for such a study that would result in a 
scientifically valid outcome.
    In 2008, the Institute of Medicine's (IOM's) Committee to Review 
the Health Effects in Vietnam Veterans of Exposure to Herbicides 
conducted a preliminary assessment of the question of paternally 
mediated, trans-generational effects and suggested that epidemiologic 
studies of adult offspring would be difficult. The challenges of such a 
study include developing methods and techniques to track and locate 
subjects across multiple generations and accounting for diverse health 
effects.
    Viewing the proposed study that would be required by S. 1940 in 
light of the IOM's findings, we believe that identifying, locating, and 
obtaining consent to participate from the offspring of Vietnam Veterans 
and the adult offspring of the Vietnam-era Veterans that would be 
needed for comparison would be very difficult. As we are unaware of any 
directory or listing of Vietnam Veterans' children, the logistics of 
this study would require a multi-year effort inconsistent with the one-
year timeframe the bill would require for reporting on VA's findings. 
Even with a successful effort to contact and enroll appropriate 
individuals into the proposed study, there would most likely not be a 
sufficient number to allow for scientifically valid estimates of the 
trans-generational effect of paternal exposure.
    For these reasons, VA believes that the study and report that 
S. 1940 would require are not feasible. We estimate that the cost of 
conducting the study would be approximately $6.3 million over five 
years.
                                s. 2751
    S. 2751 would designate the VA medical center in Big Spring, Texas, 
as the George H. O'Brien, Jr., Department of Veterans Affairs Medical 
Center. Mr. O'Brien was awarded the Medal of Honor for his actions in 
battle in Korea and, following service, volunteered at the VA medical 
center in Big Spring. He died in 2005. We defer to Congress in the 
naming of Federal property in honor of individuals.
                                s. 3035
    S. 3035, the ``Veterans Traumatic Brain Injury Care Improvement Act 
of 2010,'' would require the Secretary to submit to Congress a report 
on the feasibility and advisability of establishing a Polytrauma 
Rehabilitation Center or Polytrauma Network Site for VA in the northern 
Rockies or the Dakotas.
    VA shares the concern for providing treatment facilities for 
polytrauma in this region and has already completed an assessment of 
need. VA has determined that an enhanced Polytrauma Support Clinic Team 
with a strong telehealth component at the Ft. Harrison, Montana, VA 
facility would meet the needs and the workload volume of Veterans with 
mild to moderate Traumatic Brain Injury (TBI) residing in the catchment 
area of the Montana Healthcare System. It would also facilitate access 
to TBI rehabilitation care for other Veterans from the northern Rockies 
and the Dakotas through telehealth. However, establishment of a 
Polytrauma Rehabilitation Center or Polytrauma Network Site, which 
would focus on the treatment of moderate to severe TBI, is not feasible 
or advisable in this area based on the needs of the population served. 
Because of the action already being taken by VA, this bill is not 
necessary, and we do not support it.
    The estimated cost of staffing the Polytrauma Support Clinic Team 
at Ft. Harrison would be $1 million in the first year, $6.1 million for 
five years, and approximately $13 million over 10 years.
    Mr. Chairman, we would be pleased to provide the Committee with 
more detailed information about our findings and decisions regarding 
the northern Rockies and the Dakotas.
                                s. 3107
    S. 3107, the ``Veterans' Compensation Cost-of-Living Adjustment Act 
of 2010,'' would provide an increase for the rates of disability 
compensation and dependency and indemnity compensation by a percentage 
commensurate with the annual Social Security cost-of-living adjustment, 
effective December 1, 2010.
    VA supports this bill, which is consistent with the President's FY 
2011 budget request. This legislation is necessary to guard the 
affected benefits against any eroding effects of inflation. The worthy 
recipients of these benefits deserve no less.
    Current economic assumptions project no increase in the cost-of-
living. If that assumption holds true, there would be no benefit costs 
associated with this bill, nor would there be an administrative cost.
                                s. 3192
    S. 3192, the ``Fair Access to Veterans Benefits Act of 2010,'' 
would require the Court of Appeals for Veterans Claims (Veterans Court) 
to extend ``for such time as justice may require'' the 120-day period 
for appealing a Board decision to the Veterans Court upon a showing of 
good cause. It would apply to a notice of appeal filed with respect to 
a Board decision issued on or after July 24, 2008. It would require the 
reinstatement of any ``petition for review'' that the Veterans Court 
dismissed as untimely on or after that date if, within 6 months of 
enactment, an adversely affected person files another petition and 
shows good cause for filing the first petition on the date it was 
filed.
    Although VA supports the extension of the 120-day appeal period 
under certain circumstances, VA has several concerns with this bill. 
Because the bill would not limit the length of time the appeal period 
could be extended, appellants would potentially be able to appeal a 
Board decision at any time after it was issued--even decades later--as 
long as good cause is shown. This would create great uncertainty as to 
the finality of Board decisions, which could burden an already 
overburdened claim-adjudication system and create confusion as to 
whether a VA regional office, the Board, or the Veterans Court has 
jurisdiction over a claim.
    Petitions for relief under the ``good cause'' provision could 
potentially add hundreds of cases to the Veterans Court's docket, which 
could increase the processing time for all cases in the court's 
inventory. The reinstatement of already dismissed untimely appeals 
could add even more cases. In view of the open-ended and retroactive 
nature of the provision, the potential number of new appeals is 
impossible to quantify, but it might be enormous.
    To avoid these and other potential problems resulting from an 
unlimited appeal period and retroactive application, the Administration 
is developing a proposal that would take a more focused approach. It 
would permit the Veterans Court to extend the appeal period for up to 
an additional 120 days from the expiration of the original 120-day 
appeal period upon a showing of good cause, provided the appellant 
files with the Veterans Court, within 120 days of expiration of the 
original 120-day period, a motion requesting extension. The proposal 
would ameliorate harsh results in extreme circumstances, e.g., if a 
claimant were mentally incapacitated during the entire 120-day appeal 
period, but by limiting how late an appellant could request extension 
and how long the period could be extended, would not unduly undermine 
the finality of Board decisions, which is necessary for efficient 
administrative functioning. Placing an outer limit on the appeal period 
would maintain the purpose of the rule of finality, which is to 
preclude repetitive and belated readjudication of Veterans' benefits 
claims.
    In addition, the proposal would be applicable to Board decisions 
issued on or after the date of enactment and to Board decisions for 
which the 120-day period following the 120-day appeal period has not 
expired as of the date of enactment. It would provide a generous 
approach but one that is carefully crafted so as not to unduly increase 
the court's caseload and delay Veterans' receipt of timely final 
decisions on their appeals.
    We estimate that enactment of VA's legislative proposal as 
contemplated would result in no significant costs or savings.
                                s. 3234
    S. 3234, the ``Veteran Employment Assistance Act of 2010,'' would 
create programs aimed at improving employment, training, and placement 
services furnished to Veterans, especially those serving in Operation 
Iraqi Freedom and Operation Enduring Freedom.
    Section 3(b) of the bill would require the Small Business 
Administration, VA, and the Department of Labor (DOL) to assess the 
efficacy of establishing a Federal direct loan program for small 
business concerns owned and controlled by Veterans and to submit to 
Congress a report on the assessment within 180 days of enactment. VA 
has no objection to this provision.
    Section 7 of the bill would provide benefits for apprenticeship and 
on-the-job training (OJT) under the Post-9/11 GI Bill. Section 7 would 
provide for payment of a monthly benefit to individuals pursuing full-
time programs of apprenticeship or other OJT, using a graduated 
structure similar to that applicable for such training under other VA 
educational assistance programs, including the Montgomery GI Bill-
Active Duty (MGIB-AD) and Selected Reserve (MGIB-SR) programs and the 
Post-Vietnam Era Veterans Educational Assistance program. Section 7 
also would amend current law to include apprenticeship or other OJT 
training programs as approved programs of education for purposes of the 
Post-9/11 GI Bill.
    Pursuant to section 7, for each of the first 6 months of an 
individual's pursuit of an apprenticeship or other OJT program, the 
individual would be paid 75 percent of the ``monthly benefit payment 
otherwise payable to such individual'' under chapter 33. For the second 
6 months of such pursuit, the individual would be paid 55 percent of 
such amount, and for each of the following months the individual would 
be paid 35 percent of such amount. In addition, this bill would 
authorize payment to such individuals of a monthly housing stipend 
equal to the monthly amount of the basic allowance for housing payable 
for a servicemember with dependents in pay grade E-5 residing in the 
military housing area that encompasses all or the majority portion of 
the ZIP code area in which the individual resides. We note that, unlike 
the monthly housing stipend authorized under 38 U.S.C. Sec. 3313(c), 
this section contains no provision requiring payment of reduced amounts 
of such monthly stipend in cases where individuals' aggregated active-
duty service is less than 36 months.
    For each month an individual receives a benefit under this bill, VA 
would charge the individual's entitlement at a rate that reflects the 
applicable percentage (i.e., 75, 55, or 35 percent, as appropriate).
    The amendments made by section 7 would take effect as if included 
in the enactment of the Post-9/11 Veterans Educational Assistance Act 
of 2008 (Title V, Public Law 110-252). That is, the effective date 
would be August 1, 2009.
    VA supports allowing individuals who qualify for the Post-9/11 GI 
Bill to receive benefits for OJT and apprenticeship training, subject 
to Congress's identifying offsets for any additional costs. However, VA 
cannot support enactment of this section as drafted.
    The bill would provide a monthly assistance benefit, plus a monthly 
housing stipend amount to trainees. This would be in addition to any 
wages a trainee may receive. Further, as noted, this bill provides that 
the monthly benefit would be equal to a percentage ``of the monthly 
benefit payment otherwise payable'' to an individual under chapter 33. 
However, unlike the MGIB-AD, which provides for monthly payments of 
educational assistance other than monthly housing stipends, no 
``monthly'' benefits are payable to a student or trainee under the 
Post-9/11 GI Bill. VA's payment of educational assistance under 38 
U.S.C. Sec. 3313 (for actual charges of an individual's tuition and 
fees) is made directly to the institution of higher learning on a lump-
sum basis for the entire quarter, semester, or term. Thus, it is 
unclear to what monthly benefit the provision refers in order to 
determine the amount of any payment to an individual.
    If enacted, this bill would take effect as if it had been included 
in Public Law 110-252, the Post-9/11 Veterans Educational Assistance 
Act of 2008. VA would have to manually re-work all apprenticeship and 
OJT cases for individuals wishing to elect to receive assistance under 
the Post-9/11 GI Bill for training that occurred on or after August 1, 
2009. VA is currently programming a new payment system to implement the 
provisions of the Post-9/11 GI Bill. Full deployment of the new system 
is expected by December 2010. Incorporating new rules for the payment 
of benefits for apprenticeship and OJT training, as proposed, would 
require system changes that could not be accommodated, at the earliest, 
until after that date. Such changes would delay deployment of the new 
system and require VA to continue processing claims on a manual basis.
    Section 8 of the bill would authorize VA, in consultation with DOL 
and the Department of the Interior, to establish a program to award 
grants to States to establish a ``veterans conservation corps'' 
(corps). Each State corps would be established within, or in 
affiliation with, the ``veterans agency'' of the State and would 
provide Veterans with volunteer and employment opportunities in 
conservation projects that would provide for training, education, and 
certification in environmental restoration and management fields. These 
projects would include: (1) restoring natural habitat; (2) maintaining 
Federal, state, or local forest lands, parks and reserves, as well as 
other reservations, water, and outdoor lands; (3) maintaining and 
improving urban and suburban storm water management facilities and 
other water management facilities; and (4) carrying out hazardous 
materials and spills response, energy efficiency and other 
environmental maintenance, stewardship, and restoration projects.
    Each corps, in order to incorporate training, education, and 
certification into the volunteer and employment opportunities afforded 
Veterans, would consult with: (1) State and local workforce investment 
boards; (2) local institutions of higher education, including community 
colleges; (3) private schools; (4) State or local agencies, including 
State employment agencies and State forest services; (5) labor 
organizations; (6) business involved in the environmental industry; and 
(7) such other entities as the Secretary of Veterans Affairs considers 
appropriate.
    In order to assist Veterans enrolled in the program to obtain 
employment in the fields of environmental restoration and management, 
the corps would partner with one-stop centers, State and local 
workforce investment boards, and other State agencies. The corps would 
also assist Veterans, in conjunction with State and local workforce 
investment boards, to identify appropriate employment opportunities in 
their local communities that would use the skills developed while in 
the Armed Forces and facilitate internships or job shadowing. The corps 
would assist with, or provide, referrals for obtaining benefits 
available to Veterans and match Veterans with conservation projects 
that would be aligned with each Veteran's goals.
    The grant amount that could be awarded to a State under the 
conservation corps program established by section 8 could not exceed 
$250,000 in any year.
    Each State receiving a grant to establish a Veterans conservation 
corps program would be required to submit a report on the performance 
of the Veterans conservation corps in that State to VA and the House 
and Senate Committees on Appropriations and Veterans' Affairs. These 
reports would include a description of how the grant amount was used 
and an assessment of the performance of the corps, including a 
description of the Veterans' labor market in that State for the current 
and previous year.
    VA supports efforts to expand volunteer and employment 
opportunities to Veterans, particularly with respect to environmental 
restoration and management. However, VA does not support the provision 
of these services through grant programs unless funds are expressly 
appropriated for this purpose. If each of the 50 States received the 
maximum grant, we estimate that $12.5 million would be needed annually. 
VA does not currently have a mechanism for awarding such grants and 
managing such grant programs, but DOL has extensive expertise and 
experience in managing grants to States. DOL's Veterans' Employment and 
Training Service (VETS) currently manages grants to States to provide 
employment services and outreach to Veterans at one-stop centers. The 
purpose and requirements of this bill appear to be a very good match 
with the current functionality of the VETS program.
    Section 9 of the bill would authorize VA, in consultation with the 
Assistant Secretary of Labor for Veterans' Employment and Training, to 
establish a center of excellence to support research, development, 
planning, implementation, and evaluation of methods for educational 
institutions to give academic credit for military experience and 
training to certain Veterans (those discharged or released from service 
within 48 months of application for admission to such institutions or 
those who were members of the reserve components of the Armed Forces).
    Acting through the center of excellence, VA would award grants to, 
or enter into contracts with, eligible institutions to achieve the 
purposes of the center. An eligible institution for this purpose would 
be defined as any partnership that meets such requirements as VA 
promulgated and consists of an institution of higher education (IHE) 
and one or more of the following entities: (1) a community college; (2) 
a university teaching hospital; (3) a military installation, including 
a facility of the National Guard; (4) a VA medical center; and (5) a 
military medical treatment facility. VA could not award a grant or 
contract in an amount less than $2 million or more than $5 million.
    To receive a grant or contract, an institution would be required to 
submit to VA an application for this purpose. VA would give priority to 
applicants who include as a partner an IHE or other educational 
institution that: (1) affords appropriate recognition to military 
experience and training in screening candidates; (2) has a practice of, 
or would establish a practice of (if proposing such a practice, would 
include with the application a review of such a plan by a professional 
organization) giving academic credit for military experience and 
training; (3) has established a professional development and delivery 
system using evidence-based practices; or (4) has demonstrated 
experience working with the Department of Defense or VA.
    Each eligible institution receiving a grant or contract would be 
required to use it for one or more of the following purposes: (1) to 
develop or implement a plan to modify programs of education and 
admissions programs at IHEs to give academic credit to the Veterans and 
members described above; (2) to develop standards for the 
identification of military experience and training in individuals 
applying for enrollment at IHEs; (3) to train professors, educators, 
and instructors at IHEs on the means of best teaching students at such 
institutions with military experience and training; (4) to develop 
curriculum for IHEs that are appropriately tailored to individuals with 
military experience and training; (5) to develop admissions and 
recruitment guidelines for IHLs to attract Veterans and members 
described above and afford them recognition for military experience and 
training in their admissions processes; and (6) to establish a program, 
a method, or standards to be utilized by IHLs for assessing the 
education and training during the pursuit of a program of education and 
at the completion of such program.
    Because the grants are to be used for admissions policies, 
recruitment, granting of prior credit, instruction of professors and 
other teaching staff, modifying the institution's existing programs of 
education, and suggesting modifications to curriculum, VA believes that 
the Department of Education, in consultation with VA and DOL, is best 
positioned to establish the center of excellence for the purposes of 
these grants. Therefore, we do not support enactment of this section.
    Section 11 would require DOL, in consultation with VA and the 
Departments of Defense and Health and Human Services, to establish a 
program to enable transitioning military members to build on the 
technical skills learned during military service to help them enter 
public health fields. VA defers to DOL regarding this program.
                       va's legislative proposal
    Although it is not on today's agenda, the Administration is 
developing a legislative proposal that would cover many health, 
benefits, and management issues. The legislative proposal would include 
provisions to: (1) revise vocational rehabilitation and education 
benefits to increase the utility of incentives for employers to provide 
on-the-job training to Veterans with service-connected disabilities; 
(2) promote greater efficiency in the approval of educational programs; 
(3) permit extension of the delimiting date for education benefits for 
a beneficiary serving as the primary caregiver of a seriously injured 
Veteran; and (4) provide Veterans Group Life Insurance participants who 
are insured for less than the maximum amount the opportunity to 
purchase additional coverage and make permanent the current authority 
to extend Servicemembers' Group Life Insurance coverage for two years 
to Veterans who are totally disabled when they leave service.

    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Committee may 
have.
                                 ______
                                 
                         The Secretary of Veterans Affairs,
                                         Washington, July 30, 2010.
Hon. Daniel K. Akaka,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Mr. Chairman: I am pleased to provide the Committee with the 
views of the Department of Veterans Affairs (VA) on twelve of the 
thirteen bills listed in your May 21, 2010 letter. In addition, we are 
providing cost estimates for two bills about which we testified at the 
Committee's May 19, 2010, hearing but for which we were unable to 
develop cost estimates in time for that hearing. We will provide views 
and costs on S. 3486 to the Committee in a separate letter.
                                s. 1780
    As we previously testified, VA does not support S. 1780, the 
``Honor America's Guard-Reserve Retirees Act,'' which would deem 
certain persons (namely, former members of the National Guard or 
Reserves who are entitled under chapter 1223 of title 10, United States 
Code, to retired pay for nonregular service or who would be entitled to 
such retired pay but for their age) who have not otherwise performed 
``qualifying active duty service'' to have been on active duty for 
purposes of VA benefits. If S. 1780 as currently drafted were enacted, 
VA would incur estimated benefit costs of $957.5 million during the 
first year, $6.0 billion for 5 years and $15.5 billion over 10 years. 
Veterans Benefits Administration (VBA) administrative costs are 
estimated to be $50.0 million the first year, $73.2 million over 5 
years, and $110.9 million over 10 years. In addition to VBA 
administrative costs are IT costs, which are estimated to be $2.2 
million the first year, $2.4 million over 5 years, and $3.3 million 
over 10 years. In addition to VBA administrative costs are minor 
construction costs, which are estimated to be $8.5 million the first 
year, $8.5 million over 5 years, and $8.6 million over 10 years.
                                s. 1939
    As we also previously testified, VA does not support S. 1939, the 
``Agent Orange Equity Act of 2009,'' which would expand the category of 
Veterans who are afforded a presumption of service connection for 
certain diseases by 38 U.S.C. Sec. 1116(a) and a presumption of 
exposure to certain herbicide agents by section 1116(f). If S. 1939 as 
currently drafted were enacted, VA would incur estimated benefit costs 
of $25.4 billion the first year, $38.8 billion for 5 years, and $57.4 
billion over 10 years. VBA administrative costs are estimated to be 
$184.5 million the first year, $1.0 billion over 5 years, and nearly 
$2.4 billion over 10 years.
                                s. 3234
    S. 3234, the ``Veteran Employment Assistance Act of 2010,'' would 
create programs aimed at improving employment, training, and placement 
services furnished to Veterans, especially those serving in Operation 
Enduring Freedom or Operation Iraqi Freedom. We testified that VA does 
not object to section 3(b), relating to the establishment of a direct 
loan program for small business concerns owned and controlled by 
Veterans; that VA does not support section 7 as drafted, despite 
supporting the intent of allowing individuals who qualify for the Post-
9/11 GI Bill to receive benefits for on-the-job and apprenticeship 
training, subject to Congress identifying offsets for any additional 
costs; that, although VA supports efforts to expand volunteer and 
employment opportunities to Veterans, we do not support section 8 
unless funds are expressly appropriated for providing such services 
through grant programs; that we do not support section 9, relating to 
methods for educational institutions to give academic credit for 
military experience and training to certain Veterans; and that VA 
defers to the Department of Labor regarding section 11, relating to 
enabling transitioning Servicemembers to build on the technical skills 
learned during military service to help them enter public health 
fields. The analysis below provides cost information for S. 3234.
    Section 3(b) of the bill would require VA, in conjunction with the 
Small Business Administration (SBA) and the Department of Labor, to 
prepare and submit to Congress a report on the efficacy of establishing 
a Federal direct loan program for small business concerns owned and 
controlled by Veterans. Because SBA already runs a similar program, we 
would ask that they take the lead in preparing the report, and our 
efforts would be limited to staffing the report to existing offices. 
Accordingly, we estimate that section 3(b) would not result in 
additional costs to VA.
    Section 7 of the bill would provide benefits for apprenticeship and 
on-the-job training under the Post-9/11 GI Bill. VA estimates that 
section 7 would result in mandatory costs of $154.5 million during the 
first year, $806.6 million over 5 years, and $1.7 billion over 10 
years.
    Section 8 of the bill would authorize VA, in consultation with the 
Department of Labor and the Department of the Interior, to establish a 
program to award to states grants to establish a ``veterans 
conservation corps.'' VA estimates benefit costs for section 8 would be 
$12.5 million during the first year, $62.5 million over 5 years, and 
$125 million over 10 years.
    Section 9 of the bill would require the Secretary of Veterans 
Affairs, in consultation with the Assistant Secretary of Labor for 
Veterans' Employment and Training, to establish a center of excellence 
to support research, development, planning, implementation, and 
evaluation of methods for educational institutions to afford academic 
credit for military experience and training to certain Veterans. VA 
estimates that section 9 would result in administrative costs of $587 
thousand for the first year, $4.6 million over 5 years, and $10.7 
million over 10 years, as well as information technology costs of $49 
thousand the first year, $107 thousand over 5 years, and $183 thousand 
over 10 years.
                                s. 3286
    S. 3286 would require VA to commence, within 120 days, a 2-year 
pilot program to assess the feasibility and advisability of awarding 
grants to state and local government agencies and nonprofit 
organizations to assist Veterans in submitting claims for VA benefits 
with the intent of reducing the time required by VBA to process such 
claims. The assistance provided to Veterans under these grants would 
include collecting evidence in support of a claim, submitting the claim 
to VBA, and other matters as determined by the Secretary of Veterans 
Affairs.
    VA supports measures that would provide assistance and information 
to Veterans and other claimants to obtain the benefits to which they 
are entitled. However, VA does not support this bill because it is 
unnecessary. Claimants already have access to an extensive network of 
state, county, and service organization offices that currently provide 
these services. Furthermore, the bill would provide for grants to 
governmental entities that are already established and funded to assist 
Veterans in filing their claims, e.g., state and county Veterans 
service offices.
    VA has other concerns about the bill. VA would not be able to 
commence the pilot program within the 120-day period mandated by the 
bill because of the time required to develop and publish regulations 
setting out the grant program, including grant criteria and 
requirements. Also, the bill would not authorize appropriations from 
which to make the grants. If additional funds are not authorized, the 
expense of grants and staff necessary to administer the program would 
come out of existing resources.
    The cost of the proposed pilot program cannot be estimated because 
the amount of grant funding to be provided would be solely at the 
discretion of the Secretary.
                                s. 3314
    S. 3314 would require VA and the Appalachian Regional Commission to 
jointly carry out a program of outreach to Veterans who reside in the 
Appalachian region for purposes of increasing access and use by 
Veterans of Federal, state, and local Veterans benefits programs and 
increasing awareness of, and eligibility for, such programs.
    VA supports the objective of improving outreach to Veterans and 
other potential claimants, but does not support this bill because it 
would mandate outreach to only one geographic area and because it is 
unnecessary in light of VA's ongoing efforts to provide outreach in 
this area.
    VA is currently making special efforts to provide medical care and 
access in the Appalachian region. Throughout the states and counties 
within this region, VA has set up an extensive and diverse array of 
rural initiatives, including Outreach Clinics, Community-Based 
Outpatient Clinics, expanded Care Coordination Home Telehealth 
initiatives, and the use of unscheduled Mobile Medical Units to perform 
assessments and physicals at events.
    VA has also taken aggressive steps to ensure awareness of the 
facilities, initiatives, and benefits available to Veterans. Examples 
include partnering with states such as Maryland to use unoccupied 
offices in rural areas to conduct mental health assessments and provide 
services; collaborating with rural community health centers, such as 
the community health center in Harrisonburg, Virginia, to increase 
enrollment and improve coordination of care; and activating rural 
health literacy outreach, such as in the Asheville, North Carolina, 
area, where events were held or scheduled in an area covering the 20 
counties of Western North Carolina. This is only the beginning. VA 
plans to continue its outreach efforts to Veterans and their families 
in this region. Because of VA's substantial outreach efforts to 
Veterans in this region, we do not believe this bill is necessary and 
thus do not support it. However, VA would be happy to meet with the 
Committee to discuss the special needs of Appalachian Veterans.
    VA cannot estimate costs for this program without additional 
information because it is unclear to what extent VA would need to enter 
into contracts for the outreach that this bill would mandate.
                                s. 3325
    S. 3325 would authorize VA to waive the imposition or collection of 
copayments for telehealth and telemedicine visits of Veterans. The 
mission of VA's Telehealth program office is to expand access to care 
for Veterans through telehealth technologies. Telehealth is a new 
modality of care. We believe it would be inappropriate to waive 
copayments for Veterans who receive telehealth services at a VA 
facility while Veterans who see their VA provider in person in the same 
facility would be charged a copayment.
    VA is examining the impact of copayments for care provided by video 
telehealth in a patient's home. A video consultation into the home is 
used to provide remote case management, health promotion/disease 
prevention, enhancement of patient self-management, and early 
recognition of deleterious symptoms and signs of patient deterioration 
from chronic disease conditions. The use of video consultation into the 
home is analogous to that of telephone call for which no co-payment is 
required, and not comparable to a clinic visit.
    Recent VA experience demonstrates that co-payments for home-
telehealth may have resulted in a reduced use of this intervention. To 
ensure convenient and cost-effective care to populations of patients 
who will otherwise delay care and incur larger costs from emergency 
room visits and hospital admissions VA will take the appropriate action 
to waive or modify copayments for in-home video telehealth care for 
Veterans. Because VA already has the authority to waive or modify the 
imposition of co-payments for such care, legislation is not required.
    VA estimates a revenue loss of $2 million in the first year, $17.7 
million over 5 years and $83.4 million over 10 years if VA stops 
collecting copayments for all telehealth visits.
                                s. 3330
    S. 3330, the ``Veterans' Health and Radiation Safety Act of 2010,'' 
would require VA to report to Congress annually on low-volume programs 
(defined as programs that treat 100 patients or fewer annually) at VA 
medical facilities. The report would have to include the Secretary's 
evaluation and findings with respect to such programs. Additionally, 
S. 3330 would require employees working at VA hospitals where 
radioactive isotopes are used to receive training on recognizing and 
reporting medical events. Hospitals failing to provide this training 
would be prohibited from using radioactive isotopes for a period of 
time determined by the Secretary. Lastly, the bill would require VA to 
evaluate non-government medical services contractors through weekly 
independent peer reviews, written evaluations, and other evaluations VA 
determines are appropriate. A contracting officer would be required to 
review and consider the results of these evaluations before VA renews 
any contracts with non-government medical services contractors.
    We are aware of a very unfortunate lapse that occurred at a 
brachytherapy program at one of our facilities. We testified about this 
incident before the House Committee on Veterans' Affairs on July 22, 
2009. On May 3, 2010, the Office of the Inspector General (OIG) issued 
a report on this incident with five recommendations. Specifically, the 
OIG recommended that the Veterans Health Administration (VHA) 
standardize, to a practical extent, the privileging, delivery of care, 
and quality controls for the procedures required to provide this 
treatment. This has been accomplished. Standardized procedures have 
been developed, and site visits have verified that they are uniformly 
in place at all facilities and that steps have been taken to ensure 
that patients who received low radiation doses in the course of 
brachytherapy are evaluated to ensure that their cancer treatment plan 
is appropriate. We have contacted all Veterans who were potentially 
impacted for follow-up testing and monitoring at other VA and private 
facilities and are reviewing the controls that are in place to ensure 
that VA contracts for health care comply with applicable laws and 
regulations. Where necessary, we will make organizational and/or 
procedural changes to bring this contracting effort into compliance. A 
template that outlines basic requirements for all contracts is 
currently in development.
    The OIG also recommended that senior VA leadership meet with senior 
Nuclear Regulatory Commission leadership to determine if there is a way 
forward that will ensure the goals of both organizations are achieved. 
VA is currently working to arrange this meeting. Finally, the OIG 
recommended that VHA work with the OIG to develop a list of documents 
that should routinely be provided to the OIG when an outside agency is 
notified of a possible untoward medical event. VHA will work closely 
with the OIG to meet this recommendation.
    We appreciate the intent behind S. 3330, but for a number of 
reasons we do not support it. First, we note that section 2 would 
require the Secretary to submit annual reports to Congress on low 
volume programs. However, the definition of a ``program'' is not clear. 
Any treatment ``program'' could be defined so narrowly that no facility 
treats 100 patients or more per year in a particular program or so 
broadly that almost every program includes more than 100 patients 
annually. Moreover, treatment quality is not always related to patient 
volume or patient volume just within a given VA facility. Many VA 
facilities have on staff specialist providers who also work elsewhere 
in the community. If all care provided by a specialist is combined, the 
volume can be, and many times is, significantly more than can be 
accounted for just within VA workload. In addition, standard 
credentialing, privileging, and review of quality of care are required 
at every facility regardless of the size of a program.
    All procedures that are performed and all medical care that is 
provided at any VA facility involve quality assessment and oversight. 
The first procedure each year has precisely the same quality assessment 
requirements as the last, whether the annual procedure total is 5, 50, 
or 500. Further, each procedure is performed by a fully credentialed 
and privileged physician. Instead of the requirement to provide an 
annual report on ``low volume'' programs, we would like to work with 
Congress to identify what information would be useful for Congress to 
receive annually.
    The mandatory training that would be required by section 3 would 
apply to all VHA staff and would not be limited to staff directly 
involved in the use of radioactive materials. Nuclear Regulatory 
Commission regulations already require all staff involved in the use of 
radioactive materials to have training and facilities to provide 
evidence of that training. Competency and training requirements for 
staff are based upon their defined duties and risks associated with 
those duties. In VHA, radiation safety training and education are 
provided annually, through the VA Learning Management System, to all 
staff involved in the use or handling of radioactive material. This 
includes all contract staff or physicians working in VA Nuclear 
Medicine services as a condition of their authorization to practice at 
a VA medical center. The definition of a medical event and reporting 
requirements are taught to, and reviewed annually with, all Nuclear 
Medicine technologists and physicians. VA's National Health Physics 
Program provides a mechanism to ensure that the training provided is 
completed as required by VA policy. In addition, VA currently supports 
and trains all staff in reporting any untoward events or potential 
events consistent with guidance provided by the National Center for 
Patient Safety and the facility safety programs. As a result, many of 
the requirements of section 3 are duplicative of current VA policy.
    The requirement in section 4 to obtain weekly independent peer 
reviews of all medical services provided pursuant to a contract, and 
written evaluations of the services carried out by the supervisor or 
manager of the employee providing the services, is excessive and would 
add unwarranted cost in staff time spent procuring and developing the 
reports. The requirement to undertake peer reviews each week may be 
ineffective if the number of procedures in a week is insufficient to 
carry out a statistically valid review. The requirement for additional 
reporting and oversight of all medical services provided by contract, 
most of which have not reported adverse events, would be a waste of 
resources. Given current VA procedures related to peer review and 
reporting, some of the provisions in this bill are not necessary. We 
are available to meet with Committee staff to discuss these issues in 
more detail.
    While VA appreciates the Committee's focus on this issue, we 
believe that these additional measures are not necessary in view of the 
above regulatory requirements, safeguards, and training. VA estimates 
that costs for this bill, if enacted, would be $64.2 million for the 
first year, $347.5 million over 5 years, and $770.5 million over 10 
years.
                                s. 3348
    S. 3348 would require that certain misfiled documents be treated as 
motions for reconsideration of decisions of the Board of Veterans' 
Appeals (Board). A document so treated would be a document that 
expresses disagreement with a Board decision, is filed with the Board 
or the VA agency of original jurisdiction within 120 days after the 
Board issues the decision, and is filed by a person who is adversely 
affected by the Board decision but has not timely filed a notice of 
appeal with the United States Court of Appeals for Veterans Claims 
(Veterans Court). Such a document would not be treated as a motion for 
reconsideration if the Board or the agency of original jurisdiction 
determines that the document expresses an intent to appeal the Board 
decision to the Veterans Court and forwards the document to the 
Veterans Court, and the court receives the document within 120 days 
after the Board issued the decision.
    VA objects to the bill for two reasons. First, it would require the 
Board to decide motions for reconsideration of decisions without any 
meaningful basis for such reconsideration. This is because the bill 
would allow reconsideration of previously final decisions based on 
nothing more than a mere expression of disagreement, rather than based 
on the current reconsideration standard of obvious error of fact or 
law. Second, by requiring VA to make an initial determination as to 
whether a notice of appeal was filed in a case, the bill would place VA 
in the unprecedented position of determining whether a particular case 
falls within the jurisdiction of the Veterans Court, a superior 
tribunal. The additional activity that S. 3348 would require could 
potentially burden an already overburdened adjudication system and 
introduce uncertainty as to the finality of Board decisions.
    We believe that legislation recently proposed by VA that would 
authorize the Veterans Court to extend the 120-day period for appealing 
a Board decision on a showing of good cause presents a better solution 
for appellants who are unable to correctly file a notice of appeal of a 
Board decision. Under VA's proposal, the Veterans Court would determine 
whether the facts and circumstances of a particular case justify an 
extension of the statutory time period for filing an appeal, and the 
Board would not have to decide a case a second time with no clearly 
discernible benefit flowing to the Veteran.
    Concerning costs, the Board processes between 800 and 900 motions 
for reconsideration each year at a cost of approximately $587,000. The 
Board cannot predict the number of motions for reconsideration it would 
have to decide each year under the bill because the proposed standard 
involves too many variables. However, because S. 3348 would potentially 
treat all expressions of disagreement filed within the 120-day period 
for appealing a Board decision as motions for reconsideration, it is 
reasonable to conclude that the number of such motions decided would 
increase significantly along with VA's costs in issuing such decisions.
                                s. 3352
    S. 3352, the ``Veterans Pensions Protection Act of 2010,'' would 
liberalize the existing exemption in section 1503(a)(5) of title 38, 
United States Code, by excluding from income, for purposes of 
determining eligibility for VA pension, payments regarding 
reimbursement for expenses related to: accident, theft, loss, or 
casualty loss; medical expenses resulting from such causes; and pain 
and suffering related to such causes. The exemption for payments 
received to reimburse Veterans for medical costs and pain and suffering 
is an expansion of the current exclusions.
    VA opposes excluding from countable income payments received for 
pain and suffering because such payments do not represent a 
reimbursement for expenses related to daily living. The proposed 
treatment of such payments would be inconsistent with a needs-based 
program. We believe that payments for pain and suffering are properly 
considered as available income for purposes of the financial needs test 
for entitlement under section 1503.
    VA does not oppose the remaining provisions of this bill, exempting 
reimbursement for accident, theft, loss, casualty loss, and resulting 
medical expenses, subject to Congress identifying offsets for any 
additional costs.
    Because current law excludes from pension income calculations 
reimbursements from any casualty loss, there would be no benefit costs 
associated with the provisions relating to accident, theft, loss, or 
casualty loss. VA lacks sufficient data to determine potential benefit 
costs associated with the provisions relating to medical costs and pain 
and suffering.
    VA estimates there would be no additional administrative or full-
time employee costs associated with this bill.
                                s. 3355
    S. 3355, the ``Veterans One Source Act of 2010,'' would require VA 
to establish and maintain an interactive Internet Web site that 
provides information on the benefits, resources, services, and 
opportunities provided by VA, other Federal agencies, and other 
sources.
    VA supports the objective of S. 3355. However, VA has already 
collaborated with the Department of Defense (DOD) in the creation of a 
joint eBenefits Internet portal in response to the recommendations of 
the President's Commission on Care of America's Returning Wounded 
Warriors (Dole/Shalala), made in March 2007. This new Web site 
(www.ebenefits.va.gov) provides Servicemembers, Veterans, family 
members, and care providers a single transparent access point to online 
information about benefits, services, and other resources. It provides 
a consolidated catalog of links to existing information on VA, DOD, and 
other Federal and state agency Web sites concerning benefits, services, 
and related resources. Obtaining a Defense Self-Service log-on account 
in order to access eBenefits has recently become mandatory for all 
Servicemembers and allows them to carry their eBenefits account through 
their life cycle and concurrently allows VA and DOD to regularly update 
benefit-related information. Because the eBenefits portal meets the 
intent and nearly all of the requirements of S. 3355, VA believes this 
bill is unnecessary.
    Much of the information the bill would call for is available now in 
the eBenefits portal. Current topics include compensation, pension, 
health care, education benefits, home loans, financial services, 
employment assistance, reemployment rights, memorial benefits, Social 
Security benefits, DOD programs, state benefits, and Veterans Service 
Organizations. The eBenefits portal offers quick access to online 
application tools and other assistance to claimants. Secure access 
capabilities allow for personalization of content and services.
    Self-service capabilities the eBenefits portal offers include the 
ability to apply for many benefits online, to check the status of 
compensation and pension claims, to apply for a home loan certificate 
of eligibility, to view VA e-health records, and to access and retrieve 
official military personnel records. Access to blogs and online 
communities is also provided.
    In committing to the eBenefits portal, VA and DOD have already 
undertaken a multi-year project that will continue to add self-service 
transactional capabilities and to enlarge and refine online access to 
benefits, services, resources, and opportunities for Servicemembers, 
Veterans, family members, and caregivers. Some of these features will 
include the ability to: opt into the VA/DOD virtual electronic lifetime 
health record; transfer Chapter 33 (Post-9/11 GI Bill) benefits to 
dependents; change an address in both VA and DOD systems of records; 
communicate personally via a messaging center; receive automatic 
notification of benefits; view information on, and apply for, all VA 
benefits; and self-select to receive state benefit information. VA is 
confident that the capabilities of the eBenefits portal will meet the 
objectives of S. 3355.
    Funding for the eBenefits portal in FY 2010 is approximately $7.4 
million, which includes contract support, operating costs, and FTE. VA 
estimates that overall operating costs, contract support, and FTE will 
be $12 million in FY 2011. The estimated cost for the capabilities 
required by the bill that are not included in the eBenefits portal is 
$1.1 million. This estimate includes costs for the following features: 
an animated virtual user guide; resources for caregivers (currently 
provided at a minimal level); information on discounts for veterans; 
facilitation of ride sharing for appointments; memorial notices; 
opportunities for volunteering; and information on community events.
                                s. 3356
    Section 1 of S. 3356 would increase from 23 to 26 years the maximum 
age of eligibility for children to obtain medical care under the 
Civilian Health and Medical Program of the Department of Veterans 
Affairs (CHAMPVA). VA supports the intent behind S. 3356 to extend 
eligibility for coverage of children under CHAMPVA until they reach age 
26 so that eligibility for coverage of children under CHAMPVA will be 
consistent with private sector coverage under the health care reform 
laws. However, we note that the language of section 1, as written, 
would not make CHAMPVA coverage fully consistent with the private 
sector because it would change only the reference to a child's age, but 
maintain all other eligibility criteria for children covered by CHAMPVA 
intact. If the Committee's intent is to make CHAMPVA coverage fully 
consistent with the private sector, VA provides the following language:

    Section 1781(c) of title 38 is amended to read as follows:

          ``(c)(1) Notwithstanding clauses (i) and (iii) of section 
        101(4)(A) of this title, except as provided in paragraph (2), 
        for purposes of this section, a child, who is eligible for 
        benefits under subsection (a), shall remain eligible for 
        benefits under this section until his or her twenty-sixth 
        birthday, regardless of his or her marital status.''
          ``(2) Before January 1, 2014, a child will not be eligible 
        for the extended eligibility under this subsection if the child 
        is eligible to enroll in an eligible employer-sponsored plan 
        (as defined in section 5000A(f)(2) of the Internal Revenue Code 
        of 1986).''
          ``(3) This subsection shall not be construed to limit 
        eligibility for coverage of a child described in section 
        101(4)(A)(ii) of this title.''.

    S. 3356 as written would not extend eligibility because it does not 
address the definition of ``child'' under 38 U.S.C. Sec. 101, so the 
estimated cost of implementing the bill is $0, as no additional 
beneficiaries would be covered. The estimated cost of implementing the 
alternative language provided above, which would extend eligibility 
under CHAMPVA without regard to the age and school status limits in 38 
U.S.C. Sec. 101(4)(A)(i) and (iii), and the 101(4)(A) requirement to be 
unmarried, would be $64.8 million in FY 2011, $383.0 million over 5 
years, and $955.8 million over 10 years.
    VA defers to the National Aeronautics and Space Administration 
regarding section 2 of S. 3356.
                                s. 3367
    S. 3367 would increase from $8,911 to $31,305 the maximum annual 
rate of pension for two disabled Veterans married to one another when 
both are in need of regular aid and attendance currently prescribed by 
section 1521(f)(2) of title 38, United States Code. This bill would 
have the effect of amending the law governing improved pension to 
prospectively establish a pension rate for two Veterans married to one 
another, both of whom are in need of aid and attendance, at the rate 
that would have been payable had 38 U.S.C. Sec. 1521(f)(2) been amended 
in 1998 to provide a $600 increase for each Veteran, rather than a 
single $600 increase for the two Veterans, and the increased rate had 
subsequently been adjusted by annual cost of living adjustments. VA 
supports this bill as an equitable approach to meeting the needs of 
severely disabled Veterans, subject to Congress identifying offsets for 
the additional costs identified below. However, VA has a technical 
concern with this bill. It would update in accordance with current 
pension rates only one of the rates specified in section 1521(f)(2). 
The multitude of other pension rates prescribed by section 1521 would 
continue to be those that were in effect years ago. To avoid confusion, 
should Congress decide to amend one of the rates prescribed by section 
1521(f)(2), it should also update all the other rates prescribed in 
section 1521 to account for past cost-of-living adjustments.
    Because there are only 74 pension awards for two Veterans married 
to one another and both in need of regular aid and attendance, VA 
estimates the cost of this bill, if enacted, would be $733,000 in the 
first year, $3.7 million over 5 years, and $8 million over 10 years. VA 
has determined that there would be no additional administrative or 
full-time employee costs associated with this bill.
                                s. 3368
    S. 3368 would authorize certain individuals and organizations to 
sign an application for VA benefits on behalf of claimants under 18 
years of age, mentally incompetent, or physically unable to sign the 
application form.
    VA does not support this bill because it is unnecessary and would 
place Veterans, their family members, and VA at a higher risk for abuse 
and fraud. First, VA regulations currently provide a process for 
initiating a claim without a traditional signature. Section 3.2130 of 
title 38, Code of Federal Regulations, requires VA to accept a 
signature by mark or thumbprint if appropriately witnessed or certified 
by a notary public or certain VA employees. This alternate process 
enables claims to be filed by persons unable to sign an application. 
Second, a claimant unable to sign an application for benefits due to 
mental deficiency will likely be found incompetent to handle his or her 
own VA benefit payments, which requires VA to appoint a fiduciary, who 
would be qualified to sign application forms for the claimant. Allowing 
persons not appointed as VA fiduciaries to file claims for incompetent 
claimants would increase the risk that VA benefits would be diverted 
from claimants. For these reasons, we do not support S. 3368.
    VA estimates that there would be no benefit costs or administrative 
costs associated with this bill.
                                s. 3370
    S. 3370 would amend 38 U.S.C. Sec. 5105(a), which directs the 
Secretary of Veterans Affairs and the Commissioner of Social Security 
to jointly prescribe forms for use by survivors of members and former 
members of the uniformed services to apply for benefits under both 
chapter 13 of title 38, United States Code, and title II of the Social 
Security Act. Under section 5105(b), when an application on such a form 
is filed with either VA or the Social Security Administration (SSA), it 
is deemed to be an application for benefits under both chapter 13 of 
title 38 and title II of the Social Security Act. Accordingly, 
applicants for survivor benefits need file only one of the prescribed 
forms with either agency to apply for such benefits at both agencies.
    The bill would authorize but no longer require VA and SSA to 
jointly prescribe forms to apply for survivor benefits and, more 
significantly, require VA and SSA to interpret an application made on 
any form indicating an intent to apply for survivor benefits filed with 
either agency as an application for benefits under both chapter 13 of 
title 38, United States Code, and title II of the Social Security Act. 
Requiring VA and SSA to accept as an application for survivor benefits 
any application that indicates an intent to file for such benefits 
without regard to the application form would be inconsistent with the 
concept embodied in 38 U.S.C. Sec. 5101(a) that a claim for veterans 
benefits must be made by filing a claim ``in the form prescribed by the 
Secretary.'' This requirement serves the beneficial purpose of ensuring 
that a claim contains sufficient information as specified in the claim 
form to permit VA to efficiently adjudicate the claim. Permitting the 
filing of ``any form'' to constitute a claim for survivor benefits 
would condone use of a multitude of forms (for example, a VA Form 21-
4138, Statement in Support of Claim), that might provide only minimal 
information and require inefficient follow up inquiries from VA. Such a 
procedure would be inconsistent with VA's efforts to improve the 
efficiency of claim adjudications. For this reason, VA does not support 
S. 3370.
    We estimate that there would be no cost associated with S. 3370.
                                s. 3377
    S. 3377 would convert VA's multifamily transitional housing loan 
guarantee program into one that would instead provide direct loans to 
qualified organizations. Under current subchapter VI of chapter 20, 
title 38, United States Code, the Secretary is authorized to guarantee 
not more than 15 loans, or an aggregate amount of $100 million, for 
multifamily transitional housing projects. This bill would terminate 
the Secretary's authority to issue any new guarantees under section 
2051, but would require the Secretary to make at least five direct 
loans to qualified organizations that plan to develop multifamily 
housing projects. The source of funds for the program would be the 
Multifamily Transitional Housing Loan Program Revolving Fund, 
established under section 1(b) of the bill.
    VA does not support enactment of S. 3377. VA spent the better part 
of a decade testing the model and trying to make the multifamily 
transitional housing loan guarantee program work. During that time, the 
marketplace repeatedly revealed that there was a strong need for more 
programs that provide low-cost housing, including those offering 
supportive services for Veterans returning to gainful employment. There 
were three main reasons why organizations did not seek project 
financing through the VA program, which led them to try to instead find 
funding from other Federal, state, and local programs: (1) a lack of 
available operating subsidies (i.e., formerly homeless veterans cannot 
pay enough rent to generate sufficient project revenue to cover 
operating expenses and support services); (2) the debt repayment 
requirement (many local government entities offer either low-interest, 
interest-only, deferred, and/or forgivable debt products, which are 
more appealing to project sponsors than the VA loan guarantee program); 
and (3) the large project size requirement (large projects are 
difficult to site, and there is a growing trend towards developing 
mixed-tenancy projects). In addition, other sources of funding needed 
to create housing are almost exclusively tied to non-transitional 
housing. Persons living in transitional housing are normally still 
considered homeless.
    Additionally, we have concerns how the program would be 
implemented, as it is not clear that the program structure would be 
consistent with other existing legislation, such as the Federal Credit 
Reform Act. Furthermore, the provision that would authorize the 
Secretary to delegate to a State or local government entity the 
authority to approve a loan might constitute an unconstitutional 
delegation of Federal authority. The statutory language should make 
clear that a delegation of approval authority to a State or local 
government entity remains subject to the Secretary's continuing 
supervision.
    VA's 2011 Budget includes $4.2 billion to prevent and reduce 
homelessness among Veterans--over 3.4 billion for medical services and 
nearly $800 million for specific homeless programs.
    VA estimates that this bill would not create any demand for 
multifamily transitional housing direct loans, but would result in 
administrative expenses of $1.05 million in year one, and $7.8 million 
over 10 years. If direct loans were made, they would likely be very 
expensive given the anticipated terms and conditions on the underlying 
loans. Therefore, it is not clear that Federal credit assistance is the 
most efficient or effective means of achieving the policy objective.
                                s. 3486
    S. 3486 would repeal the prohibition on collective bargaining with 
respect to compensation of VA employees other than rates of basic pay. 
We will provide the Committee with formal written comments on this bill 
in a separate letter.
    The Office of Management and Budget has advised that there is no 
objection to the submission of this report from the standpoint of the 
Administration's program.
            Sincerely,
                                          Eric K. Shinseki.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
                  U.S. Department of Veterans Affairs
    Question 1. Can you please share any current studies by VA on 
exposure of Blue Water Navy Veterans to Agent Orange during the Vietnam 
War?
    Response. Because of concerns about Blue Water Navy Veterans, the 
Veterans Health Administration (Office of Public Health and 
Environmental Hazards) contracted with the Institute of Medicine (IOM) 
in December 2009, to evaluate potential exposure of Blue Water Navy 
personnel to herbicides used during the Vietnam War. The IOM Committee 
will determine, if possible, comparative risks for long-term health 
outcomes comparing Vietnam Veteran ground troops, Blue Water Navy 
personnel, and other ``era'' Veterans who served in this period at 
other locations. IOM's report is due by Summer 2011.

    Question 2. Senator Klobuchar recently introduced S. 3355, the 
Veterans One Source Act of 2010. Is VA currently in need of additional 
authorities to implement the type of Web site contemplated by Senator 
Klobuchar in her legislation?
    Response. S. 3355 calls on VA to establish a single Web site to 
expand and consolidate online information related to the important 
benefits, resources, services and opportunities available to our 
Veterans, their families, caregivers and survivors. VA does not require 
additional authorities to implement an interactive Web site as 
suggested in S. 3355. In 2007, VA and DOD began collaborating to create 
a single, transparent access point for Servicemembers, Veterans, their 
families, and caregivers. VA and DOD launched the joint eBenefits web 
portal in July 2009. This portal provides users access to online 
information about benefits, services, and other resources as a ``one-
stop shop'' to fulfill an important need. It provides a consolidated 
catalog of links to existing information on VA, DOD, and other Federal 
and State agency Web sites concerning benefits, services, and related 
resources. The portal provides interactive tools, consistent with the 
intent of the legislation, which suggested interactive features to 
enhance personalization.
    VA believes the online self-service capability to Servicemembers 
and Veterans provided by eBenefits meets the intent of the bill. Users 
can retrieve copies of their military records, view their VA disability 
compensation and pension claim status, obtain or submit an application 
for home loan certificate of eligibility and access MyHealtheVet. Every 
user is provided with all the necessary resources that are uniquely 
adapted to their specific needs and circumstances. The portal is 
aggressively updated every quarter to further enhance ease and 
usability. Future releases will include an easy change of address 
functionality and secure messaging with VA's health professionals.
    VA is eager to continue the open dialog with our many stakeholders 
on how to further enhance eBenefits capabilities. For example, VA is 
already working to enhance outreach to Veterans and their families by 
providing important information about Veterans' benefits available from 
other State and Federal agencies. Another outreach effort involves 
peer-to-peer networking--a critical method for many of our Veterans to 
communicate. Communication with, and support from, internal and 
external stakeholders will continue to be key to our success as 
eBenefits moves forward. Our intent is for eBenefits to become the 
premier online self-service portal for Servicemembers and Veterans.

    Question 3. This question also relates to S. 3355. What steps is VA 
taking to use social media--such as Facebook, Twitter, and YouTube--to 
engage with todays vets, and how successful has VA been?
    Response. Since Fall 2009, VA has made a concerted effort to reach 
and converse with a younger community of Veterans through the use of 
social media, to include Facebook, Twitter, YouTube, Flickr, and blogs. 
Currently, VA has the fastest growing Facebook page among all Cabinet-
level agencies--with more than 30,000 fans? Many who have joined in 
since Veterans Day (over 1,000 fans per week). VA is also rapidly 
expanding into the popular world of Facebook in other ways. Each 
administration (VHA, VBA, and NCA) now has its own page for topic-
specific conversations, as do more than a dozen VA medical centers--and 
there are plans underway to launch a page for each medical center to 
monitor and update.
    VA is on similar good footing with Twitter. VA now has four 
separate official Twitter feeds--one for the Department and each of the 
administrations. Since Veterans Day 2009, VA's primary Twitter feed has 
gained 4,500 followers--a respectable number among Cabinet-level 
agencies. While more than a dozen VA medical centers have active 
Twitter feeds, VA has begun--as with Facebook--to open accounts for 
each medical center in 2010. In January, 2010 VA also launched its 
first official Twitter feed for a VA principal, as Assistant Secretary 
Tammy Duckworth is now engaging with the public via her own VA Twitter 
account. Primarily, Ms. Duckworth ``tweets'' about pursuing a Ph.D. 
with her GI Bill benefits in a way to encourage other warriors to 
pursue and finish higher education.
    VA has also embraced video and photo-sharing media with the use of 
YouTube (videos) and Flickr (photos). VA has begun posting each segment 
from its Emmy award winning news magazine program, The American 
Veteran, on YouTube while showcasing a selection of them on the VA 
homepage. At the same time, VA has a separate YouTube channel dedicated 
to health care and administered by VHA, which has posted more than 90 
videos, has 1,500 subscribers, and more than 83,000 views. Recently, 
VBA posted ``team photos'' of their Regional Processing Centers in a 
``thank you'' to the hard working teams. While posted, the photos 
received over 17,000 ``hits.''
    In terms of blogging, VA has plans to launch an online 
communications hub in 2010, which will feature a central VA blog, 
topical blogs, and have a section for guest pieces--submitted by both 
the VA staff as well as the public. Until the launch, VA has been 
spreading its important messages via other blog sites--with pieces 
published at the White House Blog, Military.com, and The Huffington 
Post.
    For this year's outstanding on-line outreach efforts to Veterans, 
VA's Office of Public Affairs' work has been written about and 
recognized in both the Washington Post (http://www.washingtonpost.com/
wp-dyn/content/article/2010/04/08/AR20100408 05128.html) and the 
Huffington Post (http://www.huffingtonpost.com/richard-allen-smith/vet-
bloggers-storm-americ b 467186.html).

    Chairman Akaka. Thank you very much, Dr. Jesse.
    Mr. Pamperin, can you please elaborate on VA's statement 
that S. 1939 would make many veterans whose service during the 
Vietnam War would not have placed them at risk of exposure to 
herbicides eligible for presumption of a service connection?
    Mr. Pamperin. Sir, I would be happy to. Tactical herbicide 
was used to defoliate trees. We already provide for presumptive 
service connection for naval personnel and Air Force personnel 
who were in brown water where we can demonstrate that they were 
ashore or even if they transited for only a very short time in 
Vietnam. But many of these ships were hundreds of miles away 
from the shore. In fact, a very senior naval officer told me 
when he was working for VA that when he was a submarine 
commander, they would make it a point to go inside the tactical 
zone so that they could get the Vietnam Service Medal. They 
were submerged at the time.
    So we do not believe that herbicide would have extended 
hundreds of miles offshore, nor would it have affected high-
altitude aircraft.
    Chairman Akaka. As a follow-up question, do you have an 
estimate on the number of veterans who would become eligible 
under this legislation?
    Mr. Pamperin. We have a limited amount of information. When 
the Court of Appeals for Veterans Claims held that the Vietnam 
Service Medal warranted the Agent Orange presumptive, we did a 
cost analysis. The Navy was not able to give us a list or a 
definitive number of military personnel that were affected. 
However, what they did tell us was, given the known deployment 
of ships, they estimated naval people who would be affected at 
about 800,000. In terms of Air Force, we have not done that 
kind of study, but we can get back to you on it.
    Chairman Akaka. Dr. Jesse, I believe that expanding the use 
of telehealth solutions is important as it increases access to 
care for veterans, especially those in rural areas. I know VA 
has not had an opportunity to officially comment on the bill 
sponsored by Senator Begich, but perhaps you can speak 
generally. Do you know if the Department realizes any savings 
by expanding the delivery of care through telehealth?
    Dr. Jesse. Sir, I do not think I can speak to that 
directly, but we could get back to you for the record on that. 
I am sorry.
    Chairman Akaka. Thank you.
    [Items were not received by the Committee by the deadline 
for printing.]
    Chairman Akaka. Secretary Jefferson, what insights can you 
offer on the employment situation among individuals who have 
been separated from service for more than 10 years?
    Mr. Jefferson. Well, sir, we know that the age of veterans 
with the highest unemployment rate are those 20 through 24, and 
for those veterans as they get older, the rate is much more 
aligned with the average unemployment rate for Americans.
    Having said that, we are always looking at ways that we can 
reach out to any cohort of veterans to provide them better 
services or any services which can be customized to their 
unique situation.
   Prepared Statement of Raymond M. Jefferson, Assistant Secretary, 
      Veterans' Employment and Training, U.S. Department of Labor
    Chairman Akaka, Ranking Member Burr, and Members of the Committee: 
I am pleased to appear before you today to discuss legislation pending 
in this Committee.
    The Veterans' Employment and Training Service (VETS) proudly serves 
Veterans and transitioning Service Members by providing resources and 
expertise to assist and prepare them to obtain meaningful careers, 
maximize their employment opportunities and protect their employment 
rights.
    I am deeply humbled to have the privilege of serving our Nation as 
the Assistant Secretary for Veterans' Employment and Training. 
Secretary Solis has been an incredible source of guidance and support, 
and has made Veterans and VETS one of her top priorities. Our programs 
are an integral part of Secretary Solis's vision of ``Good Jobs for 
Everyone,'' and her commitment to help Veterans and their families get 
into the middle class and maintain stability.
    First let me describe what the Veterans' Employment and Training 
Service at the Department of Labor does. We have four main programs 
that we are working to improve:

    <bullet> The Jobs for Veterans State Grants;
    <bullet> The Transition Assistance Program Employment Workshops;
    <bullet> The Homeless Veterans' Reintegration Program; and
    <bullet> The Uniformed Services Employment and Reemployment Rights 
Act.

    Your letter of invitation indicates you are seeking input on a 
significant number of bills at this hearing and you want me to 
specifically provide my views on S. 3234, the proposed ``Veteran 
Employment Assistance Act of 2010. I am also providing comments 
regarding S. 3314, which would carry out a program of outreach for 
Veterans' who reside in Appalachia Because the other bills are under 
the purview of the Department of Veterans Affairs (VA), I defer to the 
VA and will restrict my comments to S. 3234 and S. 3314.
                                s. 3234
    The Veteran Employment Assistance Act of 2010, S. 3234, is intended 
to ``improve employment, training, and placement services furnished to 
Veterans, especially those serving in Operation Iraqi Freedom and 
Operation Enduring Freedom, and for other purposes.'' The Department of 
Labor supports the goals of the Veteran Employment Assistance Act of 
2010.
    This comprehensive legislation will address the unique needs of our 
Veterans who have been struggling to find work and to keep their jobs. 
The legislation fills a critical need. This bill will help our Veterans 
gain the additional skills they need to participate in today's modern 
economy. It will provide them the opportunity to start their own 
businesses, if they choose to. And, it encourages employers at all 
levels to recognize that those who've given much in the service of 
their country have much to offer to a prospective employer.
    Much in S. 3234 if enacted would significantly help the Veteran 
community. I would like to highlight some of the key provisions of this 
bill.
    The Veterans Business Center Program established in Section 3 of 
the bill would provide entrepreneurial training and counseling to 
Veterans. As we all know, small business is the main driver of job 
creation in our country. Veterans make ideal entrepreneurs, they have 
the discipline, maturity and life experiences to take on the tremendous 
challenges that small business ownership entails. Targeting 
entrepreneurship programs to this community makes sense. If enacted and 
fully funded, we would be pleased to work with SBA on this initiative.
    Section 5 requires all new state employees, Disabled Veterans 
Outreach Program specialists (DVOP) and Local Veterans Employment 
Representatives (LVER) to be trained by the National Veterans' Training 
Institute (NVTI) within a one year period from the date of hire. 
Current law requires it be done in three years. Those employed before 
enactment of S. 3234 would have to be trained within one year following 
enactment unless they have already been trained. We believe that this 
training needs to be provided as soon as practicable. However, these 
individuals are not always hired at the same time and, depending on the 
number of new hires, there may not be sufficient new hires to fill a 
class.
    Section 6 adds a new section 4216 to Chapter 42 of title 38 United 
States Code, that requires the Assistant Secretary for Veterans' 
Employment and Training (ASVET) provide a monthly training subsistence 
allowance to a Veteran who is enrolled in a full time employment and 
training program. Covered Veterans would include those who do not 
qualify for VA's educational and training assistance under Title 38, 
have been unemployed for four consecutive months, and can complete the 
training program.
    The Department notes this section establishes an entitlement to 
this assistance, which is a concern in light of the long-term financial 
challenges the Nation faces. The assistance would be available without 
regard to the financial need of the Veteran or the need for training to 
enhance his or her employment prospects.
    The Department also notes that Veterans receive priority of service 
within the wide array of training programs currently available through 
the DOL-funded One-Stop Career Center system. Moreover, Pell Grants and 
other financial assistance may also be available for unemployed 
veterans, including eligibility for unemployment insurance benefits, as 
well.
    In the event this legislation is enacted and appropriations are 
provided, the Department would need to address several issues prior to 
its implementation, including:

    <bullet> Developing a system of certification and payment;
    <bullet> Determining options to include employment specialists in 
One-Stop Career Centers certifying Veterans; and
    <bullet> Develop a payment system, which would include 
collaborating with the Department of Defense to ascertain payment 
amounts under section 403 of title 37, United States Code.

    The Department believes the training allowance program's highest 
priority should be those eligible Veterans who, without this benefit, 
would be unable to obtain the training necessary to find a good job. It 
should be reserved for those who truly need it or have significant 
barriers to employment.
    Section 9 establishes within the VA a Center of Excellence where 
the ASVET would have a consultative role to establish a system of 
affording academic credit for military experience and training under 
certain circumstances. This recognition of military experience and 
training should be useful in preparing a resume and establishing 
capabilities with prospective employers. Additionally, it may also be 
helpful if the Service Member is applying to a college or vocational 
institution. These institutions want information on the Service 
Member's military training and experience, as well as how this might 
relate to the civilian world.
    Current law codified at 38 U.S.C. Sec. 4212(d) requires certain 
Federal contractors to report data on their workforce and on certain 
Veterans in their employ. This is accomplished by filing a VETS 100A 
Report with DOL. Section 10 of this bill would require DOL to publish 
the VETS 100A Reports on the Internet. DOL supports this provision. 
However, the Committee should recognize that some contractors might 
believe that certain reported data, in particular data on the total 
number of new hires, should not be made available to their competitors.
    There are many other components to S. 3234 and we would like to 
work with the Committee to ensure that this legislation effectively 
achieves its intended goals.
                                s. 3314
    S. 3314 would require the Secretary of Veterans Affairs and the 
Appalachian Regional Commission to carry out a program of outreach for 
Veterans who reside in Appalachia. While the Department of Labor is not 
tasked with anything in S. 3314, we would like to provide information 
on our rural initiative.
    VETS is developing an innovative national initiative that will 
allow us to greatly improve outreach to rural Veterans and provide them 
access to better programs, services and information, as well as 
connection to a wide variety of services. VETS understands that 
successful employment is inextricably linked to other quality-of-life 
issues, so this initiative will also offer access to these other 
important services. VETS has reached out to the Corporation for 
National and Community Service and Service Nation to create a 
partnership that will serve as the basis for this initiative. Our goal 
is to begin a demonstration pilot in 2010 that will provide lessons on 
how VETS can create a scalable model for national roll-out.
    The core service envisioned is for DOL VETS to work with existing 
non-government networks and state government organizations to launch a 
pilot program to reach Veterans. The outreach team may offer in-person, 
internet, and/or phone based intake for self -registration to schedule 
a volunteer visit. The volunteer team will contact the Veterans, check 
on how their careers are going, and if needed, making them aware of 
additional support available from DOL, and potentially other government 
organizations.
    VETS intends to leverage capacity from Veteran Service 
Organizations and state and local based volunteer organizations to 
provide the outreach services. These volunteers will be directed and 
closely managed by the Federal Government through our state Director of 
Veterans' Employment and Training (DVET) and our Federal partners.
    We believe this initiative complements the outreach efforts 
envisioned in S. 3314.
                               conclusion
    Every day, we are reminded of the tremendous sacrifices made by our 
servicemen and women, and by their families. One way that we can honor 
those sacrifices is by providing them with the best possible services 
and programs our Nation has to offer. Secretary Solis and I believe 
strongly that Veterans deserve the chance to find good jobs.

    I again thank this Committee for your commitment to our Nation's 
Veterans and for the opportunity to testify before you. I would be 
happy to respond to any questions.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
  U.S. Department of Labor, Veterans' Employment and Training Service
    Question 1. It has been suggested that services to Veterans could 
be improved by converting DVOPs and LVERs from state to Federal 
positions. What are your thoughts?
    Response. Disabled Veterans Outreach Program specialists (DVOPs) 
and Local Veterans Employment Representatives (LVERs) currently provide 
employment services as part of an extensive Department of Labor (DOL) 
funded One-Stop Career Center system. We are not aware of any study 
that has been conducted that indicates that the employment services 
would be improved if the staff providing those services were Federal 
rather than State employees.
    Such a change would be highly disruptive to the current service-
delivery framework and fundamentally change the way employment services 
are currently delivered to Veterans. DVOPs and LVERS are integrated 
within the State's One-Stop Career Center system so that they can 
assist Veterans in accessing the full range of workforce services 
available at the State and local levels, consistent with changes made 
after the enactment of the Jobs for Veterans' Act (JVA), Public Law 
107-288, in November 2002. As the emphasis has been on focusing the 
delivery of services at the State and local levels in order to link 
Veterans' employment services to State and local labor market needs, 
Federal staff lack experience and expertise in this area. In addition, 
considerable administrative challenges would need to be overcome to 
effectuate the conversion from State to Federal positions, including 
complications arising from the transition of employees from State to 
Federal pay and benefits structures. This change could also have 
considerable costs. Some specific considerations include:

    <bullet> Transfer of Employees: Numerous personnel issues would 
have to be addressed. For example, there could be a significant number 
of DVOPs and LVERs who would not want to convert to Federal status 
since seniority is not transferable from State to Federal personnel 
systems.
    <bullet> Salary Structure: Currently, each State sets its own pay 
scale. In many States, where the Federal pay grade is much greater than 
their associate State pay scale, fixing the DVOP or LVER pay scale to a 
particular entry grade level will most likely make these new Federal 
positions very attractive. However, in at least a dozen States, higher 
current State compensation levels would render Federalizing their 
positions unattractive to incumbents, and the conversion could result 
in the loss of employees unwilling or unable to accept less pay.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Patty Murray to 
  U.S. Department of Labor, Veterans' Employment and Training Service
    Secretary Jefferson, you have brought a level of energy and 
creativity to your job that I think is real benefit to Veterans. So I 
thank you for that and for working with my staff and me on my Veterans' 
employment bill. Since you were unable to read your testimony this 
morning, I would like to ask you a few questions about the Veterans' 
employment bill.

    Question 1. What are some of the Veterans' employment hurdles that 
you are seeing within DOL-VETS?
    Response. There are a number of hurdles that impact our Veterans in 
today's job market. Some of these are:

    <bullet> While emphasis and attention on Post Traumatic Stress 
Disorder and Traumatic Brain Injuries are critically important to the 
care of our Service Members and Veterans, it has some spillover effects 
in the employment arena, specifically in terms of stigma. Some 
employers may be hesitant to hire a Veteran because of the mistaken 
belief that they may present management challenges or pose a risk to 
fellow employees.
    <bullet> Many recent Veterans have seen multiple deployments to 
Iraq and Afghanistan, which has made it much harder for them to 
transition back into the workforce. Veterans are also playing catch-up 
with their peers in regards to networking and civilian workforce 
experience due to their time in the service. These shortfalls translate 
into difficulty in marketing themselves to employers.
    <bullet> There may be a lack of knowledge by hiring managers of the 
value proposition of the Veteran. These managers may not realize how 
the military skill sets translate into the skills needed on the job.

    Question 2. What best practices have you seen with regards to 
transitioning Veterans to the civilian job market? Where are the 
shortfalls?
    Response. Among the best practices in helping Service Members' 
transition to civilian life are predictive assessments, mental peak-
performance training, knowledge of current and future employment 
trends, stress reduction techniques, defining and communicating one's 
value proposition, creating a network, learning how to assimilate into 
a civilian work environment, and career/life planning.
    In addition, the Department of Defense (DOD) and each of the 
military services strive to assist Service Members as they separate 
from active duty or demobilize and return to their civilian life and 
jobs. Active duty members participate in formal pre-separation 
counseling and transition assistance programs when they are preparing 
for discharge.
    Through DOD's Transition Assistance Program (TAP), the Department 
of Labor (DOL) also helps returning Veterans learn how to market their 
unique skills and experience to potential employers. DOL provides the 
TAP employment workshops, which consist of comprehensive two and one-
half day sessions where participants learn about job searches, career 
decisionmaking and current occupational and labor market conditions. 
Practical exercises are conducted in resume writing and interviewing 
techniques. Participants are also provided an evaluation of their 
employability relative to the job market and receive information on the 
most current Veterans' benefits. Components of an employment workshop 
include: career self-assessment; resume development; job search and 
interview techniques; U.S. labor market information; civilian workplace 
requirements; and documentation of military skills.
    National Guard and Reserve commanders also provide information and 
assistance to their members when they demobilize, so their members know 
how and where they can receive help if they need it. DOL supports this 
effort through our participation in the Yellow Ribbon Reintegration 
Program.
    The shortfalls in this area are the same as those described 
previously in the answer to question #1.

    Question 3. What best practices have you seen within government 
agencies when it comes to hiring Veterans, especially those that are 
service-connected disabled? How could we expedite the hiring process to 
create more opportunities?
    Response. The agencies with the most success in hiring Veterans 
have established a dedicated resource to this effort. All agencies 
covered under Executive Order 13518 have established Veteran Employment 
Program Offices.
    A best practice is to make use of special noncompetitive hiring 
authorities such as the Veterans Recruitment Act (VRA) and the thirty 
percent or more disabled Veteran hiring authority. In addition, there 
are several resources available to provide work place accommodations 
for Veterans with disabilities, including:

    <bullet> Job Accommodation Network (JAN): This DOL-funded program 
is the leading source of free, expert, and confidential guidance on 
workplace accommodations and disability employment issues. JAN offers 
one-on-one guidance on workplace accommodations, the Americans with 
Disabilities Act and related legislation, and self-employment and 
entrepreneurship options for people with disabilities, including 
disabled Veterans and Service Members.
    <bullet> Computer/Electronic Accommodations Program (CAP): This DOD 
program provides assistive technology and services to people with 
disabilities, Federal managers, supervisors, and IT professionals. CAP 
increases access to information and works to remove barriers to 
employment opportunities by eliminating the costs of assistive 
technology and accommodation solutions.
    <bullet> America's Heroes at Work: This DOL outreach and anti-
stigma campaign educates America's employers about the simple on-the-
job accommodations and steps they can take to help Veterans with Post 
Traumatic Stress Disorder and Traumatic Brain Injury to excel in their 
careers. This program is the result of strong collaboration with DOD, 
the Department of Veterans Affairs, and other Federal agencies and 
stakeholders.

    We defer to the Office of Personnel Management on the question of 
expediting the Veterans hiring process for positions within the Federal 
Government.

    Question 4. How do you think rolling the grant programs for 
Conservation Corps and Energy employment would work within the confines 
of DOL-VETS?
    Response. As we understand the Conservation Corps and Energy 
Employment sections of S. 3234, the Veteran Employment Assistance Act 
of 2010, we believe that both establish grant programs to the States. 
These appear to be similar in function to the grants currently awarded 
by the Department of Labor through the Jobs for Veterans State Grants 
programs. We would appreciate the opportunity to further discuss with 
your staff the similarities to current grants programs and the possible 
adjustments needed to the programs.

    Chairman Akaka. Dr. Jesse, if Senator Casey's bill were 
enacted today, do you believe the Department would be prepared 
to implement it? Or do you believe further guidance from the 
Nuclear Regulatory Commission would be required?
    Dr. Jesse. Sir, I am sorry. I am not sure which bill that 
is.
    Chairman Akaka. Yes, this has to do with the Veterans 
Health and Radiation Safety Act of 2010, S. 3330.
    Dr. Jesse. Sir, we do not have comments on that prepared.
    Chairman Akaka. All right. Thank you very much.
    Now I am going to call on our Ranking Member for any 
comments he has.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman, I appreciate that. I apologize 
to our witnesses that I was a few minutes late. Traffic in 
Washington is a little unpredictable at about 9:30. I would ask 
that my opening statement be included in the record, and I will 
let the Chair go to others for questions. I prefer to wrap up.
    Chairman Akaka. Your statement will be included in the 
record. Thank you.
    [The prepared statement of Senator Burr follows:]
       Prepared Statement of Hon. Richard Burr, Ranking Member, 
                    U.S. Senator from North Carolina
    Good morning, Mr. Chairman. Welcome to our witnesses.
    We have an extensive legislative agenda before us today--20 bills 
in total, one which I introduced last week along with Chairman Akaka, 
Senator Durbin, and Senator Burris--S. 3377.
    This legislation would improve the Department of Veterans Affairs 
(VA) Multifamily Transitional Housing Loan program and direct the use 
of $48 million in previously appropriated money going forward.
    The original loan program, established in 1998, was intended to 
encourage development of transitional housing coupled with supportive 
services.
    However, it was considered too rigid by community providers, who 
wanted greater flexibility in the loan terms and greater freedom to 
provide other living options--such as permanent housing--within the 
project being financed.
    Only one loan was actually made to Catholic Charities, who operates 
the St. Leo Campus for Veterans in Chicago, Illinois.
    S. 3377 is based, in part, on St. Leo's experience in meeting its 
operational and resource challenges.
    Specifically, my bill gives VA the authority to issue loans 
directly to community providers. The advantage of direct loans is the 
greater flexibility VA will have in customizing loans to meet 
providers' unique needs.
    Mr. Chairman, last fall you and I agreed to work together to find a 
constructive use for the original $48 million that was appropriated for 
the homeless loan program twelve years ago. I was told then by the 
Congressional Budget Office that amending the original program was the 
only way to do it.
    I look forward to working with you, Senator Burris, and other 
Committee Members as we move forward.
    I'm going to spend the remainder of my statement, Mr. Chairman, 
talking about a problem that we seem to be discussing at every hearing 
. . . namely, this Administration's apparent lack of responsiveness for 
the Committee's oversight and legislative responsibilities.
    First, a quick compliment. The Administration's testimony for this 
hearing was on time. I'm hoping it is the beginning of a new trend.
    With that said, the testimony only has views on 9 of the 20 bills 
on today's agenda, with a promise to provide views on the others at a 
later time. Although I understand it's tough to clear views on bills 
introduced within the last week, I'm skeptical we'll get them anytime 
soon. Here's why:
    Last October we had a hearing, like today's, on pending 
legislation. On the agenda was a bill proposing comprehensive 
improvements to end veterans' homelessness. We didn't get views on that 
bill until March.
    Continuing . . . last month the Chairman and I sent a letter to 
Secretary Shinseki reminding him that we had yet to receive responses 
to 216 of the 347 questions submitted following the Committee's 
February budget hearing.
    After VA's weekly updates that responses to our questions were 
imminent . . . and the latest communication was to expect answers by 
last Friday, May 14 . . . still, nothing. Rather, we received a letter 
from Secretary Shinseki stating that the questions are ``under review'' 
by the Office of Management and Budget.
    We were also promised responses last Friday to questions submitted 
by Committee members after hearings on October 8, October 21, November 
11, March 3, and March 24 . . . still, nothing in from the 
Administration.
    Mr. Chairman, in a week or so, the Senate is expected to consider 
supplemental appropriations legislation that includes very important 
funding for our troops and veterans. I submitted several questions 
relevant to this legislation. Despite the urgent need for us to act 
quickly, the Administration still has not responded.
    There are many other unanswered budget questions that bear directly 
on policy that is the subject of several of the agenda items today. Yet 
we have nothing.
    We still have no 5-year plan from the Administration to end 
homelessness; no idea what legislative authorities VA thinks it needs 
to accomplish that goal; and no idea how VA's budget request for next 
year and the advance year of 2012 fits within the overall plan.
    Mr. Chairman, we are completely adrift here. This Committee cannot 
conduct its oversight and legislative functions without full 
cooperation from the Administration. We're talking about programs to 
improve the lives of veterans.
    Clearly, voicing our concerns over these issues hasn't worked . . . 
. I'm committed to working with you, Mr. Chairman, in finding a 
solution because we simply cannot do our jobs adequately without the 
VA's full cooperation.

    Thank you, Mr. Chairman.

    Chairman Akaka. At this time let me call on Senator Murray 
for any comments or questions she may have.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Well, Mr. Chairman, thank you very much. 
Before I ask questions, I do want to talk for a minute about a 
bill that is before the Committee this morning. It is the 
Veteran Employment Assistance Act of 2010, and Secretary 
Jefferson just spoke to the issue of high unemployment for men 
and women who have been serving us in Iraq and Afghanistan.
    We are seeing a lot of our Nation's most dedicated and 
disciplined workers coming home, and they cannot find a job. 
They do not have an income to provide stability and do not have 
work that provides critical self-esteem and pride as they 
transition home. So, last month I introduced the Veteran 
Employment Assistance Act to help those veterans transition 
from the battlefield into the working world.
    It is a bill that is really designed to make sure that our 
veterans do not have to go from fighting to keep us safe to 
fighting just to get an interview, which is what I heard from 
many of them as we spoke. It includes new business 
opportunities, it expands some of our existing programs, and I 
think really builds a bridge for our veterans into family-wage 
jobs. It does include an expansion of the Post-9/11 GI Bill to 
include job training and apprenticeship programs. This is 
something our veterans are telling me is very important to 
them.
    In this bill we set up a Veterans Business Center within 
the Small Business Administration so veterans can begin to get 
some skills and capital to begin to build their own small 
businesses. We expand some innovative programs like the 
Conservation Corps Program in Washington State, and we provide 
our National Guard soldiers with the transition they deserve at 
a time when they are seeing repeated service in Iraq and 
Afghanistan, which is hindering many in their ability to keep a 
job or get a job when they return.
    I think this is really an important bill right now as our 
economy is beginning to turn. I think we have got to take some 
very real comprehensive steps to make sure that the men and 
women who served us are getting jobs and employment as they 
come home and are part of our economic recovery as well.
    This is a bill I have worked long and hard on, and I really 
appreciate your including it today, Mr. Chairman. I want to 
thank Senators Mark Begich and Sherrod Brown, who are 
cosponsors, and I look forward to working with you to get it 
through the Committee.
    Secretary Jefferson, I want to ask you about it today and 
to ask you what you are hearing regarding some of the hurdles 
that our veterans are seeing as they come home and try to get a 
job back in the civilian world.
    Mr. Jefferson. Senator, first let me just say that this is 
a very helpful bill and a bill that is very timely--the fact 
that it provides additional skills for veterans, the fact that 
it promotes entrepreneurship and the opportunity for veterans 
to create their own businesses, and also it promotes increased 
hiring by employers. I just wanted to say up front that we 
strongly support the goals of this legislation.
    We hear a lot of things from veterans. One of the things 
first is that their preparation for transition to meaningful 
careers after leaving the service needs to be enhanced, and 
that is one of the reasons that, for the first time in 17 
years, we are completely modernizing and transforming our 
Transition Assistance Program and making the emphasis there on 
acceleration.
    A second thing that we are doing is we are working to 
change the cultural conversation in this country so that 
employers are aware of the tremendous benefits that veterans 
have to offer. I am not sure, Senator, if you and the other 
members have had the privilege of seeing the last March issue 
of Fortune magazine, but it says, ``The new face of business 
leadership in America,'' and it is a veteran. We are engaging 
with major organizations such as Fortune to tell that story.
    We are also doing significant engagement with employers and 
business associations. This afternoon, for example, we are 
speaking to Business Executives for National Security. One of 
the major associations representing the top CEOs in America 
want to help veterans and servicemembers, and we are going to 
talk to them about why they should hire a veteran, how to hire 
a veteran. So, we want to form a partnership with them.
    So we have a lot of things happening. Veterans want access 
to meaningful careers. They want preparation for those careers. 
They want to have the skills and the training so once they 
obtain those careers they are retained and they are assimilated 
into that new culture. We want to work with you and all of the 
Members on this Committee and your staff to look at ways that 
we can maximize the impact of this bill.
    Senator Murray. I really appreciate that, and I have to say 
that, having worked on this bill along with a lot of veterans 
and hearing their stories, I think we incorporated into our 
legislation a lot of things we can do legislatively to help 
them. I am looking forward to its passage.
    I agree with you that culturally we need to see a change, 
too. I was astonished at how many veterans told me that they 
leave the word ``veteran'' off their resume today because they 
believe their resume goes to the bottom of the stack, which is 
so disheartening to me.
    Mr. Jefferson. Yes.
    Senator Murray. They have tremendous skills, and oftentimes 
they do not know how to write their skills on a resume or they 
are worried that an employer will not hire them. And I hope to 
help create a culture for them to be able to transition and 
write their skills so the business world sees them, but more 
importantly so the business world recognizes the tremendous 
skills they have.
    Mr. Jefferson. Senator, if I may say, there are three 
specific things that you just alluded to or mentioned 
specifically in your comments which are exactly what we are 
doing and are exactly what needs to be addressed.
    The first you talked about was preparation--having them be 
able to produce cover letters and resumes that get them in the 
door. That is one.
    Number 2 relates to the conversations we are having this 
afternoon with Business Executives for National Security, the 
relationship with Fortune magazine, changing the cultural 
conversation so CEOs are aware of the value of hiring veterans.
    The third is something we are doing next month: developing 
a relationship with the Society of Human Resource Managers--
speaking at their national conference where there will be, I 
believe, 10,000 human resource professionals to communicate to 
about the value of hiring a veteran, how to find veterans, how 
to translate their resumes, and how to retain them once they 
are on board.
    We look at all elements of the equation and make targeted 
interventions to obtain better results.
    Senator Murray. Well, thank you. I am delighted to work 
with you on that.
    Mr. Jefferson. We are excited about it, Senator. Thank you.
    Senator Murray. Thank you very much.
    Chairman Akaka. Thank you very much.
    Senator Brown?

                STATEMENT OF HON. SCOTT BROWN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Brown of Massachusetts. Thank you, Mr. Chairman. 
Mr. Chairman, it is good to be back, and thank you for your 
leadership once again. I will be bouncing back and forth. I 
have a couple of other hearings to attend, but I wanted to come 
and obviously support you and the efforts you are continuing.
    Mr. Pamperin, much of today's hearing is about increasing 
benefits for our veterans, and I am wondering if you could just 
tell me what benefits you feel might be at risk at this point 
in time. Any specific issues we need to focus on that we are 
missing or that are falling through the cracks?
    Mr. Pamperin. Benefits that are currently being delivered 
that might be taken away?
    Senator Brown of Massachusetts. Right, things that you are 
saying, ``You know what? We have got to keep our eye on this.''
    Mr. Pamperin. We would be glad to give you a more extensive 
response in the future. My concern is that the Nation clearly--
--
    Senator Brown of Massachusetts. Can I interrupt just for a 
second? I may have kind of thrown that out there. I guess what 
I am concerned with is making better use of current law, things 
that we have in place that we may not be exhausting properly, 
we may not be getting the full benefit of. For example, in 
Massachusetts, we are very active in veterans issues. We have 
the Welcome Home Bonus. We have re-employment rights. We have 
anti-discrimination opportunities. We have a one-stop shop for 
all of our returning veterans pre- and post-mobilization.
    Is there anything that we are doing or the veterans have 
now for benefits that you need my help on or the Chairman's 
help on to kind of push through the door back to the veterans?
    Mr. Pamperin. Well, sir, taking off on Senator Murray's 
concerns and Mr. Jefferson's comments, clearly we have veterans 
preference, and I think to have that re-emphasized to people 
not only in the Federal Government but, again, something that 
honors the service of people who have served now for 8 years in 
conflict. Beyond that, I would ask that I be able to provide 
additional----
    Senator Brown of Massachusetts. Well then, I will go to 
Richard. What I would like to get, with the Chairman's 
blessing, is if there is something you need help with; I would 
like to know that, too. It is great to implement new programs, 
but we have a lot of programs right now that are not being 
fully exhausted. So, if there are some that you are aware of 
and you say you need some congressional or senatorial support, 
please let us know through the Chairman, number 1.
    Sir, did you want to add to that?
    Mr. Hipolit. I just wanted to mention that the Secretary is 
very concerned right now about making sure our adjudication 
process works efficiently, and we are looking at various ideas 
to assure that veterans get their benefits as quickly as 
possible through the adjudication process. So, there may be 
ideas that come out of that review that we might need 
legislative help with. We would be sure to advise the Committee 
if that was the case.
    Senator Brown of Massachusetts. I can tell you, as somebody 
who is a JAG, serving also in this new capacity and my prior 
life as well, one of the top efforts that our office works on 
is veterans benefits--trying to put a benefit with a veteran. 
And I have to be honest with you, the red tape is just 
unbelievable. For the average--I have been doing it 30 years. I 
am an officer now, and sometimes I pull my hair out. What about 
the Private Snuffy or, you know, the new sergeant that is back 
and has some very serious issues. Where do they turn and how? 
So I am kind of concerned about the process and how we are 
streamlining, updating, and cutting down the time, cutting down 
the anxiety, making sure--so that is kind of where I would like 
to focus.
    Mr. Hilleman, if you could talk to me about--I know there 
are remote location issues in terms of providing VA benefits, 
VA services. Where does the VA stand on leveraging private 
sector support to improve access in those regions that really 
do not have it? I am sorry. Mr. Pamperin, do you have any 
knowledge on that?
    Mr. Pamperin. If we are talking with respect to the claims 
process, we will be shortly providing the field with work 
sheets that they can take to their family physicians to provide 
the kind of medical evidence we need for evaluation purposes. 
If you are referencing outreach kinds of activities, we work 
very closely with the National Association of County Veterans 
Service Officers. They are a great source of assistance to 
claimants. The biggest disadvantage that they have is that 
typically they are not recognized as the power of attorney, so, 
therefore, we end up with privacy issues. But, generally 
speaking, getting the information out to them, again, working 
with the National Service Organizations, working with the 
Bureau of Indian Affairs with Indians out West of what kind of 
benefits they are entitled to are things that we are trying to 
do to expand the information flow to veterans.
    We are also working closely with Veterans Health 
Administration to try and reduce the complexity and the burden 
of claims processing by leveraging, to the extent possible, the 
medical evidence we already may have since so many of the 
veterans are being cared for in our facilities. To the extent 
possible we wish to avoid the necessity of having to have them 
come in for examinations when the information we need to rate 
may very well be in their treatment record.
    Senator Brown of Massachusetts. Thank you. I know my time 
is up. Thank you for jumping in and answering that.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Brown.
    Now Senator Brown from Ohio.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown of Ohio. Thank you. Thank you, Mr. Chairman. 
Aloha and thank you for the work on all of this legislation we 
are talking about, particularly a shout out to Senator Murray 
for the Veteran Employment Assistance Act. We are all pretty 
incredulous when we see the barriers for veterans' employment, 
and we clearly need to do more. When I do hearings, 
particularly in Appalachia, but anywhere in my State--and the 
Chairman has been gracious enough to allow us to have an 
official hearing in my State--I am amazed each time at the 
difficulties that veterans too often face.
    I want to talk for a moment about the Appalachian Outreach 
Improvement Act, the legislation I have introduced, S. 3314, 
that grew out of the hearings we did in--well, one in the 
Dover-New Philadelphia area of Ohio a couple of years ago, but 
more recently in Cambridge and eastern Appalachian Ohio. I am 
disappointed VA has not had the time to develop their comments 
for the hearings today about that bill. I look forward to 
figuring out how we can move on this.
    It is straightforward. It would provide the authority to VA 
to form a partnership, in this case with the Appalachian 
Regional Commission, to help increase the number of veterans 
that get the benefits they are entitled to. The VA knows 
veterans, and ARC knows Appalachia. Putting them together makes 
sense. Half this Committee represents a swatch of Appalachia, 
an area that spans the southwestern counties of New York to the 
northeastern portion of Mississippi. The Ranking Member 
represents part of Appalachia, Senator Isakson from Georgia, 
Senator Wicker from Mississippi, Senator Graham. Senator 
Rockefeller probably knows more about veterans in Appalachia 
than anyone. Senator Specter, Senator Webb, and I also 
represent parts of Appalachia.
    These Senators can attest to the testimony I heard at our 
Committee field hearing last month from Dr. Rich Greenlee of 
Ohio University. He is a veteran. He is dean of Ohio 
University's Eastern Campus in Belmont County on the Ohio River 
across from West Virginia. He testified, ``Military veterans 
have been found to be less likely than the general population 
to seek mental health services due to perceived stigma. Combine 
this with the Appalachians' resistance to seeking mental health 
treatment or help of any kind, and the combination of the two 
cultures--one military, the other regional affiliation--and it 
is highly unlikely that Appalachian veterans will voluntarily 
seek help.'' We can look at the numbers of veterans we estimate 
in Appalachian Ohio, and the number who have sought any kind of 
help or even registered--gone into local veterans service 
offices or registered with the State. We know that situation 
all too well.
    I look forward to working with the Committee on improving 
the percentage of VA-eligible veterans who apply for and 
receive VA benefits. In addition to Appalachian areas--and that 
is why this is larger than just Senator Burr's State and my 
State and the other Senators on this Committee I mentioned. My 
home State has, of course, non-Appalachian rural areas like 
Wapakoneta and Piqua, industrial centers like Dayton and 
Cleveland. Veterans live in downtown Columbus. They live on 
Main Street in Defiance. They live on farmland in Ashtabula. 
But that begs the comment that we cannot just have a one-size-
fits-all approach to our outreach to veterans who have come 
from many different backgrounds and live in very different 
communities. We can just look on this Committee, from Honolulu, 
HI, to Holyoke, MA, to Hanford, WA, to Hebron, OH, to Hamilton, 
AK, to Hilton Head, NC, where every one of these communities is 
different. This one-size-fits-all outreach does not seem to be 
working so well, as we need to embrace veterans, whether it is 
for her small business program or for anything else that we 
need to do for education or health care benefits.
    So, I guess my only question for Mr. Pamperin is: should 
outreach be a line item? Or maybe more generally, what do you 
suggest we do? You said you have not had time to look at my 
legislation. That is fine for now. But what do we need to do to 
have better outreach? I know you have a Web site. I know you do 
some one-size-fits-all national things. But how do we do this 
in a way that really does reach these communities around this 
table and around this country?
    Mr. Pamperin. Sir, I am pleased to let you know that the 
Secretary has created a Benefits Assistance Service that stood 
up just this month whose sole function is outreach and the 
coordination of outreach. And I will clearly take this back, 
you know, as a concern of the Committee to make sure that we do 
the kind of focused outreach that is needed based upon 
geography, cultural make-up, or traditions.
    Chairman Akaka. Thank you very much, Senator Brown.
    Senator Burr?
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Jefferson, I will show you the same love today OMB 
provided you to come to this hearing.
    Mr. Jefferson. How are you doing, sir?
    Senator Burr. Mr. Pamperin, in your testimony, you indicate 
VA would be submitting a legislative proposal in the near 
future. Now, I did not see anything in your description of it 
relating to homelessness, so let me turn to Dr. Jesse. Does the 
administration require legislative changes as part of its 
overall homelessness program?
    Dr. Jesse. I do not think so at this point. Right now, as 
you know, homelessness is one of Secretary Shinseki's major 
initiatives. It is probably his top initiative, not just to 
reduce homelessness but to eliminate it. And there are 
significant forces being marshaled toward that end, both at 
very high levels within his office as well as within the VHA, 
to address homelessness, not just about providing housing but 
for trying to address the fundamental issues related to that.
    Senator Burr. Are those in the fiscal year 2011-12 advance 
funding requests anticipated or required changes in the law to 
release funding for homeless veterans' programs?
    Dr. Jesse. From my perspective, I do not see that it does 
at this point, but I do not think we should preclude asking for 
that.
    Senator Burr. Can anybody tell me when the Committee would 
be wise to expect legislation to come from VA?
    Mr. Hipolit. I was in touch with the Office of Management 
and Budget yesterday, and they are assuring us they are going 
to clear our bill for submission.
    Senator Burr. I hope they do better than they did with Mr. 
Jefferson's testimony today.
    [Laughter.]
    Mr. Hipolit. They are telling me they expect to clear it 
today, in fact, so hopefully we will be getting it up very 
shortly.
    Senator Burr. Dr. Jesse, in our second panel, Mr. Weidman 
will testify in support of my bill, but he had some criticism 
of the Office of Management and Budget, arguing that OMB's 
permanent bureaucracy has been opposed to the program from the 
onset. What has been your experience as it relates to the 
oversight of the program?
    Dr. Jesse. I apologize, but I do not think I can really 
speak to that.
    Senator Burr. Well, have you had an opportunity to look 
through the bill that I have introduced with Senator Akaka, 
Senator Burris, and Senator Durbin?
    Dr. Jesse. We do not have comments cleared for that, sir.
    Senator Burr. Do you have any personal comments you would 
like to make other than the comments of the Office of 
Management and Budget?
    [Laughter.]
    Dr. Jesse. Well, I----
    Senator Burr. Let me just say I wholeheartedly endorse the 
Secretary's commitment to homelessness. Let me tell you, OMB 
does not give a shit about homelessness. If they did, this 
problem would be solved. The Secretary is genuine and 
passionate about ending it. But if OMB is going to design the 
program, it is not going to get solved.
    I am not soliciting an answer. I am not asking a question. 
I am making a statement that I hope all of you let penetrate. 
If we are going to solve this problem, we cannot wait for 
somebody down the street to come up with another bureaucratic 
solution to a problem that keeps veterans on the streets. We 
can go home and feel good about the fact that we put a shelter 
over their head. But if OMB is not willing to release the 
program to work with the wrap-around services, provide that 
veteran everything they need to end permanent homelessness, it 
is not going to happen.
    So, you know, let us quit fooling ourselves. You might send 
to the Secretary--he is the only one that can have a 
conversation with OMB. If OMB is the one that we need to pull 
up here and not VA, then, for goodness' sakes, tell the 
Chairman and we will start pulling OMB in.
    Mr. Pamperin, in a recent opinion, Posey v. Shinseki, a 
judge from the U.S. Court of Appeals for Veterans Claims 
provided this observation about what happens when an individual 
tries to appeal to the court, but mistakenly sends his or her 
notice of appeal to a VA office: ``It has become clear to me 
that VA somewhat routinely holds correspondence from claimants 
that it determines sometime after receipt are Notices of Appeal 
to the court. As a result, in far too many cases the court 
receives the Notice of Appeal from VA only after the 120-day 
appeal period has expired, permitting 
the Secretary then to move to dismiss the appeal for lack of 
jurisdiction.''
    First of all, can you give us an idea of how frequently a 
Notice of Appeal mistakenly is sent to the VA rather than the 
court?
    Mr. Pamperin. No, sir. I am aware that it does happen 
periodically, but in terms of a hard number, I do not have such 
a number.
    Senator Burr. What policies are in place for dealing with a 
Notice of Appeal that has mistakenly been sent to the VA?
    Mr. Pamperin. The letter is to be returned to the veteran 
and advised as to where he should file it.
    Senator Burr. Has a written guidance been provided to VA's 
staff on these policies? And if so, can the Committee have a 
copy of that written policy?
    Mr. Pamperin. Sir, I do not know specifically, but I will 
bring your request back and we will provide you with the 
instructions that have been provided.

    [Items were not received by the Committee by the deadline 
for printing.]

    Senator Burr. Do you know if VA staff is following these 
policies?
    Mr. Pamperin. The VA routinely conducts site surveys of its 
regional offices--each regional office once every 3 years--and 
an assessment of the performance of the office in terms of 
compliance with instructions is included in that. I do not 
recall in the last couple-3 years a specific reference that 
that has been identified as an issue.
    Senator Burr. Last question, Mr. Chairman.
    Do you think that more should be done to protect the appeal 
rights of veterans who mistakenly send their notice to the VA 
versus to the court?
    Mr. Pamperin. Yes, sir. I think that there are legitimate 
occasions when the 120-day hard and fast rule needs to be 
adjusted.
    Senator Burr. Well, given that you cannot cite an instance 
lately, I will be more than happy to supply you with some 
instances that you can look back at.
    I thank the Chair.
    Chairman Akaka. Thank you very much, Senator Burr.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, I am just going to make some 
general comments. Then I have four questions which I do not 
think you will be able to respond to right now, but I want to 
put them in, because I have to preside here in a few minutes. 
They are in regards to a piece of legislation that Senator 
Grassley and I introduced, S. 3325, which is on the issue of 
co-payments for telehealth and telemedicine.
    Obviously, there is a reason why we have introduced it. In 
Alaska, we see more and more individuals--not only veterans but 
in other areas--utilizing telemedicine and telehealth as a way 
to do prevention as well as kind of maintenance on some of the 
health care that is necessary. So what we have found, at least 
some of our information--I want to give these questions to you 
so you can get back to me, whoever the right person is. And, 
Ray, I wanted to get to some employment issues here, but I do 
not have them right now.
    Mr. Jefferson. I could always talk about our rural veterans 
outreach initiative.
    Senator Begich. I know. I know, and I greatly appreciate 
your work there.
    So, let me ask if I can--again, if you can answer these, 
great; if you cannot, I would like you to take them for the 
record and get back to me. So, what is the plan for the VA in 
expanding their telehealth/telemedicine program? I want to get 
a sense of what that plan is now and into the future. That is 
the first question.
    Second, what is the average co-payment for someone who does 
currently use telehealth services? I do know this: in rural 
communities, if they can use telehealth/telemedicine, the odds 
are they will not then fly and pay $1,000 to get from a village 
or a small community to an area where they need those services. 
They can use the technology that is available. So I want to get 
an understanding of that.
    What data points or what information and studies have you 
done in relationship to--I am familiar with some, so I wanted 
to see if you have some in your own reports--in regards to the 
costs of a co-pay or someone who is paying a co-pay using 
telemedicine or telehealth versus someone who is not. In other 
words, what is the variation of utilization? I think I can 
answer just based on some Indian Health Service systems that 
use telehealth, and it has been a positive step, but I am 
curious if the VA has done something.
    And then what of the rural veterans utilize--when I say 
rural America, of course, including Alaska--telehealth and 
telemedicine? And what are the outreach efforts in getting 
folks to understand how to utilize that system?
    I think we are in a unique situation in Alaska because 
telecommunications is a critical piece and literally life-and-
death linkage that we have for villages where you cannot just 
get in the car and drive down the street and find a hospital or 
a clinic. So, we use it in a very unique way, in some cases 
pioneered some of this technology through the VA--actually it 
was through the Indian Health Service where we have really 
pioneered some of it. So, I am curious if any of those 
questions can be answered now. If not, I do not want to burn up 
the time, and I do not want you to have to get in trouble with 
OMB, whatever that rule is.
    [Laughter.]
    Dr. Jesse. Actually, I do not think any one of those 
questions can be answered briefly, but we would be happy to 
come and brief you in the future or to submit for the record, 
if you would prefer.
    Senator Begich. If you could submit for the record, then we 
can drive from there. In other words, a lot of this is kind of 
data points of trying to get an understanding of where we are 
going.

    [Items were not received by the Committee by the deadline 
for printing.]

    Dr. Jesse. I will say that we are very committed to the 
expansion of telehealth. As a cardiologist in my prior job, we 
actually extensively used home monitoring. I know that through 
a series of recalls of implantable devices a couple years ago, 
we estimated that we saved 25,000 office visits through the 
ability to monitor patients at home using the home-based 
monitoring for their implantable devices.
    Senator Begich. You have just given the reason why the VA 
should support our legislation, because less co-pays or no co-
pays mean people utilize it, which ultimately saves on the 
bottom line. We read more recently, especially on DOD, the 
Defense Department, what they are seeing in increased costs of 
health care. 
So, the more we can utilize this technology--it is a powerful 
tool, I think, and potentially cost saving, which you just gave 
a great example.
    Dr. Jesse. We agree fully. Dr. Petzel, the Under Secretary, 
one of his key initiatives is the expansion of telehealth. So 
it is a matter of getting the numbers down, the specific 
numbers, which I cannot give you right now.
    Senator Begich. OK. If you could get those, that would be 
great. Again, for the record it would be great, and then we 
will drive it from there. If we think we need additional data, 
we will ask. Then, obviously, we are anxious to get the VA's 
opinion on this legislation sooner than later: how they will 
view it and if they have concerns with it. We want to work 
through those.
    With my last few seconds, Ray, I just want to say the piece 
of legislation that Senator Murray is the primary sponsor on, I 
think some of that, as you read through it, I know you will see 
some of our efforts from field hearings that we had in Alaska; 
you will kind of see that trickle through.
    Mr. Jefferson. Yes.
    Senator Begich. And I hear more and more about the job 
classification issue, which I think has some huge potential in 
making sure that people who are in the military who are 
spending 6, 8, 10 years, becoming great electricians, that we 
can get them doing the job right when they walk out the door as 
an example, or a paramedic. So I just am anxious, and I know 
Senator Murray is as a prime sponsor of that legislation, to be 
working with your office on seeing how to accelerate that.
    Mr. Jefferson. Yes, sir.
    Senator Begich. I do not know if you have any----
    Mr. Jefferson. Well, we are very excited about that, too, 
sir, and there are two new initiatives which we are going to be 
launching that speak exactly to the points you raised. The 
first is an initiative that we are doing with the Job Corps. 
That will be for veterans 20 through 24. It will help them--it 
will provide a fully funded, all-expense-paid, transportation-
paid program where they will get training, they will get a 
license or certificate--a credential. They will get a job, and 
they will get up to 2 years of post-employment support to make 
sure they are retained in that job.
    Senator Begich. Excellent.
    Mr. Jefferson. That is one of our interventions for the 
population of veterans with the highest unemployment. We are 
very excited about that.
    And, second, although we were not mentioned in the rural 
outreach component of the bill, we also have a major new 
initiative which we are calling our Rural Veterans Outreach 
Initiative. We are very excited about that. What we have 
learned from this Committee and what we have seen from the trip 
to Alaska, really illuminated our development of the concept. 
We are basically going to be partnering with the Corporation 
for National Community Service, partnering with ServiceNation, 
leveraging veteran volunteers in rural America, training them 
to get boots on the ground in rural America and educate 
veterans on the programs and the services that they have 
available to them. And as we develop that delivery system and 
broaden it nationwide, we would like to see how we can work 
with our partners and close friends at VA to create more 
services and make it a more robust program.
    Senator Begich. Thank you very much, Ray. And as you get 
those items ready to be kicked off, obviously we would love to 
know.
    Mr. Jefferson. Yes.
    Senator Begich. I know Senator Murray would love to know 
how those kick off, and for me personally how we can be 
supportive of those efforts at reaching out to the unemployed 
veterans of our country.
    Mr. Jefferson. Yes. We look forward to working with you, 
and we will need your assistance.
    Senator Begich. Thank you.
    Mr. Chairman, I apologize. I have to go preside, but I 
really appreciate the opportunity to comment on the 
legislation. Thank you.
    Chairman Akaka. Thank you very much, Senator Begich.
    Secretary Jefferson, I want to thank you for your offer to 
work with the Committee to improve some of the provisions and 
the measures before us this morning, and I want you to know 
that I intend to take you up on that as we proceed through the 
legislative process.
    Mr. Jefferson. Yes, sir.
    Chairman Akaka. I want to thank all of the witnesses on our 
first panel for being here this morning. Thank you very much.
    Now I would like to welcome the witnesses on our second 
panel: Ian de Planque, Deputy Director, Veterans Affairs and 
Rehabilitation, at the American Legion; Tom Tarantino, 
Legislative Associate for Iraq and Afghanistan Veterans of 
America; Eric Hilleman, National Legislative Service Director, 
Veterans of Foreign Wars; and Rick Weidman, Executive Director 
for Policy and Government Affairs at the Vietnam Veterans of 
America. He is accompanied by Alan Oates, Chair of the VVA 
National Agent Orange and Toxic Substances Committee. And, Mr. 
Tarantino, like Secretary Jefferson on the previous panel, 
because of the lateness of IAVA's submission of your testimony, 
you will not be permitted to present testimony, but I will 
provide Members the opportunity to ask you questions.
    Mr. de Planque, will you please begin with your testimony?

STATEMENT OF IAN DE PLANQUE, DEPUTY DIRECTOR, VETERANS AFFAIRS 
       AND REHABILITATION COMMISSION, THE AMERICAN LEGION

    Mr. de Planque. Good morning. Thank you, Mr. Chairman, 
Ranking Member Burr, and Members of the Committee. I want to 
thank you on behalf of The American Legion for the opportunity 
to provide comments on the broad spectrum of legislation before 
the Committee today. This legislation offers important help to 
veterans in many areas.
    S. 1939 and 1940 provide further aid to our veterans of the 
Vietnam War and their children.
    Legislation such as S. 3314 and S. 3325 will provide much 
needed outreach and benefits to the growing community of rural 
veterans in America and veterans in non-traditional urban 
areas.
    S. 3348, S. 3368, and others will help veterans and their 
families in dealing with the complexities and the sometimes 
confusing system of veterans benefits. And there are many other 
worthy pieces of legislation on the agenda today.
    Importantly, a bill stands before the Committee addressing 
one of the most critical issues facing many veterans today: the 
issue of unemployment. S. 3234, the Veterans Employment 
Assistance Act of 2010 is a comprehensive bill that will 
address education, employment, and training needs. Iraq and 
Afghanistan veterans face unemployment levels of as high as 30 
percent, with up to a quarter million unemployed veterans from 
those two theaters combined.
    While the landmark Post-9/11 GI Bill provided many 
important educational benefits to American veterans, some areas 
of learning were left behind, which this legislation should 
remedy. Previously, important training such as vocational 
schools, apprenticeships, and on-the-job training programs were 
not given the same equity as institutions of higher learning. 
These programs fulfill an equally vital role in job 
preparedness.
    Furthermore, the legislation calls for small business 
training and counseling and creates pilot programs and 
otherwise seeks to help veterans market their military training 
in the civilian sector.
    The American Legion believes that the skill set a veteran 
receives through military training with the concurrent work 
ethic, quality standards, and determination for mission 
accomplishment make the American veteran the most highly-
qualified candidate for employment. These servicemembers have 
already demonstrated their abilities to master any task, and 
any civilian employer should expect no less.
    No veteran should face unemployment given their training 
and history of service. That veterans face such high 
unemployment numbers is deeply troubling. The American Legion 
has stressed that more must be done to find jobs for these 
veterans, particularly within the Government agencies, such as 
the VA, where overall veteran employment is roughly 39 percent.
    In areas such as the National Cemetery Administration, who 
recently stated that they have fulfilled 100 percent of their 
outside contracts under the American Reinvestment and Recovery 
Act to veteran-owned businesses, many of those to disabled 
veteran-owned businesses, we can find a model for what should 
be going on for our veterans. The American Legion applauds this 
initiative and encourages finding more ways for other agencies 
to follow that model.
    Several pieces of legislation were submitted at late 
deadline. In order to properly address these pieces of 
legislation, we would ask to submit testimony on these bills 
for the record.
    Thank you for allowing the American Legion to provide 
testimony today, and we would be happy to answer any questions 
you or the Committee may have.
    [The prepared statement of Mr. de Planque follows:]
Prepared Statement of Ian DePlanque, Deputy Director, Veterans Affairs 
           and Rehabilitation Commission, The American Legion
    Mr. Chairman, Ranking Member and Members of the Committee: Thank 
you for this opportunity for The American Legion to present its views 
on the broad list of veterans' legislation being considered by this 
Committee.
          s. 1780: honor america's guard-reserve retirees act
    This bill would deem certain service in the Reserve components as 
active service for purposes of laws administered by the Secretary of 
Veterans Affairs. Specifically, this bill addresses National Guard and 
Reserve component servicemembers and their the classification of 
service under Title 10 of the United States Code for the purposes of 
their status with the Department of Veterans Affairs (VA).
    The American Legion has no position on this legislation.
                                s. 1866
    This bill provides for the interment of the parents of certain 
deceased servicemembers. The bill would address the eligibility of 
parents of certain deceased veterans for interment in national 
cemeteries. This bill would apply to servicemembers who at the time of 
the parent's death do not have a spouse, surviving spouse, or child who 
have been interred, or who, if deceased, would be eligible to be 
interred, in a national cemetery.
    The American Legion has no position on this legislation.
                s. 1939: agent orange equity act of 2009
    The purpose of this bill is to amend title 38, United States Code, 
to clarify presumptions relating to the exposure of certain veterans 
who served in the vicinity of the Republic of Vietnam. As frequently 
stated in the past, The American Legion strongly supports the extension 
of presumption of exposure to Agent Orange for veterans who served on 
naval vessels located in the territorial waters of Vietnam (known as 
Blue Water Navy veterans) but did not set foot on land in Vietnam.
    The Institute of Medicine (IOM), in Veterans and Agent Orange: 
Update 2008, specifically stated that the evidence it reviewed makes 
the current definition of Vietnam service for the purpose of 
presumption of exposure to Agent Orange, which essentially limits it to 
those who actually set foot on land in Vietnam, ``seem inappropriate.'' 
Citing an Australian study on the fate of the Agent Orange contaminant 
TCDD when sea water is distilled to produce drinking water, the IOM 
committee stated that it was convinced that such a process would 
produce a feasible route of exposure for Blue Water veterans, ``which 
might have been supplemented by drift from herbicide spraying.'' (See 
IOM, Veterans and Agent Orange: Update 2008, p. 564; July 24, 2009.) 
The IOM also noted that a 1990 Centers for Disease Control and 
Prevention study found that non-Hodgkin's lymphoma, a classic Agent 
Orange cancer, was more prevalent and significant among Blue Water Navy 
veterans. The IOM subsequently recommended that, given all of the 
available evidence, Blue Water Navy veterans should not be excluded 
from the group of Vietnam-era veterans presumed to have been exposed to 
Agent Orange/herbicides.
    The American Legion submits that not only does this latest IOM 
report fully support the extension of presumption of Agent Orange 
exposure to Blue Water Navy veterans, it provides scientific 
justification for this current legislation, which admirably seeks to 
correct the grave injustice faced by Blue Water Navy veterans. The 
American Legion strongly supports this legislation.
                                s. 1940
    The purpose of this bill is to direct the Secretary of Veterans 
Affairs to complete, and report to the congressional veterans' 
committees on, a study of the effects on children of their parents' 
exposure to herbicides used in support of U.S. and allied military 
operations in the Republic of Vietnam during the Vietnam era, to 
include but not limited to multiple sclerosis and asthma.
    The American Legion's longstanding position with regard to the 
health effects of herbicides such as Agent Orange has been to 
aggressively facilitate an understanding of these effects and help 
ensure that veterans and their families are properly treated and 
compensated for the effects of such exposures. With regard to the 
effects of a parent's exposure on their offspring, The American Legion 
acknowledges the progress to date.
    Namely, in 1996, President Clinton and VA Secretary Jesse Brown 
asked Congress to pass legislation providing health care, monthly 
disability compensation, and vocational rehabilitation to the children 
of Vietnam veterans suffering from the serious birth defect spina 
bifida, which has been linked to the veterans' exposure to Agent 
Orange. Congress passed the legislation, marking the first time our 
Nation had ever compensated the children of veterans for a birth defect 
associated with their parent's exposure to toxic chemicals during their 
military service.
    In 2003, Congress, with the support and endorsement of The American 
Legion, authorized with the passage of the Agent Orange Veterans' 
Disabled Children's Benefits Act, the expansion of these benefits to 
children with spina bifida of certain veterans who served at or near 
the demilitarized zone in Korea between September 1, 1967 and August 
31, 1971, because Agent Orange is known to have been sprayed in that 
area.
    Only additional scientific and medical studies, though, can 
determine the full ramifications of the effects on children of their 
parents' exposure to herbicides. Studies of the type called for in this 
legislation can help establish the associations necessary to allow the 
VA to provide entitlement to all benefits due to the child or children 
of any veteran exposed to a Vietnam-era herbicide agent, in any 
location, including those outside of Vietnam, where herbicides were 
tested, sprayed, or stored.
    The American Legion supports this legislation.
                                s. 2751
    This bill would designate the Department of Veterans Affairs 
medical center in Big Spring, Texas, as the George H. O'Brien, Jr., 
Department of Veterans Affairs Medical Center.
    The American Legion has no position on this piece of legislation.
 s. 3035: veterans traumatic brain injury care improvement act of 2010
    Under the provisions of the bill, VA would establish an official VA 
Polytrauma Rehabilitation Center in the Northwestern area of the United 
States within Veteran Integrated Service Network (VISN) 19. 
Additionally, a report on the Polytrauma Rehabilitation Center would 
determine the levels of care of the VA medical centers in VISN 19, the 
differences of Traumatic Brain Injury (TBI) treatment between urban and 
rural areas, as well as a study to determine if TBI conditions are 
worsened by living in an urban environment.
    VA designed Polytrauma Rehabilitation Centers to address the many 
unique and multiple injuries faced by servicemembers in Iraq and 
Afghanistan who are surviving improvised explosive device (IED) blasts. 
VA Polytrauma Rehabilitation Centers provide treatment through multi-
disciplinary medical teams including Cardiologists, Internal Medicine, 
Physical Therapist, social work and Transition Patient Case managers 
and much more specialty medical service areas, to help treat the 
multiple injuries. Currently, VA maintains four VA Polytrauma 
Rehabilitation Centers in Richmond, VA; Minneapolis, MN; Palo Alto, CA 
and Tampa, FL. In February 2010, VA also announced funding for a new 
Polytrauma Center to be built in San Antonio, TX. As advances in 
battlefield medicine and evaluation continue to evolve, it is also 
important that VA continue to expand its network of care closer to the 
veteran and his or her family's community.
    The American Legion has not historically advocated for specific 
locations for VA medical centers, Community-Based Outpatient Clinics 
(CBOCs), or Vet Centers due to competing funding and state interests. 
However, The American Legion's Resolution 220 on rural health care 
clearly urges VA to improve access to quality primary and specialty 
health care services for veterans living in rural and highly rural 
areas. Furthermore, The American Legion believes that veterans should 
not be penalized or forced to travel long distances to access quality 
health care based on where they choose to live.
    The American Legion has long advocated for improvements for one of 
the ``signature wounds'' of Iraq and Afghanistan, Traumatic Brain 
Injury. The American Legion supports the provision in this bill for 
research and evaluation of TBI treatment between the urban and rural 
areas. Further, The American Legion urges this Committee to examine the 
possibility of including and funding additional areas of TBI study and 
emerging treatments in the private sector such as Hyperbaric Oxygen 
Therapy (HBOT) and the Mt. Sinai Hospital's Brain Injury Screening 
Questionnaire.
    The Hennepin County Medical Center in Minneapolis, MN, conducted a 
study on Hyperbaric Oxygen treatment for Patients with Traumatic Brain 
Injury in January 2010. This study found a significant benefit from 
hyperbaric oxygen treatment to improve brain metabolism and its ability 
to recover from injury. The findings were recently published in the 
Journal of Neurosurgery. Additionally, the study showed that cells need 
oxygen to fuel metabolism for cellular growth and repair. After a 
Traumatic Brain Injury, there's a direct correlation between clinical 
outcome and the degree to which a brain's metabolism is restored. Dr. 
Gaylan Rockswold, who conducted the study stated. ``In previous 
research we learned that the brain's energy is improved and maintained 
with hyperbaric oxygen treatment, but this study confirms that 
hyperbaric oxygen treatment has a major impact in terms of increased 
energy production.'' The American Legion encourages this Committee to 
work closely with the medical community to ensure our Nation's veterans 
continue to receive the highest in quality and type of care for TBI.
    Additionally, Mt. Sinai developed a Brain Injury Screening 
Questionnaire. DOD's TBI screening questions were initially developed 
by the Defense and Brain Injury Center (DVBIC), modified by VA and 
refined and adopted by DOD. In April 2007, VA began implementing 
similar TBI screening questionnaires for Iraq and Afghanistan veterans 
to be administered by health care providers at VA Medical Center 
facilities. DOD and VA both use a four-question test but Mt. Sinai uses 
100 questions through the Brain Injury Screening Questionnaire. The 
American Legion remains concerned that the private sector uses a 100 
question screening test while DOD and VA only use a four-part 
questionnaire.
    The American Legion also recommends examining the establishment of 
a toll-free number for servicemember and veteran patients, their 
families, clinicians, veteran service organizations and other Federal, 
state and local organizations to ask questions or receive literature on 
evaluation, diagnosis and treatment of TBI. In addition, within this 
call center, a TBI registry could be created to track the statistics of 
servicemembers afflicted with TBI and those servicemembers from DOD and 
VA who are receiving treatment.
  s. 3107: veterans compensation cost of living adjustment act of 2010
    The purpose of this bill is to increase, effective as of December 
1, 2010, the rates of compensation for veterans with service-connected 
disabilities and the rates of dependency and indemnity compensation for 
the survivors of certain disabled veterans. The amount of increase 
shall be the same percentage as the percentage by which benefit amounts 
payable under title II of the Social Security Act (42 U.S.C. 401 et 
seq.) are increased effective December 1, 2010.
    The American Legion supports this annual cost-of-living adjustment 
in compensation benefits, including dependency and indemnity 
compensation (DIC) recipients. It is imperative that Congress annually 
considers the economic needs of disabled veterans and their survivors 
and provide an appropriate cost-of-living adjustment to their benefits, 
especially should the adjustment need to be higher than that provided 
to other Federal beneficiaries, such as recipients of Social Security.
         s. 3192: fair access to veterans benefits act of 2010
    The purpose of this bill is to address recent rulings by the courts 
regarding equitable tolling and how that affects veterans filing claims 
within the court system. Equitable tolling is a doctrine or principle 
of tort law: a statute of limitations will not bar a claim if despite 
use of due diligence the plaintiff did not or could not discover the 
injury until after the expiration of the limitations period.
    Under 38 U.S.C. Sec. 7266(a), an appellant has 120 days from the 
date the notice of a final decision of the Board of Veterans' Appeals 
(BVA) is mailed to file a notice of appeal (NOA) to the United States 
Court of Appeals for Veterans Claims (CAVC). From 1998-2008, previous 
precedential decisions of the United States Court of Appeals for the 
Federal Circuit (Bailey) had permitted equitable tolling by the CAVC 
for the 120 day time period under Sec. 7266(a). The Supreme Court, 
however, in Bowles v. Russell, 551 U.S. 205 (2007), made it clear that 
the timely filing of a NOA in a civil case is a jurisdictional 
requirement and that courts have no authority to create exceptions. The 
Supreme Court further concluded that only Congress can make such 
exceptions.
    In Henderson v. Shinseki, the CAVC ultimately dismissed the 
veteran's appeal because he had missed the 120 day deadline by 15 days. 
The veteran argued that his service-connected mental disorder, rated 
100 percent disabling, caused him to miss the deadline. While Mr. 
Henderson's appeal was pending at the CAVC, the Supreme Court rendered 
its decision in Bowles, in which it stated that ``the timely filing of 
a notice of appeal in a civil case is a jurisdictional requirement,'' 
and thus cannot be waived. The Court also stated that it had no 
authority to create equitable exceptions to jurisdictional 
requirements.
    On July 24, 2008, the CAVC ruled in a 2-1 decision that the holding 
in Bowles prohibited it from using equitable tolling to extend the 120-
day appeal period set forth in Sec. 7266(a). The CAVC determined that 
Congress had ``specifically authorized'' it to conduct ``independent 
judicial appellate review'' of the BVA, and that well-settled law 
established that its cases were ``civil actions.'' Starting from that 
premise, the CAVC concluded that Sec. 7266(a) was a notice of appeal 
provision in a civil case, and that it was jurisdictional and could not 
be equitably tolled. Accordingly, the court ruled that the Federal 
Circuit's precedent in Bailey was effectively overruled, and it 
dismissed Mr. Henderson's appeal for lack of jurisdiction.
    Mr. Henderson subsequently filed a timely appeal of the CAVC 
decision with the United States Court of Appeals for the Federal 
Circuit. On December 17, 2009, the Federal Circuit affirmed the 
decision of the CAVC dismissing the veteran's appeal for lack of 
jurisdiction.
    The Federal Circuit decision in Henderson, citing the Supreme Court 
decision in Bowles, has made it quite clear that equitable tolling in 
veterans' appeals at the Federal court level is prohibited. Senator 
Arlen Specter (PA) recently introduced S. 3192, the Fair Access to 
Veterans Benefits Act, to require the CAVC to consider if a veteran's 
service-connected disability would have made it difficult or impossible 
for him or her to meet a deadline for filing an appeal.
    Resolution No. 32, adopted by The American Legion at the 2008 
National Convention, specifically supports legislation to extend the 
120-day CAVC appeal deadline to one year following the BVA final denial 
of an appeal. Given the specific intent of this resolution, measures 
which would extend the period of time available for veterans to file 
with the CAVC are supported by The American Legion. Particularly in the 
case of certain veterans whose service-connected disabilities may 
impact their ability to timely file appeals to the court, measures such 
as this bill have the potential to positively impact the ability of 
those veterans to achieve justice within the system of benefits claims 
adjudication.
    The American Legion supports this bill.
          s. 3234: veterans employment assistance act of 2010
    The American Legion strongly supports S. 3234 and regards this 
comprehensive new bill as an important means of addressing the 
education, employment, and training needs of veterans. If enacted, 
S. 3234 would improve employment, training, and placement services 
furnished to veterans, especially those serving in Operation Iraqi 
Freedom and Operation Enduring Freedom.
    The problem is clear: the unemployment rate for all veterans of 
Iraq and Afghanistan stands at 14.7 percent, while for OIF/OEF veterans 
between the ages of 18 to 24 it is 30.2 percent. The total number of 
unemployed veterans of the two wars is about 250,000. This legislation 
would provide these veterans with the training and additional skills 
they need in order to acquire gainful employment in today's 
marketplace.
    This bill contains several provisions that The American Legion has 
been advocating for some time. For example, under the current Post-9/11 
GI Bill, vocational schools, apprenticeships and on-the-job training 
programs are not given the same equity as Institutions of Higher 
Learning (IHLs). But, not all veterans desire to attend IHLs. Many 
veterans prefer forms of employment that do not require a college 
degree and/or may require employment as quickly as possible for 
personal or family reasons. S. 3234 would expand GI Bill education 
benefits to include apprenticeship and training programs, so that 
veterans can get the licenses and certificates they need for new high-
potential careers in an expeditious manner.
    In addition, the legislation calls for small business training and 
counseling, and creates pilot programs to help veterans market their 
military training more effectively in the civilian sector. The Act also 
addresses training requirements for new Disabled Veterans' Outreach 
Program Specialists and Local Veterans' Employment Representatives, who 
play such an important role in helping veterans overcome employment 
barriers and become more marketable.
    In sum, The American Legion strongly supports S. 3234, because it 
touches all the bases in addressing key challenges faced by unemployed 
and underemployed veterans. No mission is more critical at this time in 
our history--given the Nation's involvement in two wars and the 
uncertain economic situation--than enabling America's veterans to have 
a seamless transition from military service to the civilian workforce. 
Toward that end, The American Legion is committed to working together 
with Congress, Federal agencies and the private sector to ensure that 
America's veterans are provided with the highest level of service and 
employment assistance.
                                s. 3314
    The American Legion supports this piece of legislation because it 
will serve to increase use of medical care services to those residing 
in the Appalachia Region. We also believe collaboration between both VA 
and the Appalachian Regional Commission will help with the seamless 
transition process as servicemembers return to their respective 
communities.
    H.R. 2879, the Rural Veterans Health Care Improvement Act of 2009, 
would establish Rural Health Centers located in three regions of the 
country, to include the Eastern Region, Central Region, and Western 
Region. In addition, The American Legion's position on H.R. 2879 
included an increase of the presence of these Centers due to the 
vastness of rural areas. We also stated that the reason for the 
increase included lack of access of medical facilities, lack of medical 
professionals, and the ability to address the issues of women veterans, 
as well as homeless veterans. In the case of this bill, we believe 
other Center(s) should be established to assist with accommodation of 
veterans residing in the Appalachia Region.
    In contracting with public or private organizations to provide 
information, advice, and technical assistance, as stipulated in section 
(c) and (d) of the bill proposal, it is the contention of The American 
Legion that VA maintain proper oversight of each contract that provides 
medical care, utilization of facilities and resources, education of 
veterans' employment rights, and provision of technical assistance to 
veteran-owned businesses, to ensure veterans are represented as 
intended by order of the mission statement as set forth by President 
Lincoln; ``To care for him who shall have borne the battle and for his 
widow, and his orphan.''
                                s. 3325
    The American Legion concurs with this piece of legislation and its 
proposal to prohibit collection of copayments for Telehealth or 
telemedicine. Further, it is The American Legion's contention that 
veterans should not be penalized due to their geographical residence 
preferences. Regarding the subject of copayments, it is the discretion 
of each VA Medical Center director to collect a copayment. As such, 
oversight should ensure that these copayments are assessed consistently 
and not subject to regional variations.
    The American Legion supports the insertion of 1722B. Copayments: 
prohibition on collection for Telehealth or telemedicine visits of 
veterans into Chapter 17, Title 38.
                                s. 3368
    The purpose of this bill is to provide the ability of legally 
designated representatives to sign claims on behalf of veterans or 
their dependent children eligible for benefits in certain circumstances 
such as when issues of legal majority, mental competency, and/or 
physical disability prevent the beneficiary from signing such forms 
themselves. This is well intentioned legislation that, with proper 
oversight, could offer benefit to veterans and their families in 
certain circumstances.
    Veterans can suffer from some disabilities that greatly limit their 
ability to complete activities of daily living such as competency or 
ability to properly execute the necessary paperwork required in the 
filing of claims. There already exist provisions within VA law to 
provide for responsible parties to manage affairs for veterans when 
they are not capable of managing those affairs for themselves. Under 
the present system, appointed fiduciaries as well as designated powers 
of attorney are authorized to perform some actions on behalf of the 
veteran, almost always to their benefit.
    It is important to recognize however, the necessity of proper 
oversight in situations such as this. Veterans in need of the 
provisions of this legislation are in many ways the most vulnerable of 
veterans. Dedicated oversight is necessary to ensure that the veterans 
affected, most of whom have little ability to protect themselves in 
such situations, are not subject to being taken advantage of by 
unscrupulous individuals or institutions. While some veterans do indeed 
require an advocate to act on their behalf to ensure they receive the 
benefits to which they are entitled, it is equally important to ensure 
that the rights of those veterans are not infringed upon.
    As acting on behalf of the veteran is essentially similar to being 
a designated fiduciary on behalf of the veteran, it is important to 
point out some of the concerns about the existing fiduciary system. In 
previous testimony before the House Veterans' Affairs Subcommittee on 
Disability and Memorial Affairs, The American Legion noted that the 
Government Accountability Office (GAO) released a report in February 
2010, ``Improved Compliance and Policies Could Better Safeguard 
Veterans' Benefits''. This report recommended VA ``strengthen Fiduciary 
Program policies for monitoring fiduciaries, improve staff compliance 
with program policies, evaluate alternative approaches to meet 
electronic case management system needs and evaluate the effectiveness 
of consolidating 14 western Fiduciary Program units.'' In that 
testimony, The American Legion recommended authorizing personnel solely 
to administer the Fiduciary Program to ensure this program remains the 
priority and expertise of the personnel assigned to the Fiduciary 
Program. Similarly, specifically tasked personnel assigned to ensuring 
that those signatories acting on behalf of veterans deemed not capable 
of signing the proper paperwork by themselves would seem important to 
protecting these veterans and ensuring that they are not taken 
advantage of.
    Under conditions that ensure that the rights of the affected 
veterans are being protected, and with proper oversight, The American 
Legion supports this legislation.
                                s. 3348
    This bill would provide for appeals misfiled to the Department of 
Veterans Affairs (VA) to be treated as a motion for reconsideration if 
the VA fails to forward the appeal properly to the Court of Appeals for 
Veterans Claims (CAVC) within the proper period of time. The veteran 
must have filed an appeal to the VA within the 120 days after the 
notification of a decision by the Board of Veterans Appeals (BVA) 
required to appeal a claim to the CAVC.
    The bill is predicated on the fact that many veterans, unfamiliar 
with the structure of the veterans' claims benefits system, may 
mistakenly file an appeal to the VA, rather than the CAVC, after the 
claim has been finally adjudicated at the BVA. In proper legal 
procedure, a veteran disagreeing with a decision of the BVA has 120 
days after receiving notification of that decision to appeal the claim 
to the Court. The veteran may also file for a motion for 
reconsideration within the VA.
    Many veterans are unaware that the CAVC and VA are in fact separate 
entities. Therefore, veterans mistakenly file their intent to appeal to 
VA rather than the CAVC as would be the proper procedure. This 
legislation would offer protection to veterans who file in error in 
cases such as this.
    In keeping with the spirit of the uniquely pro-claimant system of 
veterans' compensation benefits adjudication, this legislation can 
serve as a safety net for veterans already confused by a complex system 
such as the system for the adjudication of veterans benefits. The 
American Legion by resolution supports the extension of the 120 day 
period of eligibility to file an appeal to the CAVC to a period of one 
year. This position is predicated upon the need for a system that 
protects the rights of veterans who face challenges in the appeals 
system. The American Legion supports this legislation.
    As always, The American Legion thanks this Committee for the 
opportunity to testify and represent the position of the over 2.5 
million veteran members of this organization. We hope that we not only 
express what is in the best interests of our members, but also of the 
totality of veterans in this country. We stand ready to answer any 
questions or clarify any positions for this Committee, whether orally 
or in writing, and to address any future issues such as the Committee 
should require of us.

    Chairman Akaka. Thank you very much, Mr. de Planque.
    [The prepared statement of Mr. Tarantino, Legislative 
Associate for Iraq and Afghanistan Veterans of America 
follows:]
      Prepared Statement of Tom Tarantino, Legislative Associate, 
            Iraq and Afghanistan Veterans of America (IAVA)
    Mr. Chairman, Ranking Member, and Members of the Committee, on 
behalf of Iraq and Afghanistan Veterans of America's one hundred and 
eighty thousand members and supporters, thank you for inviting me to 
testify at this hearing to share our members' views of on these 
important issues.
    My name it Tom Tarantino and I am a Legislative Associate with 
IAVA. I proudly served 10 years in the Army beginning my career as an 
enlisted Reservist, and leaving service as an Active Duty Cavalry 
Officer. Throughout these ten years, my single most important duty was 
to take care of other soldiers. In the military they teach us to have 
each other's backs. And although my uniform is now a suit and tie, I am 
proud to work with this Congress to continue to have the backs of 
America's servicemembers and veterans.
------------------------------------------------------------------------
  Bill #                Bill Name                 Sponsor     Position
------------------------------------------------------------------------
S.1780     Honor America's Guard-Reserve          Lincoln       Support
            Retirees Act......................
------------------------------------------------------------------------
S.1866     Corey Shea Act.....................      Kerry       Support
------------------------------------------------------------------------
S.1939     Agent Orange Equity Act of 2009....  Gillibrand      Support
------------------------------------------------------------------------
S.1940     Study herbicide exposure on          Gillibrand      Support
            children of Vietnam veterans......
------------------------------------------------------------------------
S.2751     Designate a TX VA Medical Center as           CorNo Position
            George H. O'Brien, Jr., VAMC......
------------------------------------------------------------------------
S.3035     Veterans Traumatic Brain Injury         Baucus       Support
            Care Improvement Act of 2010......
------------------------------------------------------------------------
S.3107     Veterans' Compensation Cost-of-          Akaka      Support*
            Living Adjustment Act of 2010.....
------------------------------------------------------------------------
S.3192     Fair Access to Veterans Benefits       Specter       Support
            Act of 2010.......................
------------------------------------------------------------------------
S.3234     Veteran Employment Assistance Act       Murray      Support*
            of 2010...........................
------------------------------------------------------------------------
S.3348     Allow reconsideration of misfiled        Akaka       Support
            BVA appeals.......................
------------------------------------------------------------------------
S.3314     Outreach to veterans who reside in       Brown       Support
            Appalachia........................
------------------------------------------------------------------------
S.3325     Prohibit the collection of              Begich       Support
            copayments for telehealth visits..
------------------------------------------------------------------------
S.3368     Authorize certain individuals to         Akaka       Support
            sign VA claims on behalf of vets..
------------------------------------------------------------------------
S.3352     Veterans Pension Protection Act of      Tester       Support
            2010 (Tester).....................
------------------------------------------------------------------------
S.3286     Grants to agencies to assist with      Specter   No Position
            VA claims.........................
------------------------------------------------------------------------
S.3330     Veterans' Health and Radiation                Casey  Support
            Safety Act of 2010................
------------------------------------------------------------------------
S.3355     Veterans One Source Act of 2010....  Klobuchar       Support
------------------------------------------------------------------------
S.3367     Increased pension for married vets       Akaka       Support
            with aid and attendance...........
------------------------------------------------------------------------
S.3370     Changes to joint DIC and Social          Akaka   No Position
            Security application..............
------------------------------------------------------------------------
S. DRAFT   Expansion of VA multi-family              Burr       Support
            transitional housing program......
------------------------------------------------------------------------
* IAVA has offered several technical recommendations for improving these
  bills.

     s. 1780: honor america's guard-reserve retirees act (lincoln)
    IAVA supports S. 1780, which grants full veteran status to members 
of the reserve components who have 20 or more years of service and do 
not otherwise qualify under current laws. This legislation expands the 
definition of the word veteran to recognize servicemembers who served 
their country honorably for over two decades in the Guard and Reserve 
but were never called to active duty. We believe when someone takes the 
oath to defend this country, wears the uniform and serves that oath 
faithfully they have earned to be considered a full veteran and the 
benefits that go with it.
                    s. 1866: corey shea act (kerry)
    IAVA supports S. 1866, the Corey Shea Act, which allows parents of 
fallen servicemembers to be buried in a national cemetery with their 
unmarried or childless sons and daughters. Many veterans of Iraq and 
Afghanistan are killed in their youth and never had the opportunity to 
start their own family. If the VA deems there is available space and 
the parent wants to be interred with their child should be allowed to 
do so in a national cemetery. As Denise Anderson, whose son Corey Shea 
was killed in Mosul in 2008, said in her testimony to House Veterans' 
Affairs Committee last year, ``If you decide to pass this, it would 
give me some peace in my life to which I can pay more attention to my 
husband and daughter, who I feel I have been neglecting. I could 
finally be able to move forward in my life just knowing I could spend 
eternity with my son.''
         s. 1939: agent orange equity act of 2009 (gillibrand)
    IAVA supports S. 1939, the Agent Orange Equity Act. This bill 
expands the number of Vietnam veterans who qualify for presumption of 
service connection for diseases associated with exposure to Agent 
Orange. We believe that all veterans exposed to the deadly herbicide 
should be granted these presumptions. Agent Orange didn't discriminate 
between Brown and Blue Water, neither should the VA.
    Few if any of our members will be affected by S. 1939. However, 
exposure to toxic chemicals while serving in combat is a harsh reality 
for many Iraq and Afghanistan veterans. We are grateful that the VA 
just announced broad service connection presumptions for Iraq and 
Afghanistan veterans exposed to toxic burn pits and other hazardous 
chemicals. We believe that our brothers and sisters from the Vietnam 
War should have been extended the same treatment. It's long overdue 
that we afford them the benefits that they have earned.
    On a technical note, since Vietnam Service Campaign Medals were not 
authorized for Vietnam until seven years after the war began, IAVA 
encourages the Committee to fully examine whether including Armed 
Forces Expeditionary Medals (Vietnam) along with Vietnam Medals are an 
appropriate criteria for eligibility for these presumptions. 
Furthermore, we would request that the Committee evaluate the potential 
affect of changing the current statutory language from ``active 
service'' to ``served'' and whether it would require re-litigation of 
claims.
s. 1940: study on the effects of exposure to herbicides on children of 
                     vietnam veterans (gillibrand)
    IAVA strongly supports S. 1940, which requires the VA to complete a 
study of the effects of Agent Orange on the children of Vietnam 
veterans. The VA has already acknowledged that there is a link between 
some birth defects and exposure to Agent Orange, such as spina bifida. 
IAVA believes the VA must complete an exhaustive study to identify any 
additional diseases or conditions that the children of Vietnam veterans 
are suffering from due to their parent's service.
     s. 2751: designate a texas veterans affairs medical center as 
                 george h. o'brien, jr., vamc (cornyn)
    IAVA has no position on S. 2751.
 s. 3035: veterans traumatic brain injury care improvement act of 2010 
                                (baucus)
    IAVA supports S. 3035, which requires the VA to conduct a needs 
assessment on whether veterans living in the Northern Rockies or the 
Dakotas, suffering from Traumatic Brain Injuries, have access to 
quality VA health care.
 s. 3107: veterans' compensation cost-of-living adjustment act of 2010 
                                (akaka)
    IAVA fully supports S. 3017, the Veterans' Compensation Cost-of-
Living Adjustment Act, which ensures that critical veterans benefits 
are adjusted to keep up with inflation. However, we believe that these 
benefits should have an automatic annual COLA increase and should not 
be dependent on passage through Congress.
    s. 3192: fair access to veterans benefits act of 2010 (specter)
    IAVA supports S. 3192, the Fair Access to Veterans Benefits Act, 
because it will accept late appeals from veterans who miss VA deadlines 
for good cause. Korean war veteran David Henderson was medically 
discharged for a service-connected injury after being diagnosed with 
paranoid schizophrenia. In 2002 he applied for an increase to his VA 
disability rating and the VA denied that request. During the 120-day 
appeal period Mr. Henderson was hospitalized due severe back pain and a 
psychotic break forcing him to file his appeal 15 days late.
    Before Henderson's application for benefits, a doctor's note 
stating that he was medically incapable of turning the paperwork in on 
time would have been sufficient for the VA accept his appeal late. 
However, a recent Supreme Court case ruled that extending filing 
deadlines was unacceptable under current law. The Supreme Court decided 
that because the appeals deadline was set by Congress, and could not be 
extended, regardless of the circumstances.
    IAVA believes that the deadline should have been extended for Mr. 
Henderson in his case. We also believe that veterans suffering from 
service-connected illnesses should be given the opportunity to extend 
VA deadlines if they prove that acute effects of their disability made 
them incapable of filling on time.
      s. 3234: veteran employment assistance act of 2010 (murray)
    IAVA fully supports S. 3234, the Veterans Employment Assistance Act 
of 2010, the first comprehensive veterans job bill since the new GI 
Bill. America's newest veterans face serious employment challenges. The 
process of returning to civilian life is complicated by the most severe 
economic recession in decades. Many Iraq and Afghanistan veterans, 
leaving the active-duty military, find civilian employers who do not 
understand the value of their skills and military experience. As a 
result, unemployment rates for Iraq and Afghanistan veterans are 
staggering.
    S. 3234 will greatly aid unemployed veterans by:

    <bullet> Expanding the new GI Bill to include training at 
vocational schools and the pursuit of apprenticeships and on-the-job 
training (OTJ);
    <bullet> Providing a subsistence allowance for unemployed veterans 
enrolled in full-time employment and training programs;
    <bullet> Assisting veteran owned small business owners with 
entrepreneurial training, Federal procurement assistance and greater 
outreach;
    <bullet> Requiring public disclosure of the number of veterans 
hired by Federal contractors with contracts over $100,000 (VETS-100);
    <bullet> Demanding more accountability from state employees who are 
assigned to assist unemployed veterans find jobs (DVOPs/LVERs);
    <bullet> Creating a grant to encourage states to establish a 
veterans conservation corps;
    <bullet> Establishing a college center of excellence to help 
veterans receive more academic credit for their military experience and 
training;
    <bullet> Studying DOD Transition Assistance Programs (TAP); and
    <bullet> Funding a number of pilot programs to help recently 
separated veterans use their military skills and training to find 
meaningful employment.

    This is such an urgent bill for America's veterans that I will 
comment on each of its separate provisions.
               vocational training under the new gi bill

      ``After approximately 30 interviews and temporary positions
      I chose to attend school under the new GI Bill.''--IAVA Vet

    The new GI Bill is the greatest investment in veterans and their 
families since World War II and it couldn't have come at a better time. 
Veterans, facing tough economic times and high unemployment rate, are 
flocking to universities across the Nation, making themselves more 
marketable in the job market. The Post-9/11 GI Bill has enabled over 
250,000 students \1\ to attend first-rate colleges and universities.
---------------------------------------------------------------------------
    \1\ Spring 2010 GI Bill Benefit Processing, http://gibill.va.gov/
spring2010.htm.

 ``This was a huge disappointment to me when I found out my schooling 
    was not covered under the new GI Bill. . . . I am a mechanic by 
                        vocation; there are no 
         4-year degree programs for people like me.''--IAVA Vet

    Unfortunately, a significant number of veterans have been short-
changed under the new GI Bill. Apprenticeships, on-the-job training and 
vocational programs are excluded from the new GI Bill. IAVA strongly 
supports the provision in S. 3234, which would include vocational 
training programs, apprenticeships and on-the-job training (OTJ) in the 
new GI Bill. Veterans pursuing vocational training should not be 
penalized for going to a strictly vocational school. The WWII GI Bill 
sent over 8 million veterans to school. More than half of those 
veterans were not seeking a college degree; they participated in some 
type of vocational training program. Unfortunately, nearly 16,000 
modern veterans pursuing vocational training will not be able to access 
the new GI Bill.
    On a technical note, IAVA recommends modifying section 7 of this 
bill to include a definition of an approved program of apprenticeship 
and not reference other programs. We believe this definition should 
mirror the Chapter 30 definition (38 U.S.C. 3002(3)(c)(i)). We also 
believe that the section allowing vocational programs under the new GI 
Bill should include approved programs under 38 U.S.C. 3452(f). This 
mirrors the current rules under the new GI Bill and 38 U.S.C. 3452(c) 
which is the definition of approved programs used by Chapter 30 of the 
Montgomery GI Bill.
    Last, IAVA believes that including vocational programs in the new 
GI Bill is just one piece of a broader, more comprehensive effort to 
upgrade the new GI Bill. We look forward to working with the Chairman 
and Ranking Member as they develop their comprehensive new GI Bill 
upgrades legislation.
                     employment training assistance

``I have had to move my family 2-3 times in search for employment. . . 
                                   .
      I have had LOTS of difficulty finding employment''--IAVA Vet

    We believe that the employment training assistance program will 
greatly help veterans struggling to find employment by offering GI 
Bill-like incentives to complete job-training programs. S. 3234 creates 
a monthly subsistence allowance for veterans enrolled full time in an 
approved employment training program. Veterans would receive a monthly 
subsistence allowance equal to the monthly living allowance provided 
under the new GI Bill. In order to be eligible a veteran would have to 
be unemployed for more than 4 consecutive months and no longer qualify 
for the GI Bill or vocational rehabilitation. Last, it would provide a 
veteran up to $5,000 in relocation expenses to participate in this 
program.
                          small business help

``Navigating through the maze of red tape to A) start a business and B) 
 get it registered as a Disabled Veteran-Owned Business. . . . A small 
   business owner wears a lot of hats, and the soft skills acquired 
through military experience are not enough. I needed some real hands-on 
     experience or time with a mentor to help create a successful 
                        enterprise.''--IAVA Vet

    The Veterans Business Center (VBC) program proposed in S. 3234 will 
fund a number of grants to help small business owners grow and mature 
their businesses. The program will provide matching grants of $150,000 
to approved groups who wish to become an official VBC. These VBCs will 
be responsible for providing direct education, counseling and 
development to veteran owned small businesses. The VBC program will 
also provide grants to help increase access to capital, assist in 
contract procurement and outreach to service-disabled veteran owned 
small businesses. Last, the VBC program will be responsible for hosting 
a biannual veterans' entrepreneurial development summit.
    While we think the VBC program will be an incredibly helpful 
program to veteran-owned small businesses, we recommend a few minor 
modifications. First, we believe that the matching grant designed to 
help establish each VBC should be increased to $200,000. Second, the 
director of the VBC program should be given the flexibility to offer 
grants less than the full amount, in the event the organization 
requesting to become a VBC can't match the full amount. Last, we 
believe the VBC should include in their training programs how to 
``deployment-proof'' a business for veteran owners who are still 
members of the National Guard or Reserves.

     ``During my deployment I had to totally shut the doors on my 
                             construction 
  business. It put my family in a very difficult position''--IAVA Vet

      transition assistance program (tap) and disabled transition 
                       assistance programs (dtap)

  ``Once I learned how to translate my skills into civilian-speak, I 
                            found I was in 
 high demand and very competitive for several good positions.''--IAVA 
                                  vet

    Servicemembers approaching separation can take advantage of the 
Transition Assistance Program (TAP). The program provides employment 
and training information as well as a variety of counseling programs. 
The Departments of Defense, Veterans Affairs, Transportation, and Labor 
partner to conduct three-day workshops where servicemembers learn 
interview skills, tips for job searches and how to prepare civilian 
resumes and cover letters. The program has shown some effectiveness: 
according to the Department of Labor,\2\ servicemembers who participate 
in TAP find their first post-military job three weeks faster. S. 3234 
would require a complete study and recommendations to improve the TAP 
program.
---------------------------------------------------------------------------
    \2\ Gerry Gilmore, ``Pentagon Improves Services for Transitioning 
Servicemembers, Families,'' American Forces Press Service, May 19, 
2008: http://www.defenselink.mil/news/newsarticle
.aspx?id=49927.
---------------------------------------------------------------------------
    Utilization of TAP is regrettably low. The Marine Corps is the only 
branch of service that requires its members to sign up for TAP 
briefings, but attendance is still not mandatory. The Department of 
Defense has established a goal of 85% participation across the 
services,\3\ yet only 60-65% of all separating active-duty 
servicemembers attend the TAP employment seminars.\4\ In the National 
Guard and Reserves, the usage rates are even lower: only 30 percent of 
all separating Reservists or National Guardsmen attend some portion of 
TAP.\5\ In addition, all aspects of TAP are not always available and 
the time constraints of troops' demobilization process can make 
attending a TAP session difficult, if it is available at all.\6\ To 
encourage greater participation, the Department of Defense launched 
TurboTap.org in 2007. This Web site allows active-duty and reserve 
servicemembers access transition resources on their own time, including 
information on military and VA benefits and employment assistance. 
There is still much to be done to achieve the 85% participation target.
---------------------------------------------------------------------------
    \3\ Joseph C. Sharpe, Jr., Deputy Director of the American Legion 
National Economic Commission, Testimony before the U.S. House of 
Representatives Committee on Veterans' Affairs, ``U.S. Department of 
Veterans Affairs/U.S. Department of Defense Cooperation in 
Reintegration of National Guard and Reserve,'' June 24, 2008: http://
veterans.house.gov/hearings/Testimony.aspx
?TID=32446&Newsid=260&Name=%20Joseph%20C.%20Sharpe,%20Jr.
    \4\ Ibid.
    \5\ Women Veterans in Transition Pilot Research Study by Business 
and Professional Women's Foundation, ``Building Strong Programs and 
Policies to Support Women Veterans,'' p. 2: http://www.bpwusa.org/i4a/
pages/index.cfm?pageid=5383.
    \6\ Department of Labor, ``Employment Situation of Veterans: 
2007,'' April 10, 2008, p. 3: http://www.bls.gov/news.release/pdf/
vet.pdf.
---------------------------------------------------------------------------
                          federal contracting

``I ended up getting a job with a company that is contracted out by the 
government and is unionized. So everyone is understandable and supports 
               my actions with the military.''--IAVA Vet

    The Federal Government is the world's largest buyer of goods and 
services, with purchases totaling over $425 billion each year.\7\ With 
this level of spending the Federal Government can leverage its 
purchasing power to require potential contractors to increase veterans 
hiring. Current Federal law mandates Federal contracts over $100,000 
``take affirmative action to employ'' veterans.\8\ These contractors 
are required to publish job openings with the state job banks and to 
annually report the number of veterans they have retained by submitting 
a VETS-100 form to the Department of Labor. These contractors are also 
prohibited from discriminating against veterans.
---------------------------------------------------------------------------
    \7\ http://www.sba.gov/contractingopportunities/index.html
    \8\ 38 U.S.C. 4212.
---------------------------------------------------------------------------
    Unfortunately, the data collected from VETS-100 forms is aggregated 
and only partially published in the Department of Labor VETS annual 
report. IAVA is pleased to see that S. 3234 would require these forms 
to be publicly reported, allowing interested parties to review whether 
contractors are actually following through on these contracting 
requirements. The public disclosure of these forms should create 
healthy competition between contractors on which contractor hired more 
veterans. IAVA would love to see companies like Boeing and Lockheed 
Martin make these statistics part of their bids for the next big 
defense contract.
                         other technical notes
    Sec. 9: Center of Excellence in Reforming Higher Education--In 
order to ensure this noble program is successful we recommend Including 
the Secretary of Education in the planning process along with the 
Secretary of Veterans Affairs and the Assistant Secretary of Labor for 
Veterans' Employment and Training.
       s. 3348: allow reconsideration of misfiled appeals (akaka)
    IAVA supports this bill, which would streamline the process of 
appealing a disability claim and would not penalize veterans for 
misfiling a notice of appeal.
     s. 3314: outreach to veterans who reside in appalachia (brown)
    IAVA supports this bill, which requires the VA to conduct outreach 
to veterans who reside in Appalachia. However, we feel that the VA must 
prioritize outreach nationally and we recommend that they include a 
distinct line item in their annual budget request specifically for 
outreach programs.
 s. 3325: prohibit the collection of copayments for telehealth visits 
                         for veterans (begich)
    IAVA supports this bill, which would prohibit the VA from 
collecting copayments for telehealth and telemedicine visits. Since it 
is impossible for the VA to place brick and mortar buildings near every 
veteran in the United States, veterans who live in rural areas should 
not be charged if a medical professional could not see them in person.
 s. 3368: to authorize certain individuals to sign va claims on behalf 
                          of claimants (akaka)
    IAVA strongly supports this common sense draft bill that will allow 
an authorized individual to sign on behalf of a veteran who is a minor, 
physically unable or declared mentally incompetent. Incapacitated 
veterans should not have to fight through bureaucratic red tape to get 
their paperwork moving.
       s. 3352: veterans pension protection act of 2010 (tester)
    IAVA supports this bill, which would expand the amount of 
reimbursements that veterans and their dependents are forced to claim 
as income relating to eligibility for pension claims.
  s. 3286: va pilot program to provide grants to state and non-profit 
            agencies to assist claims development (specter)
    IAVA has no position
   s. 3330: veterans' health and radiation safety act of 2010 (casey)
    IAVA supports this bill that aims to improve training for VA 
employees and contractors in the use of low-level radiation therapies.
          s. 3355: veterans one source act of 2010 (klobuchar)
    IAVA supports this bill that intends to create an interactive one 
stop for veterans to learn about and access their benefits from the 
Department of Veterans Affairs.
s. 3367: increase in pension for married veterans who both require aid 
                         and attendance (akaka)
    IAVA supports this bill, which would increase the rate of pension 
for a household with married disabled veterans requiring regular aid 
and attendance.
  s 3370: changes the requirements for the va and social security to 
   provide a joint application for dic and social security benefits 
                                (akaka)
    IAVA has no position.
             s. draft: expansion of the va's multi-family 
                  transitional housing program (burr)
    IAVA supports this bill, which would improve and expand on the VA's 
multi-family transitional housing program.

    Chairman Akaka. Mr. Hilleman.

 STATEMENT OF ERIC A. HILLEMAN, DIRECTOR, NATIONAL LEGISLATIVE 
               SERVICE, VETERANS OF FOREIGN WARS

    Mr. Hilleman. Mr. Chairman, Ranking Member Burr, Senator 
Murray, thank you on behalf of the 2.1 million men and women of 
the Veterans of Foreign Wars and our Auxiliary for this 
opportunity to be represented here today. Given the large 
number of bills, I will limit my remarks to two or three issues 
the VFW would like to highlight for today's hearing.
    The VFW believes one unemployed veteran is one too many. 
The number of unemployed veterans has skyrocketed to over a 
million. The remarkable young men and women who put their lives 
on the line for our Nation deserve much better. Congress needs 
to invest in the future of those who have invested in America 
by providing them with the training, skills, and opportunities 
for a chance at the American dream. We applaud Senator Murray 
for her legislation and for standing up and fighting to put 
America's veterans back to work.
    The VFW enthusiastically supports S. 3234, Veteran 
Employment Assistance Act of 2010, which seeks to address the 
rampant unemployment among recently separated OIF and OEF 
veterans. It is a comprehensive approach to addressing 
veterans' unemployment. This bill invests in American small 
business, veterans' employment services, on-the-job training, 
and apprenticeship programs. Further, it capitalizes on 
existing military skills and develops programs that place 
veterans in comparable career tracks.
    Through studies, this bill seeks to understand the barriers 
facing transitioning servicemembers while understanding the 
successes of Guard and Reserve units in re-employing their own 
members. The values of American veterans in our Nation's 
workforce cannot be understated.
    Former servicemembers know how to work as a member of a 
team to creatively solve problems. They are trained to lead and 
know how to perform in unforgiving circumstances. They realize 
the repercussions of their conduct and understand the decisions 
they make have an impact on their organization. Veterans are 
punctual, professionally dressed at all times, lead healthy 
lifestyles, and are extremely trustworthy, motivated self-
starters. Many veterans are technologically savvy and 
proficient with the use of computers. The battlefield of today 
requires a grunt to do much more than just point and shoot. 
They are civic-minded and willing to go the extra mile, and are 
committed, loyal employees. We ask Congress to help us market 
the inherent value of America's veterans.
    Senator Akaka, your soon-to-be-released upgrades to the GI 
bill will also help put veterans back to work. With the advent 
of the Post-9/11 GI Bill, hundreds of thousands of veterans 
will and are improving their career trajectory through 
education. Their success is a direct result of this Committee's 
dedication and action to improving the lives of America's 
veterans.
    The VFW believes a number of changes need to be made to the 
Post-9/11 GI Bill to address the needs of servicemembers and 
their families. The original bill provided training, 
apprenticeships, and vocational training for World War II 
veterans. The Post-9/11 GI Bill should also provide the same 
opportunity to seek careers in the skilled trades. The VFW 
supports standardization, simplification, and restructuring of 
all education programs with an eye toward equitable benefits 
for equitable service. The bill continues to serve as a strong 
tool in putting veterans back to work.
    Further, we recognize that Congress alone cannot solve this 
epidemic of unemployment among our Nation's veterans. We urge 
Congress to encourage America to do her part for these veterans 
and help put them back to work. We need corporate America, 
union groups, Government agencies, law makers, and veterans 
groups to place America's veterans at the front of the 
employment line.
    If I may, Mr. Chairman, the VFW would like to amend our 
written testimony to reflect for the record that S. 3368, a 
bill to amend Title 38 of the U.S. Code, to authorize certain 
individuals to sign claims filed with the Secretary of Veterans 
Affairs on behalf of claimants.
    While these regulations in CFR 3.155 currently allow VA to 
accept the filing of an informal claim on behalf of a veteran 
by a Member of Congress, a duly authorized representative or a 
``next friend,'' in practice VA has not recognized or treated a 
duly authorized representative's or a next friend's signature 
as evidence enough to initiate the claim. The VFW remains 
cautious that this authority be treated carefully to avoid 
fraud by an unscrupulous spouse, health care provider, or 
nursing home official.
    This concludes my testimony. I would be happy to answer any 
of your questions, and thank you for this opportunity to 
testify.
    [The prepared statement of Mr. Hilleman follows:]
  Prepared Statement of Eric Hilleman, Director, National Legislative 
         Service, Veterans of Foreign Wars of the United States
    Chairman Akaka, Ranking Member Burr and Members of the Committee: 
Thank you for the opportunity to provide testimony on pending veterans' 
health and benefits legislation. The 2.1 million men and women of the 
Veterans of Foreign Wars of the U.S. and our Auxiliaries appreciate the 
voice you give them at this important hearing.
          s. 1780, honor america's guard-reserve retirees act
    The Honor America's Guard-Reserve Retirees Act would recognize and 
authorize veteran-status to military retired members of the National 
Guard and Reserves who were never called to active duty but have served 
in other capacities for twenty or more years. The nation military 
cannot function without the Guard and Reserve. A large number of the 
Reserve Component members who have been called to serve in OEF/OIF 
qualify as veterans. However, some reservists' soul mission is to 
prepare other guard and reserve members for deployment, while never 
accruing qualifying active duty time to be classified as a veteran. For 
many servicemembers this is an issue of honor and pride in recognition 
of their service and sacrifice. VFW supports passage of this bill.
 s. 1866, a bill to amend title 38, united states code, to provide for 
 the eligibility of parents of certain deceased veterans for interment 
                        in national cemeteries.
    VFW is happy to support legislation to allow parents of deceased 
veterans to be interred with their child in a national cemetery. The 
current conflicts find that many young men and women are often without 
a surviving spouse or child to share their final resting place. 
Allowing a parent to be buried with the veteran provides some comfort 
and closure fitting of this special bond. We understand that the bill 
gives the VA the authority to determine if there is space available at 
the gravesite of the veteran. We ask that carful discretion be used to 
make this determination, as many national cemeteries near capacity for 
burial needs of veterans. It is important to preserve the dignity of 
our national cemeteries.
                s. 1939, agent orange equity act of 2009
    VFW strongly supports the Agent Orange Equity Act, which would 
expand presumptions related to exposures for veterans who served in the 
Republic of Vietnam and supporting missions. Current law requires 
Vietnam veterans to prove ``boots on the ground' in order to qualify 
for presumptions of service-connection for herbicide-exposure related 
to illness. S. 1939 would expand the law so that Blue Water navy 
veterans and every other servicemembers awarded the Vietnam Service 
Medal who deployed to land, sea or air in the Republic of Vietnam are 
fully covered by the Agent Orange laws Congress passed in 1991.
    This issue has been the subject of much litigation and wrangling of 
words and intent. It is our belief that Congress did not intend to 
exclude those veterans from compensation based on geographic lines. VA 
made this unilateral decision and has clearly chosen to ignore 
recommendations made by the Institutes of Medicine (IOM), the reviewing 
body that provides biannual reports linking scientific evidence with 
herbicide exposure. In fact, in 2009 IOM noted, ``Given the available 
evidence, the Committee recommends that members of the Blue Water Navy 
should not be excluded from the set of Vietnam-era veterans with 
presumed herbicide exposure.'' (http://books.nap.edu/
openbook.php?record_id=12662&page=656)
    The VFW believes it is time to amend the law and allow those 
veterans suffering from residual effects of Agent Orange to be 
compensated. This bill, when enacted will make it easier for VA to 
process claims of Vietnam veterans that suffer from illness linked to 
toxic exposures that are already identified in the law. We urge 
Congress to pass this legislation quickly and compensate those veterans 
suffering as it is long overdue.
 s. 1940, a bill to require va to carry out a study on the effects on 
children of exposure of their parents to herbicides used in support of 
  the united states and allied military operations in the republic of 
        vietnam during the vietnam era, and for other purposes.
    VFW supports the intent of this legislation. While we are not aware 
of any scientific evidence connecting Multiple Sclerosis (MS) and 
asthma in children to parental exposure to herbicides, we support any 
study that seeks to obtain available research and evidence of 
associations between diseases in children of Vietnam veterans. We 
believe that the public, exposed veterans, and VA all benefit by the 
knowledge obtained by such studies.
s. 2751, a bill to designate the department of va medical center in big 
 springs, tx, as the george h. o'brien, jr., department of va medical 
                                 center
    VFW along with the Department of Texas VFW supports this 
legislation to honor George Herman O'Brien--a decorated veteran, Medal 
of Honor recipient, and a long-time member of the Big Springs, Texas, 
and community. Major O'Brien began his career of service in the 
Merchant Marines in 1946, then joined the U.S. Marine Corps in 1950, 
and his ladder years volunteering among his fellow veterans at the Big 
Springs VA Medical Center. He died in March 2005; in November 2008, a 
statue of his likeness was unveiled at the medical center in his honor. 
It is only fitting that his final tribute be renaming the VA Medical 
Center in Big Springs as the George H. O'Brien, Jr. Medical Center.
 s. 3035, veterans traumatic brain injury care improvement act of 2010
    VFW supports Senator Baucus' bill that would require a report on 
establishing a Polytrauma Rehabilitation Center or Network site in the 
northern Rockies or Dakotas. Polytrauma care is provided to veterans 
and returning servicemembers with injuries to more than one physical 
region or organ system. One of which may be life threatening and/or 
results in physical, cognitive, psychological, or psychosocial 
impairments and functional disability.
    As of April 2007, VA has treated over 350 OEF/OIF servicemembers in 
their inpatient units. The vast majority of these patients have been on 
active duty at the time of admission to a center and sustained a trauma 
injury while in combat. Most of these patients are then discharged and 
receive very specialized follow-up care at a Polytrauma Network Site, 
or other VA facility in the Polytrauma System of Care.
    VA's Polytrauma System of Care includes four Polytrauma 
Rehabilitation Centers and 21 Polytrauma Network Sites. None of which 
are located in North Dakota, South Dakota, Idaho, Montana, eastern 
Washington or Wyoming. These States have among the highest per capita 
rates of veterans with injuries from military service in Iraq and 
Afghanistan. VFW believes that the number of discharged servicemembers 
living in the area warrants a report for capacity of care, but insists 
that it go hand in hand with VA's ability to support the center with a 
full staff and retention of professional consultants and specialties 
related to polytrauma.
 s. 3107, veterans' compensation cost-of-living adjustment act of 2010
    VFW is pleased to support the annual cost-of-living adjustment to 
the rates of disability compensation, clothing allowance, and DIC. As 
in the past, the adjustment is linked to the rate of increase of the 
Consumer Price Index (CPI) and Social Security benefit. Last's year 
COLA bill passed into law, but no increase was given due a struggling 
economy and the decline in the CPI.
    We urge Congress to approve a COLA for 2011, as the benefit 
provides for the daily needs of over 3.5 million veterans and their 
dependents living on fixed incomes. VFW believes that COLA and all 
benefits earned by our heroes are an ongoing cost of war. The payment 
of disability compensation is a central mission of VA, and should 
remain available and not be diminished by inflation. Even a small 
increase makes a positive impact in the lives of veterans and their 
dependents.
         s. 3192, fair access to veterans benefits act of 2010
    VFW supports this bill, which would provide some flexibility in the 
equitable tolling of timelines for the Board of Veterans' Appeals, and 
for other purposes. We believe that this bill creates flexibility in 
favor of veterans within the claims appeal process. The current 120-day 
deadline to file an appeal to the US Court of Appeals for Veterans 
Claims (CAVC) does not leave room for veterans that may have unique 
circumstances due to medical or mental health problems. An example of 
this is the David Henderson case. Because he suffers from paranoid 
schizophrenia, he was unable to meet the 120-day deadline and was 
denied the right to appeal to the CAVC.
    This is but one of many instances where a veteran was unable to 
file a timely appeal due to reasons of a mental condition. 
Subsequently, he was denied the ability to have his appeal heard by the 
appropriate appellate body. We applaud the change that this legislation 
makes in granting veterans, of past and present leeway in the appeals 
process. It provides a just and equitable system for those who have 
suffered due to circumstances beyond of their control and ensures they 
have their day in court.
          s. 3234, veterans employment assistance act of 2010
    The VFW enthusiastically supports this legislation, which seeks to 
address the rampant unemployment among recently separated OIF/OEF 
veterans. It addresses multiple sectors that impact veterans' 
employment. The following is a section by section break out of the 
provisions of the bill.
    Section 3, establishes a Veterans Business Center (VBC) Program 
under the authority of Small Business Administration (SBA) in 
consultation with the Secretary of Labor. This program expands the 
grants and funding available to the growing number of centers and 
universities that provide entrepreneurial development, counseling, 
education, and mentoring to veteran entrepreneurs. This provision would 
authorize $10 million in fiscal year (FY) 2010 and $12 million in FY 
2011 for these veteran business centers. The VBC Director, established 
under this program, will allocate grants to centers meeting the 
established performance benchmarks while matching grant dollars 
received. Grants will be broken into two categories, ``initial grants'' 
and ``growth funding grants.'' Business centers in areas where the 
population of veterans exceeds the national median or the population of 
OIF/OEF veterans exceeds the national median will be given priority for 
grants.
    This section also provides business centers a total of $4.5 million 
for FY 2011 and FY 2012 for three specific grant types to the tune of 
$1.5 million each. The VBC Director would be charged with issuing 
individual grants up to $75,000 annually to develop programs locating 
capital--increasing funding for local veterans owned businesses, 
providing procurement assistance for Federal contracting, and offering 
service-disabled veterans-owned business development programs specific 
to the injured veterans.
    Finally, section 3 commissions a joint report, between SVA and VA, 
regarding the Direct Loan program. This report would focus on the 
feasibility of establishing a direct loan program for veteran-owned 
small businesses.
    The VFW continues to support additional financial tools, education, 
training and assistance for veteran entrepreneurs. Small businesses 
remain the engine of our economy, while veteran entrepreneurs are a 
unique subset of that engine. The same drive, tenacity, and dedication 
that make our Nation's servicemembers and our military successful are 
the same intangibles that propel them in the private sector.
    VFW believes that many veteran entrepreneurs would benefit greatly 
from the training, networking, and assistance in navigating the 
provisions this bill promotes. Despite an uncertain economic climate, 
the number of veterans starting business and growing businesses is 
likely to increase. This legislation will help to ensure those veterans 
and disabled veterans have access to essential services to growing a 
successful business. Further, Veterans Small Business development is 
essential to combating unemployment among veterans. Veteran 
entrepreneurs are more likely to hire other veterans, knowing the value 
of military service.
    Section 4, requires biannual reporting to Congress by the 
Administrator of the Interagency Task Force for Veterans and Service 
Disabled Veterans Owned Small Business. The VFW supports the formation 
and reporting of the Interagency Task Force.
    Section 5, shortens the deadline from three years to one year, for 
Disabled Veterans Outreach Program Specialist (DVOPS) and Local 
Veterans' Employment Representatives (LVER), to meet the prerequisite 
training requirements. This legislation requires DVOPs and LVERs to 
educate other one-stop center staff about the nature of their work, 
while requiring them to learn about the other programs available 
through the one-stop delivery system. Failure to comply with the 
required training deadline would result in forgoing a percentage of the 
Federal grants that fund the state DVOP and LVER programs.
    The DVOPs and LVERs are often the first and only contact a veteran 
may have with a representative assisting them with veteran specific 
employment services. The VFW believes that this contact must be as 
personalized and helpful to the veterans as possible. This legislation 
encourages higher levels of competency among DVOPs and LVERs earlier in 
their careers. By shortening the deadline from three years to one year 
to complete training, this increases the likelihood that a veteran will 
be meeting with a knowledgeable representative. Further, the DVOP and 
LVER positions have historically suffered from high turnover among 
staff. This high turnover reinforces the need for constant and 
continual training. The one-year deadline seeks to meet this need.
    Section 6, would create a new program under Chapter 42 of Title 38, 
providing assistance to unemployed veterans seeking training or 
financial relocation assistance to pursue employment. This legislation 
authorizes $100 million annually to pay veterans a monthly living 
stipend at the rate of E-5 with dependents, Basic Housing Allowance 
(BHA). A veteran unemployed at four months or more, who was not in 
receipt of other VA education/training assistance, would qualify for 
six months of BHA to pursue a qualified education, training, or 
apprenticeship program. Additionally, a veteran could access a onetime 
grant of up to $5000 toward moving expenses for a DOL recognized 
training program or position within the training program. Finally, DOL 
will be required to submit an annual report outlining the usage and 
demographics of this program.
    This legislation will provide numerous veterans with the financial 
support to seek training and assist them with relocation expenses. 
Veterans at any point in their careers would be encouraged to retool 
and retrain to support their families, while also meeting the needs of 
a dynamic labor market. All too often guard and reserve members return 
home from military service only to find viable hometown industries and 
previous employers have closed or moved on. Often veterans experience a 
mid-career break in employment and need further education or training 
to reenter the work force-this bill guarantees an investment in our 
veterans' competitive American industries.
    Section 7, accomplishes the VFW's goal of equitably realigning 
Chapter 30, Montgomery GI Bill (MGIB) programs into Chapter 33, the 
Post-9/11 GI Bill. This legislation would provide a mechanism to 
authorize and assist veterans in pursuing approved apprenticeship or 
on-the-job-training programs. It would provide a monthly benefit to 
veterans in addition to a housing allowance equal to the BHA rate of an 
E-5 with dependents while an enrolled veteran. The monthly compensation 
and charge to entitlement would be used at the rate of 75 percent for 
the first six months, 55 percent for the second six months, and 35 
percent for any remaining months of training.
    The VFW believes a number of changes need to be made to the Post-9/
11 G.I. Bill to address the needs of today's servicemembers and their 
families. The original G.I. Bill provided training apprenticeships and 
vocational training for World War II veterans. The Post-9/11 G.I. Bill 
should also provide veterans the same opportunity to seek careers in 
skilled trades. The VFW supports the standardization, simplification 
and restructuring of all education programs, with an eye toward 
equitable benefits for equitable service, to include:

    <bullet> Remaining Chapter 30 programs (lump sum payments, 
vocational training, distance learning) should be moved into Chapter 
33.
    <bullet> Title 10, Section 1606, the Guard and Reserve Select 
Reserve GI Bill, needs to reflect the Chapter 33 scale.
    <bullet> Chapter 35 survivors and dependent educational benefits 
should also be comparable to Chapter 33.
    <bullet> Ultimately, phaseout Chapter 30 and Chapter 34; 
simplifying benefits based on Chapter 33.

    Furthermore, the VFW believes that members of the National Guard 
and Reserve who serve under Title 32 U.S.C., Active Guard Reserve 
program, should have their service recognized under Chapter 33. By 
virtue of their status, approximately 45,000 veterans who serve our 
country under Title 32 do not receive credit toward accruing benefits 
under the Post-9/11 GI Bill, even though their service was often in 
support of Federal initiatives. All military men and women should be 
rewarded equally.
    The VFW also supports allowing veterans who attend on-line 
universities to be eligible for the Post-9/11 GI Bill, and therefore, 
draw an equitable living stipend. Veterans often decide to attend 
online universities through necessity--family and work obligations, 
service-connected disability limitations, as well as financial 
restrictions that prevent them from becoming traditional, on-campus 
students. Veterans enrolled in online universities today receive no 
cost of living stipend. The VFW wants to see this inequity fixed.
    Section 8, would establish a ``veterans conservation corps'' grant 
program. Grants, up to $250,000, would be awarded to States for the 
purpose of maintaining local parks, lands, reserves, and other outdoor 
spaces. States would be required to establish partnerships with one-
stop centers, universities, labor organizations, and veterans' service 
organizations to promote veterans in employment and volunteer 
opportunities in their communities.
    The VFW continues to support collaborative and innovative programs 
to invest in communities and put veterans to work. This program has the 
potential to put veterans to work and give them practical experience 
organizing communities to care for the environment while developing and 
marketing `green' industries in a given area.
    Section 9, would establish grants for research, development, 
planning, implementation, and evaluation of military credit to count 
toward higher education. This section directs the VA and DOL to 
collaborate and establish grants, ranging from $2 million to $5 
million. Eligible institutions, such as colleges, military facilities, 
medical centers, and other programs would bridge the gap between 
military service and careers.
    We are extremely supportive of translating transferable military 
skill into college credit or careers. This grant program has the 
potential to target specific military occupational specializations 
(MOS) and place those individuals on the fast track toward 
certifications and degrees in current or closely related fields. We 
have long maintained, if you can drive a truck through the toughest 
spots in Iraq and Afghanistan, you should be able to drive a truck in 
the U.S. The same holds true for many electronics, mechanical, and 
technical fields.
    Section 10, would require the Secretary of Labor to publicize on 
the internet information reported by contractors to be in compliance 
with veterans employment requirements. We support the continued 
oversight and transparency that Congress and the Administration has 
sought to establish in government.
    Section 11, would establish a grant program, entitled ``Military 
Pathways Demonstration Program,'' focused specifically on putting 
military medical personnel and information technology (IT) personnel 
directly into the work force and education programs of their respective 
skill areas. The annual authorization of $10 million would direct DOL 
and VA to develop a competitive grant program to test servicemembers' 
transition into MOS related fields in the health care and IT sectors.
    The VFW strongly supports strengthening the gaps that exist between 
military specialization and the civilian counterpart industries. This 
grant program would make targeted links into corporate America in IT 
and the health care industries. It would seek to connect companies, 
organizations, and institutions of learning for the betterment of 
servicemembers. Once paths and bridges are successfully built into 
training and employing veterans in specific fields, this program can be 
broadened to other skill sets and industries. The cutting edge of both 
the IT and medical fields are in the hands of servicemembers in Iraq 
and Afghanistan. Allowing them to translate this skill and real world 
application into the private sector benefits the individual veteran and 
America's industries.
    Section 12, establishes a grant program for energy-related 
industry, much like that of Section 11 of this bill. The annual 
authorization of $10 million would develop a competitive grant program 
for states to collaborate with labor organizations and the energy 
industry to develop training and apprenticeship programs. The VFW 
strongly supports developing public-private partnerships to place 
America's veterans onto viable career trajectories.
    Section 13, would authorize the Secretary of Health and Human 
Services (HHS) to establish a grant program to transform military 
medics into community emergency medical service personnel under the 
existing ``Rural emergency medical service training and equipment 
assistance program.'' Rural employment is one of the areas hardest hit 
by the economic downturn. Further, guard and reserve members often 
reside in these areas and due to frequent deployment have had 
difficulty reconnecting with employment upon their return. This 
legislation allows many veterans to seek training and employment in 
their respective community. The VFW supports this grant expansion under 
HHS.
    Section 14, directs the Secretary of the Department of Defense to 
designate military housing construction projects for a pilot program to 
utilize approved veterans apprenticeship programs. This pilot would 
span FY 2011 to 2015, requiring DOD to utilize veterans enrolled in DOL 
qualified apprenticeship programs.
    The VFW applauds the effort to promote Federal contracting and 
utilization of veterans' contractors in Federal procurement. This pilot 
has the potential to improve the DOD's adherence to the 3 percent 
contracting goal, while developing veterans' apprenticeship in the 
construction trades. This bill seeks to establish a geographic 
dispersion of this pilot catalyzing veterans' employment in the 
construction trades nationwide.
    Section 15, directs DOL and DOD to study and report to Congress on 
the Transition Assistance Program (TAP) with an eye toward improving 
services to veterans. The study would take into account the needs of 
veterans and the Armed Forces, assess current costs and programs, and 
recommend programming and activities to improve TAP as well as serving 
local veterans residing near military installations.
    TAP has long served as the sole means of providing a springboard 
for separating servicemembers. While TAP has been successful at 
providing a wealth of information in a short timeframe to separating 
servicemembers, it is often seen as more of a `checked-box' for 
separating troops. The VFW supports improving these programs to better 
inform and prepare servicemembers reentering civilian life.
    Section 16, directs the Secretary of Defense to study the National 
Guard Employment Enhancement Program of the Washington State National 
Guard. This study would examine this program and make recommendations 
to expand or authorize similar programs throughout the country.
    We support the study of employment programs among guard units. Many 
of the local best practices can be shared and translate nationally to 
help ease the reintegration of Guard and Reserve members. Nearly 40 
percent of the troops deployed in support of OIF/OEF are Guard and 
Reserve units from across the Nation, many of whom are frequently 
seeking new employment and reemployment. The successes of employing 
these veterans translates into much more than just jobs, it improves 
the quality of life of many military families as well as the American 
economy.
    VFW thanks Senator Murray for introducing this comprehensive 
employment bill and urges Congress to move quickly on this legislation 
to put American heroes back to work.
  s. 3286, to require va to carry out a pilot program on the award of 
      grants to state and local government agencies and nonprofit 
organizations to provide assistance to veterans with their submittal of 
          claims to the veterans benefits administration (vba)
    This bill is designed to increase effectiveness of outreach to 
veterans as it directs the Secretary to carry out a pilot program on 
the awarding of grants to State and local government agencies and non-
profit organizations that assist veterans with their claims.
    The VFW has always encouraged and supported increased awareness of 
benefits and services provided by VA to veterans. We believe that all 
veterans and their survivors should have access to up-to-date 
information about services and benefits for which they may be eligible. 
However, since the success of this initiative will result in increased 
claims submissions to VA, we urge that funding for VBA adjudication 
keep pace with increases in the number of claims filed as a result of 
greater outreach at the local level.
    We also encourage substantial outreach efforts at the local and 
state level be made on behalf of National Guard and Reserve members and 
would like to see additional language which specifies oversight by 
Congress regarding use of funds granted to state and local governments 
who perform outreach services. VFW also encourages effective training 
of those reaching out to veterans' to ensure that funds are being spent 
properly and services explained properly.
s. 3314, to require va and the appalachian regional commission to carry 
out a program of outreach to veterans who reside in appalachia, and for 
                             other purposes
    The VFW supports legislation that would require VA and the 
Appalachian Regional Commission to carry out a program of outreach for 
veterans who reside in Appalachia. The Appalachian Regional Commission 
is the region extending from Mississippi to New York, through 13 
states, 420 counties, and 205,000 square miles and encompassing 24.8 
million people. Historically, Appalachia has faced chronically high 
rates of poverty, unemployment, substandard housing, low educational 
levels and poor health care. The military/veteran population residing 
in the area is often unaware of the benefits provided by VA or other 
local, county, and state veterans' services. Combine that with scant 
access to care, varying support services, and problems finding 
transportation to VA appointments over long distances further isolates 
this population of veterans. We can all agree continued outreach is 
needed, but more importantly follow-up care and essential services is 
central to improving the quality of life for these veterans.
    VFW applauds section 1 (c) (Projects) which requires VA and the 
Appalachian Regional Commission to enter into agreements, provide 
technical assistance, award grants or contracts to state and local 
governments, veterans service organizations and businesses to increase 
the number of individuals providing services to veterans and their 
families. We look forward to working with the communities of Appalachia 
and encourage Congress to appropriate proper funding to continue 
offering comprehensive education and outreach to Appalachian veterans.
s. 3325, to amend tile 38, united states code, to authorize the waiver 
 of the collection of copayments for telehealth and telemedicine visit 
                  of veterans, and for other purposes
    The VFW strongly supports this legislation, which would exempt 
disabled veterans from paying copayments for telehealth and 
telemedicine visits. By waving co-payments we encourage the use of this 
cost effective service, which connects the specialist via 
telecommunications to the veteran.
    The VFW applauds VA as being a leader in this new area of health 
care. Care Coordination General Telehealth (CCGT) uses telehealth 
technologies to make diagnoses, manage care, perform check-ups, and 
actually provide care to veterans. The use of video technologies makes 
it possible for veterans, many of whom live in rural or remote areas, 
to come to VA's community-based outpatient clinics and connect to a 
specialist or other practitioner who may be in a hospital hundreds or 
even thousands of miles away. Offering this special service is a 
wonderful use of technology and resources. Therefore, we are happy to 
offer our support for this enhanced health care service with the 
exclusion copayments by our veterans.
  s. 3348, to amend title 38, united states code, to provide for the 
treatment as a motion of reconsideration of a decision of the board of 
veterans' appeals of a notice of appeal of such decision misfiled with 
                                   va
    The VFW supports this legislation as it addresses the ambiguity 
involved with informal notices of disagreement or motions to reconsider 
an appeal. Currently, if a veteran formally communicates with the VA 
regarding their dissatisfaction with their case or the decision 
rendered, the VA must make a choice. This bill allows any written 
expression of disagreement, by the veteran, with a Board of Veterans 
Appeals BVA decision to be treated as a motion received by the BVA 
within the 120 appeal period--as a formal motion to reconsider.
           s. 3352, veterans pensions protection act of 2010
    This legislation would protect pension payments from including 
insurance settlements of any kind from the calculation amount in 
determining pension. Further, this bill would require VA to make 
determinations on the fare market value and replacement value of any 
assets claimed for exclusion under the insurance settlement.
    The VFW supports the intent of this legislation, but cannot support 
this language. We believe that this bill would require VA to make 
further determinations regarding replacement value in the cases of 
insurance settlements. The current pension threshold for a veteran 
without dependents is $11,830 annually. In order to exclude any income 
resulting from an insurance settlement from factoring against the 
$11,830, VA would need to further examine the values associated with 
the insurance settlement. These additional decisions will further delay 
and complicate a relatively simple benefit.
    We would suggest, this legislation be rewritten to accept any 
insurance settlement as excluded from the calculation of pension. It is 
likely this will achieve the noble goal of aiding a veteran in serious 
financial distress, while allowing them to replace the loss or damaged 
property. This also prevents VA from expending more resources to 
develop other pension claims.
                s. 3355, veterans one source act of 2010
    The VFW currently has no formal position on this legislation.
s. 3367, to amend title 38, united states code, to increase the rate of 
 pension for disabled veterans who are married to one another and both 
       of whom require aid and attendance, and for other purposes
    VFW supports the increase in aid and attendance rates for married 
couples. This bill corrects a drafting mistake in Public Law 105-178, 
Section 8206, which increased the aid and attendance rates for veterans 
receiving VA pension who were in need of aid and attendance; but failed 
to provide the same increase to married couples in receipt of the same 
benefits. The change will provide an additional $825 dollars, bringing 
the amount of pension of a wartime veteran couple in line with what 
their peers receive. VFW believes that this change is long overdue and 
asks Congress to enact this bill quickly.
 s. 3368, to amend title 38, united states code, to authorize certain 
individuals to sign claims filed with the secretary of veterans affairs 
             on behalf of claimants, and for other purposes
    The VFW cannot support this bill, as we believe it to be 
duplicative of VA's regulations, CFR 3.155. Current VA regulations 
allow for the filing of an informal claim on behalf of a veteran by a 
Member of Congress, a duly authorized representative or a `next 
friend.' Further, we believe that this bill may increase the 
opportunity for fraud by an unscrupulous spouse, health care provider, 
or nursing home official to initiate a claim without the knowledge or 
consent of the otherwise competent veteran. We also have concerns that 
the bill does not specify the level of proof a family member must 
provide to VA to establish that the claimant is mentally incompetent or 
physically unable to sign a form. We believe that this will impose 
another burden on VA as well as create an opportunity for fraud.
s. 3370, to amend title 38, united states code, to improve the process 
by which an individual files jointly for social security and dependency 
           and indemnity compensation, and for other purposes
    VFW supports this legislation, which adds clarity to VA's 
interpretation of law regarding the award of Social Security and DIC. 
Currently, Social Security has the ability to provide electronic 
notifications to VA in the event of a survivors spouse seeking 
survivors' benefits. This bill would give VA the authority to accept 
any documentation or electronic transmission as proof of eligibility in 
the death of a veteran.
   draft bill, to amend title 38, u.s.c., to improve the multifamily 
transitional housing loan program of the department of veterans affairs 
 by requiring the secretary of veteran affairs to issue loans for the 
    construction of, rehabilitation of, or acquisition of land for 
multifamily transitional housing projects instead of guaranteeing loans 
               for such purposes, and for other purposes
    The VFW supports this legislation, which would transform the VA's 
multifamily transitional housing loan grant program into a direct 
lending program for the same purpose. This program has been 
underutilized since its inception in 1999, yielding only one guarantee 
loan. The emphasis President Obama and Secretary Shinseki have placed 
on combating veterans' homelessness requires every available tool. This 
program could have a real impact in ending homelessness among veterans.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Patty Murray to 
 Eric Hilleman, National Legislative Director, Veterans of Foreign Wars
    Question. Do you think it would be best to try and centralize all 
GI Bill Benefit programs under one umbrella and how would you envision 
that taking place?
    Response. Yes, the VFW believes a number of changes need to be made 
to the Post-9/11 G.I. Bill to address the needs of today's 
servicemembers and their families. The original G.I. Bill provided 
training apprenticeships and vocational training for World War II 
veterans. The Post-9/11 G.I. Bill should also provide veterans the same 
opportunity to seek careers in skilled trades. The VFW supports the 
standardization, simplification and restructuring of all education 
programs, with an eye toward equitable benefits for equitable service, 
to include:

    > Remaining Chapter 30 programs (lump sum payments, vocational 
training, distance learning) should be moved into Chapter 33.
    > Title 10, Section 1606, the Guard and Reserve Select Reserve GI 
Bill, needs to reflect the Chapter 33 scale.
    > Chapter 35 survivors and dependent educational benefits should 
also be comparable to Chapter 33.
    > Chapter 34, VR&E programs need to be updated and in parity 
with Chapter 33.
    > Ultimately, phaseout Chapter 30 and Chapter 34; simplifying 
benefits based on Chapter 33.

    Remaining Chapter 30 programs (lump sum payments, vocational 
training, distance learning) should be moved into Chapter 33:

    <bullet> Include Title 32 AGR eligibility as qualifying 
active duty time for the Chapter 33.
    <bullet> Allow citified Vocational Programs (non-degree granting 
institutions) to qualify for ``approved programs.''
          - Living allowance, tuition, and the books stipend should be 
        available for these programs.
          - Students attending public vocational programs should not 
        have to pay out of pocket and private vocational schools should 
        get the same benefits as private colleges.
    <bullet> Allow OJT/Apprenticeship programs to qualify for Chapter 
33.
          - Living allowance rates should be based on the zip code of 
        the program.
          - The living allowance should be tiered like the MGIB (first 
        six months at 75%, second six 55%, and 35% for the remainder of 
        the program). The rate should be based on BAH, with eligibility 
        charged at the percentage received.
          - The book stipend should be available the first year paid in 
        six month increments to cover tools, dues, and programs 
        supplies.
    <bullet> Allow a veteran to take multiple test/certifications under 
the $2000 testing cap of Chapter 33.
          - If the veteran exceeds the $2,000 cap then s/he should be 
        charged a percentage of monthly eligibility based on the 
        national average BAH.
          - Students should receive up to $2,000 worth of reimbursement 
        for multiple test/certifications without a charge to 
        entitlement.
    <bullet> Distance learners need living allowance based on their 
residency at a percentage of BAH.
          - Fix living allowance of Chapter 33 to reflect the 
        percentage break down like that of MGIB.
    <bullet> Pay a living allowances based on Full time, 75% time or 
50% time tiers to make rates simpler to understand and greatly reduced 
the number of over and underpayments and charge eligibility 
accordingly.

    Title 10, Section 1606, the Guard and Reserve Select Reserve GI 
Bill, needs to reflect the Chapter 33 scale.

    <bullet> Move this program out of Title 10, create a Guard/Reserve 
benefit at the rate of 30 percent, reflecting the existing sliding 
scale currently used for accrued benefits under Chapter 33.

    Chapter 35 survivors and dependent educational benefits should also 
be comparable to Chapter 33.

    <bullet> All Chapter 35 programs should reflect the mechanisms of 
payment under Chapter 33.
          - Tuition, fees, and books should be compensated at the same 
        rate.
          - Eligibility and authorized programs should be identical to 
        Chapter 33.
    Chapter 34, VR&E programs need to be updated and in parity with 
Chapter 33.

    <bullet> Remove the Delimiting Date for VR&E.
    <bullet> Increase VR&E's Educational Stipend to Reflect Chapter 33.
    <bullet> Additional Assistance for Veterans with Dependents under 
VR&E.
    <bullet> Jump Start VR&E Enrollment. Eliminate the second 
determination, accept and support all eligible veterans who make the 
initial qualification for the program.
    <bullet> Measure Veterans Long-Term Employment under VR&E.
          - Currently, the measure of success is the number of veterans 
        gainfully employed for a period of 60 days after completing a 
        VR&E program. Such a short-term measurement limits the VR&E 
        program to short-term goals instead of properly helping 
        disabled veterans succeed for life.

    Ultimately, phaseout Chapter 30, Chapter 32, and Chapter 34; 
simplifying benefits based on Chapter 33.

    <bullet> All VA education programs should be unified and reflect 
equitable benefits for qualified recipients.
    <bullet> With the more generous benefit of Chapter 33, and the fast 
approaching date of veterans only eligible for Chapter 30, Chapter 30 
should be eliminated.
          - The same holds true for Chapter 32 (VEAP). Vietnam era 
        veterans who are still eligible for Chapter 32 are also most 
        likely eligible for Chapter 33 and more likely to utilize the 
        new GI Bill.
    <bullet> Chapter 34 each survivor should be compensated at the same 
rate available under Chapter 33. Thus, making Chapter 34 no more than a 
description of eligibility for Chapter 33 as a survivor.

    Chairman Akaka. Thank you very much, Mr. Hilleman.
    And now we will receive the testimony of Mr. Weidman.

STATEMENT OF RICHARD WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND 
GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA; ACCOMPANIED BY 
   ALAN OATES, CHAIRMAN, AGENT ORANGE/DIOXIN AND OTHER TOXIC 
                      EXPOSURES COMMITTEE

    Mr. Weidman. Thank you very much, Mr. Chairman, for the 
opportunity for us to present our views here today, and I, too, 
will limit oral remarks to just a couple of bills.
    The first is S. 1780. Perhaps Colonel Bob Norton from MOAA 
said it best when he said, ``Same hostile fire, same 
benefits.'' That precept applies to this bill. There are many 
other elements of services and benefits that are available to 
veterans that we need modification in the Guard and Reserve 
legislation to make sure that that precept is honored, ``Same 
hostile fire, same benefits.''
    S. 1939, the Agent Orange Equity Act, is something that is 
long overdue. We are in the 35th year since the formal end of 
the war, and we still are not yet in the final stretch in terms 
of delivering justice to those men and their families who were 
harmed by virtue of military service by exposure to Agent 
Orange and other toxins in Vietnam or elsewhere in the world. 
The Agent Orange Equity Act would extend the presumption that 
was wrongfully denied by the VA more than 10 years ago.
    The Institute of Medicine, in its most recent study in the 
strongest language possible, in their biennial review said that 
there was no valid scientific reason for excluding the Blue 
Water Navy people. I want to repeat that: there was no valid 
scientific reason for excluding the Navy people.
    The Secretary heard that and empanelled a special--
contracted with the IOM to empanel a special group of 
scientists that began work at the beginning of this month; and 
on May 3, VVA, both Mr. Oates and I, testified and met with 
that panel as they were considering that.
    One of the key things is that the Australians have 
completed three complete epidemiological studies of their 
veterans of everybody who served in their Armed Forces during 
the Vietnam War, and they are working on a fourth. In the third 
completed study, they discovered that Navy vets had higher 
cancer rates of all sorts, particularly those conditions that 
would emanate from exposure to Agent Orange, than the Army 
folks, and they could not figure it out. They then contracted 
with the University of Queensland, a worldwide respected 
institution, to look at this issue, and they zeroed in on 
desalinization and discovered that the desalinization actually 
had the perverse effect of concentrating the dioxin. Agent 
Orange is not water soluble. It is water-suspensible, and 
people came out into the gulf, close in to shore, much closer 
than VA would have you believe.
    Yankee Station was a particular point off the coast of 
Vietnam. What most of those who were supporting the effort in 
Vietnam, particularly supporting the carriers, would try to 
keep more or less on that point and head in toward shore; and 
when they got in too close, they turned around and came back in 
order to launch and receive aircraft. As a result and because 
the South China Sea is very shallow, a lot of this reached the 
ships with desalinization.
    VA claimed that this was a poor study, that it was poor 
science. They never have said why. And it is, in fact, a peer-
reviewed study. It has been peer-reviewed and written about in 
numerous scientific journals. It conforms to World Health 
Organization standards. Not only that, VA has not done--they 
have had 35 years to do an epidemiological study of those of us 
who served in Southeast Asia and they still have not even had 
something on the drawing boards, one.
    Two, they have had the opportunity now for 7 years to 
replicate the University of Queensland study and see whether it 
would be validated or not validated. That is what science is 
all about, and VA has not done that.
    In addition to that, VA currently is not funding a single 
scientific effort out of the Office of Research and Development 
that deals with the long-term adverse health impact of exposure 
to Agent Orange and other toxins in Vietnam. As a result of 
that, there is not any science to review.
    What the Institute of Medicine process does under the law 
that this Committee took the lead on getting passed through 
Congress, the Agent Orange Act of 1991, the Institute of 
Medicine can only review the science that is done by others. 
But the Federal Government is not funding any science to look 
at either Vietnam veterans, those who served in the Southeast 
Asia theater of operations, or our progeny. So, we also 
strongly favor S. 1940 because it starts the ball rolling in 
that direction of forcing VA to look at this whole question of 
progeny--not just children but also grandchildren.
    There are a number of other very positive bills, and I hope 
we get some questions about Senator Murray's act. Senator 
Murray, I thank you for your leadership in introducing this 
comprehensive bill. We have some specific comments as to how it 
may possibly be improved.
    I thank the Chair for our opportunities. Mr. Oates and I 
would be glad to answer any questions. Thank you, sir.
    [The prepared statement of Mr. Weidman follows:]
 Prepared Statement of Richard Weidman, Executive Director, Policy and 
Government Affairs, Vietnam Veterans of America and Alan Oates, Chair, 
         VVA National Agent Orange & Toxic Exposures Committee
    Mr. Chairman, Ranking Member Burr, and other distinguish members of 
the Senate Veterans' Affairs Committee, thank you for allowing us to 
appear here today. We appreciate you giving Vietnam Veterans of America 
(VVA) the opportunity to express our views in regard to the important 
pending proposed legislation before this Committee today.
  s. 1780--honor america's guard-reserve retirees act--a bill to deem 
    certain service in the reserve components as active service for 
  purposes of laws administered by the secretary of veterans affairs.
    Vietnam Veterans of America (VVA) favors enactment of this 
proposal. As should be readily apparent to all, the Reserves and 
National Guard have become integral and indispensable part of our 
Nation's Armed Forces, vital to our overall total force that enables 
our military to meet the stresses and strains of fighting global war on 
terrorists. This proposed legislation is just one more step in 
recognizing that ongoing contribution of those who serve in this 
manner, and is needed step toward treating their service in an 
equitable manner after their term of service is completed. VVA thanks 
Senators Lincoln, Hutchison, and Snowe for their leadership on this 
issue.
 s. 1866--a bill to amend title 38, united states code, to provide for 
 the eligibility of parents of certain deceased veterans for interment 
                         in national cemeteries
    VVA favors enactment of this legislation. It has no cost to the 
government, does not require further use of National Cemetery lands 
beyond that already required for interment of the servicemember. It 
will mean a great deal to the relatively few parents who will be 
affected to be interred with their lost servicemember.
  s. 1939--agent orange equity act of 2009--to amend title 38, united 
   states code, to clarify presumptions relating to the exposure of 
certain veterans who served in the vicinity of the republic of vietnam, 
                        and for other purposes.
    VVA reiterates our strong support for passage of S. 1939 the Agent 
Orange Equity Act, and the companion bill in the House of 
Representatives, H.R. 2254. VVA particularly thanks Senator Gillibrand 
of New York for introducing this proposed legislation. We must do 
whatever needs to be done, in this thirty fifth year since the end of 
the Vietnam war, to ensure that these veterans receive some measure of 
justice as soon as possible.
    In the latest biennial update pursuant to the Agent Orange Act of 
1991, the panel of the Institute of Medicine (IOM), of the National 
Academies of Science (NAS), unequivocally reiterated that there was no 
valid scientific reason for the exclusion of so-called ``Blue Water'' 
Navy veterans from the presumption of exposure to Agent Orange and 
other harmful toxins present in South Vietnam during the war. It is 
clear that the study performed by the University of Queensland 
regarding the desalination plants on board Australian ships at the time 
is directly applicable to American Navy personnel. Not only did the 
desalination plants on the American vessels work in exactly the same 
manner as those on Australian ships, they were manufactured and 
installed by the same company. The methodology for creating fresh water 
for both the boilers and for drinking, cooking, etc. actually had the 
perverse effect of concentrating dioxin in the ``cleansed'' water that 
was then ingested by the fliers and sailors on board.
    It is important to note that the reason that the Australian 
government commissioned this study is that the Third Epidemiological 
Study of Australian Veterans of Vietnam showed that their Navy 
personnel actually had higher rates of cancers and other diseases 
thought to be caused by exposure to dioxin than their Army personnel. 
This prompted the government of Australia to commission the Queensland 
study.
    Let me reiterate that the Australians have completed three 
epidemiological studies of all of their citizens who served in their 
Armed Forces during the Vietnam War, and they are now starting on a 
fourth such study. When they found anomalies, they then commissioned 
further studies to discover why. That is what responsible democracies 
do when it is alleged or suspected that their citizens who placed their 
lives on the line in defense of country have been harmed by said 
service.
    The United States government has done no such epidemiological study 
of our veterans.
    Even more egregiously, the VA Office of Research & Development 
currently does not fund a single study related to the long term adverse 
health care effects on our veterans or their progeny of exposure to 
Agent Orange and other toxic substances in Vietnam.
    When the VA challenged the Australian study on Navy veterans and 
desalinization before the IOM meeting specifically considering the 
matters of American ``blue water'' Navy veterans' potential exposure to 
dioxin on May 3, 2010 as being ``bad science'', the VA officials could 
not say how or why it was bad science. When the scientists on the IOM 
panel asked the VA if they had done an epidemiological study similar to 
the three such studies done by the Australians, the VA had no response. 
When the same scientists on that panel asked the VA officials if they 
had funded an attempt to replicate the acclaimed and peer reviewed work 
of the study of Australian Navy desalination plants done by the 
University of Queensland, the VA had no real response except to say 
that they had failed to do so.
    Further, that same VA Office of Research & Development (ORD), 
funded at an annual rate of more that a half a billion dollars, has yet 
to contract for completion of the replication of the landmark National 
Vietnam Veterans Readjustment Study (NVVRS) thereby making it a robust 
longitudinal study that will serve as a statistically valid national 
mortality and morbidity study for Vietnam veterans. From the testimony 
given in another Committee earlier this month, and in statements made 
to the General Accountability Office (GAO) and reflected in their 
testimony on this subject, ``Progress & Challenges in Completing the 
National Vietnam Veterans Longitudinal Study'' (http://www.gao.gov/
new.items/d10658t.pdf ) on May 5, 2010, it is clear to us at VVA that 
the staff of the ORD and of VHA does not intend to make a good faith 
effort to complete this study properly.
    It is clear to us that the VA ORD intends to act in a way that is 
plain unethical in regard to research that involves human subjects, and 
threatens to violate the assurances of confidentiality given to the 
original participants in the NVVRS twenty five years ago. That will 
guarantee that most reputable scientific institutions will not bid on 
completing this study given the way in which VA wishes to violate the 
original rules guaranteed in the Institutional Review Board rules for 
the study set at the onset of the original study, and that the veterans 
who originally participated will likely not do so again given the VA's 
bad faith effort to change the ground rules, and renege on assurances 
of confidentiality.
    What does all of this mean in relation to the bill S. 1939 that you 
have before you for consideration? What it means is that there was no 
valid scientific reason for VA to exclude the ``blue water'' Navy 
veterans from the presumption in the first place. Further, it means 
that the permanent bureaucracy of the VA continues to do everything it 
can to prevent any decent scientific research to be funded by the 
United States government into the long term health care effects of 
exposure to Agent Orange on American who served in Southeast Asia 
during the Vietnam War, or our children, or our grandchildren.
    It is clear that the right thing for that VA bureaucracy to do 
would be to recommend to the Secretary that he declare all of the 
``blue water'' Navy veterans covered under presumption immediately, 
reverse course, and honestly try and successfully complete the NVVLS, 
and start to fund proposals to examine the epi-geniological impact of 
exposure to dioxin and other toxins on second, third, and fourth 
generations of the progeny of Vietnam veterans, as well as the impact 
on the veterans themselves.
    However, while it is clear as to what the right and just and honest 
thing to do is in this situation, it is highly unlikely that these 
leopards will change their spots and start to act decently. Therefore 
in regard to action by the Executive branch, we can only hope that 
Secretary Shinseki, who we do believe to be a good, honest, and decent 
man, will do the right thing despite the recommendations of the 
permanent ORD staff.
    The veterans involved have been done a great injustice. That 
injustice needs to be made right. Early enactment of the Agent Orange 
Equity Act will provide such justice for many veterans who are now 
suffering and dying as a result of the harmful exposure to Agent Orange 
during the Vietnam War. We urge this distinguished Committee and the 
Senate to take the necessary steps to pass this bill as soon as 
possible.
 s. 1940--a bill to require the secretary of veterans affairs to carry 
out a study on the effects on children of exposure of their parents to 
  herbicides used in support of the united states and allied military 
 operations in the republic of vietnam during the vietnam era, and for 
                            other purposes.
    Vietnam Veterans of America (VVA) also thanks Senator Gillibrand 
for sponsoring this very important bill requiring the Secretary of 
Veterans Affairs to perform a study on the effects of Agent Orange and 
other toxins used in Vietnam on the children of veterans so exposed. 
Perhaps the most emotional issue for our membership is the clear 
suffering of what we believe is an extraordinary rate of birth 
anomalies and abnormally high rates of disease and adverse health care 
conditions in the children, and in the grandchildren, of Vietnam 
veterans. We do urge that this distinguished committee consider 
amending the language of this bill to direct this study to also review 
the extent of such conditions in the grandchildren and great-
grandchildren of veterans exposed to Agent Orange and other toxins in 
Southeast Asia, or veterans so exposed elsewhere in the world where 
these chemicals were used by the United States military during that 
same period.
    This will provide a starting point for assembling the evidence that 
may be available regarding these high rates of disease and conditions 
in this population. VVA does caution, however, that since there has 
been a consistent policy, particularly in the past eight years, of not 
providing any Federal funding for original science in this area that 
there may not be nearly enough peer reviewed scientific work for the VA 
to review. Therefore, VVA urges that early passage of S. 1940 be 
followed up by steps to ensure that there are funds available 
specifically for original scientific studies into the effect of dioxin 
and other toxins on the progeny of Vietnam veterans.
    VVA has been working on just such a proposal and looks forward to 
discussing these issues and working with you, your distinguished 
colleagues, and your able staff, Mr. Chairman, to bring forth a 
proposal that will accomplish this and other purposes.
s. 3035--veterans traumatic brain injury care improvement act of 2010, 
to require a report on the establishment of a polytrauma rehabilitation 
center or polytrauma network site of department of veterans affairs in 
         the northern rockies or dakotas and for other purposes
    Traumatic Brain Injury suffered by our troops in Afghanistan and 
Iraq has become so relatively common that its acronym, TBI, is becoming 
almost as infamous as PTSD. While this affliction is not new; it has 
only been so codified because of the carnage caused by IEDs, 
(Improvised Explosive Devices), another acronym that has been 
incorporated into the dialect of war. The Veterans Administration and 
the military medical system is already screening all returning troops 
for mild to moderate cases of TBI; to varying degrees of effectiveness. 
Those whose brain injuries are more serious are quite obvious to 
clinicians.
    VVA does not object to the intent or the specifics of this proposed 
legislation/project. We would suggest that it incorporate an element 
that takes into account PTSD, which is often present when there is 
either polytrauma or TBI.
    Further, VVA recommends that this project be coordinated with the 
Montana National Guard, which has become the singular model of how to 
effectively de-stigmatize and more effectively treat PTSD in those who 
choose to remain in the Guard/Reserves or active duty forces, as well 
as in general. Further, since this is the most rural military force 
that the United States has fielded since World War I, it is certainly 
appropriate that the VA start developing new models of how to deal with 
returning troops closer to their home, which is so often not in a major 
urban area. This would seem to be as good a place to start as anywhere, 
particularly because of the leadership of the Montana National Guard.
s. 3107--veterans' compensation cost-of-living adjustment act of 2010, 
  to amend title 38, united states code, to provide for an increase, 
 effective december 1, 2010, in the rates of compensation for veterans 
 with service-connected disabilities, and the rates of dependency and 
indemnity compensation for the survivors of certain disabled veterans, 
                        and for other purposes.
    VVA supports this legislation. Disabled veterans and their families 
fall victim to the rising costs of living no less so than anyone else. 
S. 3107 would increase the current levels of disability compensation, 
additional compensation for dependents, the VA clothing allowance and 
the various rates of Dependency and Indemnity Compensation (DIC). The 
percentage of increase would be equivalent to the percentage of the 
cost of living adjustment (COLA) for Social Security beneficiaries, and 
would become effective as of December 1, 2010. These COLA increases are 
absolutely necessary to ensure that veterans and their dependents 
receive meaningful benefits, and to prevent them from falling through 
inflationary cracks.
         s. 3192--fair access to veterans benefits act of 2010
    While VVA is in general in favor of speeding up the process of 
adjudicating veterans' claims, there may well be some instances 
whereby, through no fault of the veteran, the time for appeal to the 
Court of Veterans Appeals should be extended in the interest of 
justice. Therefore, VVA favors passage of this proposal.
    s. 3234--veteran employment assistance act of 2010, to improve 
  employment, training, and placement services furnished to veterans, 
   especially those serving in operation iraqi freedom and operation 
               enduring freedom, and for other purposes.
    Vietnam Veterans of America (VVA) strongly endorses the clear good 
intent of this effort at a comprehensive act, and generally endorses 
much of what is in each of the major titles of this proposed 
legislation.
    There are significant flaws in the section 3 outline for veterans' 
business centers, including a confusing mix of grants for various 
purposes to the proposed centers, and no overall outline of how the 
Small Business Administration (SBA) is to develop the organizational 
capacity to support such centers. Certainly there is nothing in the 
experience of the last five or six years that should lead anyone to 
believe that that SBA has any particular organizational capacity to 
much of anything at all beyond the Patriot Loans for veteran business 
owners or would be business owners. Further, the history of trying to 
secure matching funds for such endeavors is certainly less than 
salutary. None of the veteran business centers funded via any Federal 
entity that we are aware of actually was able to produce matching funds 
in the past decade.

    Section 5 of the proposed Act, requiring that all DVOPs and LVERs 
veteran staff in the state workforce development agencies attend 
training within two years of being hired will require additional 
funding of about $2.8 million dollars per year for the next two years 
to implement. One can argue that this is a much needed and excellent 
proposal, and a good investment in these staff members who will be 
trained, that can only help them do a better job for all persons served 
by the state workforce development agencies, including veterans.
    However, this title begs the question of holding the state 
workforce development agencies accountable for what is done and/or not 
done for veterans returning from OIF/OEF, disabled veterans, and 
veterans at risk of being homeless. Without real measures of 
effectiveness placed upon the state workforce development agencies that 
are directly tied to financial awards/rewards, experience strongly 
suggests that the states will not suddenly change their behavior and 
stop treating the DVOP/LVER program as anything but a ``cash cow'' and 
continue to give lip service only to veterans who are desperately 
seeking assistance in securing a job. The problem with this section is 
that it appears to take significant action while not fundamentally 
changing anything. Therefore it betrays the returning warriors.
    The only responsible action if the Congress is serious about 
wanting to really help returning veterans get meaningful assistance to 
getting a job is to Federalize the DVOP and LVER positions, and make 
them employees of USDOL, training and requiring them to actually work 
with employers to place veterans into decent jobs that pay a living 
wage.
    Sections 6 through Sections 16 all have significant promise, 
particularly the sections that redirect some significant Workforce 
Investment Act (WIA) funds toward veterans (although more such funds 
should be re-directed).
    The central question that this proposal does not address is how to 
get the management of the One Stop Centers to be motivated to let their 
staff that is supposed to deal with veterans full time actually do 
their job, and support them in doing that job. Without a dramatic 
change in this behavior on the part of management and supervisory 
personnel in the state agencies, none of the rest of the titles in this 
legislation will work because there will be no effective workforce 
staff to match the potential veterans up with the possible training and 
job opportunities.
    Mr. Chairman, VVA stands ready to work with you, your colleagues, 
and your staff to develop some possible mechanisms that will work and 
provide better services to returning veterans from the current 
conflict.
 s. 3286--a bill to require the secretary of veterans affairs to carry 
     out a pilot program on the award of grants to state and local 
 government agencies and nonprofit organizations to provide assistance 
  to veterans with their submittal of claims to the veterans benefits 
                administration, and for other purposes.
    One of the primary reasons for the ``backlog'' of claims at the 
Veterans Benefits Administration (VBA) is the poor development, 
preparation, and presentation of claims that are actually submitted to 
the VBA for adjudication. The problem is that there are just not enough 
properly trained and supervised preparers of such claims. This pilot 
program has the potential to make a significant difference in both the 
accuracy of claims adjudicated, and the increased speed in which 
reasonable decisions can be rendered when claims are properly presented 
in a uniform organized manner.
     s. 3314--to require the secretary of veterans affairs and the 
appalachian regional commission to carry out a program of outreach for 
       veterans who reside in appalachia, and for other purposes.
    Additional outreach, education, and assistance to veterans and 
their families who reside in this very poor and much under-served 
region can only be a help in assisting these deserving veterans and 
their families to be accorded the benefits, rights, compensation, and 
services which they have earned by virtue of military service to 
country. VVA favors enactment of this bill.
s. 3325--to amend title 38, united states code, to authorize the waiver 
 of copayments for telehealth or telemedicine visits of veterans, and 
                          for other purposes.
    VVA favors waiving of copayments for services delivered utilizing 
this new methodology for delivery of care in neuropsychiatry and 
counseling both because it entails much less use of VA resources per 
patient contact, and because there have been no good clinical studies 
in the U.S. of the efficacy and effectiveness of this new modality for 
delivery of counseling services. VVA further urges the Congress to 
press VA to perform good clinical studies as to the effectiveness of 
various treatment modalities using this new technology, and to do so 
before we invest too many more tens of millions of dollars in fancy 
gear for teleconferencing or for so-called virtual reality treatment 
modalities. All use of such technology must be subjected to the same 
rigorous evidence based medical precepts that should govern the rest of 
VA delivered medical care.
  s. 3330--veterans health and radiation safety act of 2010, to make 
certain improvements in the administration of medical facilities of the 
        department of veterans affairs, and for other purposes.
    VVA favors not only much more rigorous controls and quality 
assurance for use of nuclear medicine, but particularly favors much 
more stringent quality assurance on the too many services currently 
contracted out by the VHA to the private sector, often needlessly and 
without systematic review as to whether these services could be more 
effectively and efficiently provided by full time VHA personnel.
 s. 3335--veterans one source act of 2010, to provide for an internet 
    web site for information on benefits, resources, services, and 
 opportunities for veterans and their families and caregivers, and for 
                            other purposes.
    The VA has done such a consistently poor job of outreach and 
education of veterans and their families as to what benefits, services, 
and entitlements that accrues to them by virtue of the veterans' 
military service to country that the need for such a bill as this is 
virtually self-evident. VVA favors the intent of this proposal, and 
commends Senator
    Klobuchar for taking the initiative to introduce this comprehensive 
legislation.
s. 3367--to increase the rate of pension for disabled veterans who are 
    married to one another and both of whom require regular aid and 
                    attendance, and other purposes.
    VVA strongly favors this bill, which will correct an unintended 
consequence of other legitimate restrictions which had the perverse 
effect of greatly penalizing disabled veterans who are married to one 
another, and need aid and attendance in order to survive.
 s. 3370--to improve the process by which an individual files jointly 
for social security and dependency and indemnity compensation, and for 
                            other purposes.
    VVA strongly favors this bill and any other proposal that has the 
effect of reducing redundancy, red tape, and making it easier for 
veterans and survivors to access their legitimate benefits and 
services, which were earned by virtue of the veteran's military service 
to country.
      multifamily transitional housing loan program--senator burr
    In regard to possible improvements in the multifamily transitional 
housing loan program, VVA favors significant expansion of this program 
beyond five loans. We have been stuck at no more than five loans since 
this program was first enacted as a loan guaranty program in 1998. The 
animus of the permanent bureaucracy at the Office of Management & 
Budget (OMB) to this program from the outset continues to be a classic 
study in the irrationality of a runaway and virtually unaccountable 
fourth branch of government. Initially the OMB opposition was because 
it was a loan guaranty program, and therefore less subject to tight 
control by the OMB bureaucracy.
    Whether this move to change this from a loan guaranty program to a 
direct loan program is due to finally acceding to bureaucratic wishes, 
or simply a reflection of a very different reality in the private 
capital markets due to financial problems of the last few years, we do 
not know. However, we do know that if this program is worth doing, and 
we believe it is, then after being in existence for more than a decade 
it must be expanded beyond something that can and is used for the 
benefit of only one or two private investors.
    This program in an expanded form is very much needed if we are to 
virtually eliminate, or at least to dramatically reduce, homelessness 
among veterans within the next five or six years.

    Mr. Chairman, VVA again thanks you for this opportunity to express 
our views here today, and will be pleased to answer any questions you 
or your colleagues may have.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Patty Murray to 
  Richard Weidman, Executive Director, Policy and Government Affairs, 
                      Vietnam Veterans of America
    Question. Recognizing that DVOPS and LEVRs are state employees, how 
do you think Congress can create better opportunities for these 
critical personnel?
    Response pending.

    [Items were not received by the Committee by the deadline for 
printing.]

    Chairman Akaka. Thank you very much, Mr. Weidman.
    This question is for all of the panelists. I think we all 
agree that today's list of pending bills represents a broad 
agenda to help VA adapt to the changing needs of veterans and 
their families. However, I think it is important to ask you 
about what is not being discussed at this time.
    So, my question to the panel is: is there an important 
issue among your membership that we have not discussed today? 
Mr. de Planque?
    Mr. de Planque. Two things that I would note, Mr. Chairman, 
and thank you for the question; and we touched on this briefly 
in our oral statement earlier. There is a bill that is 
addressing veterans unemployment, but we are not specifically 
looking at VA's own hiring practices of veterans and if there 
are ways to enhance that to increase the size of the workforce. 
It varies within agency, within VA. The Cemetery 
Administration, for example, has 71 percent veterans employed, 
the Veterans Health Administration is around 26 percent, and 
the overall is around 39 percent. So the American Legion 
believes strongly that those numbers should be higher.
    We do not have any specific legislation on the agenda today 
in terms of enhancing and examining whether or not we are 
meeting the needs of the women veterans who are coming out into 
the veteran population now, the women servicemembers, and that 
is another key concern.
    There are a lot of initiatives. There are a lot of programs 
that have been going forward, and VA has been doing a very, 
very good job on that. But we want to make sure that the 
oversight is there to ensure that the needs of those veterans 
are being met as well.
    Chairman Akaka. Thank you, Mr. de Planque.
    Mr. Hilleman?
    Mr. Hilleman. Thank you, Mr. Chairman. It is quite a large 
question. This hearing today touches on nearly everything that 
VA and this Committee deal with. The one thing that I thought 
was absent from this hearing, which cannot be encompassed by 
one hearing or even by multiple hearings, is the claims 
backlog. This Committee has done tremendous work in trying to 
do the oversight necessary to bring down that backlog, and we 
want to encourage this Committee in every effort that it can to 
address the backlog.
    We realize there is no simple fix, sir, but working with 
this Committee, the veterans organizations, and VA, we think 
that in due time we can see that trend corrected.
    Thank you.
    Chairman Akaka. Thank you, Mr. Hilleman.
    Mr. Weidman?
    Mr. Weidman. That is indeed a large question, Mr. Chairman, 
but I thank you for the opportunity.
    VA does not have an extramural research program. Every one 
of the National Institutes of Science breaks their budget into 
basically two halves: one is Office of Intramural Research, 
those who work for the institute full-time; and Extramural 
Research, which then makes funds available to scientific 
institutions and universities all over the country.
    VVA is deeply committed to increased medical research in 
this country and is the only veterans organization to be a 
member of Research America, which is a broad coalition that 
pushes hard for increases in budget at NIH, AHRQ, CDC, et 
cetera.
    But VA does not award contracts outside, and, frankly, all 
of the research area at VA needs significant overhaul in terms 
of scientific ethics--and I can get into that, why we believe 
that--trying to crack Institutional Review Board guarantees of 
confidentiality on the National Vietnam Veterans Longitudinal 
Study, which they still have not even contracted out, much less 
completed. So, that whole area really needs to be looked at.
    The second has to do with accountability and that corporate 
culture, particularly within the VHA and VBA, is still not 
there. We believe in Secretary Shinseki. We believe he is 
striving mightily to transform that corporate culture into one 
where people are held accountable, particularly managers. But 
there is such a long way to go for, number 1, accountability 
and, number 2, VHA in particular is more opaque today than it 
was 10 years ago, and we need to reverse that and start to open 
up and let the sunshine in to what is happening with all of 
those many, many billions of dollars that you and your 
distinguished colleagues on this Committee and in the Senate 
have passed to have an unprecedented increase in that budget. 
Yet we do not know what is happening, and it is not translating 
necessarily into what we would need.
    Last, but not least, is transformational change when it 
comes to how we approach employment and building a true 
national strategy for addressing veterans employment.
    All of the things in Title 38 are predicated on there being 
a functioning public labor exchange. But we no longer have a 
national public labor exchange, period. It just simply does not 
exist. So, we need to rethink how we are actually going to 
deliver services to the individual veteran, whether they be on 
the Big Island in Hawaii or whether they be in northern Maine 
or whether they be in a remote village in Alaska. We need to 
rethink that entire paradigm and design something for the 21st 
century because, frankly, the pace of deterioration of the 
public labor exchange has left us high and dry.
    Chairman Akaka. Thank you very much.
    Mr. Tarantino?
    Mr. Tarantino. Senator, before I get into it, I would just 
like to take the opportunity to thank you, the Committee, and 
your staff for allowing me to be here today. Many of our 
members as well as our staff are still serving in the military, 
and the work that you have done over the past few years has had 
a real direct impact on their lives. So, I would like to thank 
you for having their backs and for continuing to have their 
backs in the future.
    To address the question, Senator, the one thing that I was 
a little surprised not to see is something addressing the 
disability claims backlog. I echo the comments of Mr. Hilleman. 
You know, I think we are seeing that this is being fought on 
several fronts. There is the technology piece I think the VA is 
working on right now, and we are encouraged by the progress of 
the VBMS and VRM. So, we ask Congress to hold the VA to their 
stated goals and to their deadlines to make sure that we do not 
feel like Charlie Brown with the football, as we seem to have 
every year that the VA comes out and makes promises.
    We see that there are echoes of a cultural shift within the 
VA--talking about changing the work credit system--and we 
encourage the Committee to continue to press the VA into making 
those cultural shifts and do not allow them to become 
complacent.
    I think there are things that we can do, that this 
Committee can do to streamline the overall process. I think 
that S. 3348 is a great example of that, a small procedural 
change that we can do to cut the red tape that Senator Brown 
had talked about earlier: small procedural changes like fast-
tracking certain disabilities, like sending a Notice of Appeal 
with the Notice of Decision, cutting 60 to 120 days out of the 
process. That can be done legislatively, what we have all 
talked about in this room. We have been talking about them for 
years. And given the statements that have come out of the VSO 
community, the Senate and the House, and the veterans community 
over the last year or two, I think we have an opportunity this 
year to address these issues. So, we are hoping to see in the 
next legislative hearing very soon a bill that encompasses some 
of these changes.
    Thank you.
    Chairman Akaka. Thank you very much.
    Before I call on Senator Burr, I would like to ask you, Mr. 
Oates, whether you have a comment on this question.
    Mr. Oates. Thank you, Chairman. The committee that I deal 
with, which is the Agent Orange and Other Toxic Exposures 
Committee in the VVA, has several issues. One of those not 
mentioned here is the issue regarding Vietnam veterans and the 
combined exposures that they were exposed to. The Agent Orange 
Act of 1991 established that the IOM, through the Veterans 
Agent Orange Study, would look at the issue of herbicides and 
their components. However, the Vietnam veterans were exposed to 
much more than that.
    In Operation FLYSWATTER, they were exposed to organic 
phosphates in the form of malathion where the planes flew over 
every 9 to 11 days, over the major troop areas, and sprayed 
them with an insecticide, malathion, which has been shown to 
cause Parkinson's disease and other neurological diseases. 
Nothing has been done in regard to Vietnam veterans to look at 
the combined exposures.
    Another example of combined exposures in Vietnam veterans 
is the issue of taking the chloroquine pill, which is an 
inhibitor of an enzyme that helps you metabolize neurotoxins. 
And we were taking the pill that limited the ability of your 
body to get rid of neurotoxins at the same time we were being 
exposed to neurotoxins.
    So there are a lot of issues with combined exposures that 
our committee is concerned with, trichloride ethylenes that 
were used in all types of solvents in Vietnam, and especially 
in the Navy.
    The other issue that the VVA committee is concerned about 
is in regards to the Blue Water Navy, in regards to--I think we 
can see it in the gulf oil spill. When Agent Orange was sprayed 
and the herbicides other than Agent White, which was a water-
soluble one--they used diesel fuel to spray these. They were 
mixed with diesel fuel. And, of course, one of the major areas 
where these were sprayed were along the rivers that the Viet 
Cong would use to bring in supplies. A large quantity of this 
was sprayed on these rivers. You can see by the oil spill in 
the gulf how fuel and oil quickly can move and how far it can 
move, and being suspended in the diesel fuel and not being 
water-soluble, that is one of the ways that the dioxins got out 
to the Blue Water Navy folks, and we are concerned with that.
    Birth defects is a big issue with our committee. We firmly 
believe that when you send a servicemember into harm's way, 
because of the battlefield toxins and those toxins that are not 
on the battlefield, you are also sending the future generations 
of these servicemembers' offspring into harm's way, and we 
think that that needs to be dealt with.
    As I listened to the testimony of the VA earlier and they 
indicated that in 1940 it was too difficult, it brought me back 
to my 1st Infantry Division that I served with in Vietnam, and 
the motto of the 1st Infantry Division was, ``No mission too 
difficult, no sacrifice too great. Duty first.'' And I think 
that would be a good motto to take back in dealing with 1940.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much.
    I just want to note that we have a hearing planned for next 
month on the backlog, so that is why I wanted to hear from you 
about things that have not been mentioned. So, thank you very 
much, Senator Burr, for your questions.
    Senator Burr. Thank you, Mr. Chairman.
    Rick, you said in your testimony in relation to S. 3377, 
and I want to quote you, ``The animus of the permanent 
bureaucracy at the Office of Management and Budget to this 
program from the outset continues to be a classic study in the 
irrationality of a runaway and virtually unaccountable fourth 
branch of government.''
    Mr. Weidman. You stated that quite well, sir.
    [Laughter.]
    Senator Burr. If you cannot tell, I am having my own 
problems with the Office of Management and Budget as well.
    Moving forward, though, how can we prevent this from 
happening again?
    Mr. Weidman. You could start by making sure that--talk to 
Mr. Orszag about ensuring that his agency follows the Veterans 
Employment Opportunities Act or veterans preference in their 
hiring. The Office of Management and Budget has less than 1 
percent veterans on their permanent staff, and the last time we 
checked, they had zero disabled vets. For that to happen in 
Washington, it cannot happen by accident. It can only happen as 
a result of a conscious, ongoing, systematic animus toward 
employing people who have served our Nation while in the 
military and who have been disabled as a result. So that is the 
first place to start.
    The second is--I do not know how you do this. I was 
involved in the passage of the original bill more than 10 years 
ago, and it was designed then to bring private capital into the 
problem of getting adequate transitional housing for homeless 
veterans. There was some concern about it so we reduced the 
number from ten to five loans, and the Office of Management and 
Budget put an analyst on it, Ms. Toni Hustead, who was the head 
of the area that dealt with veterans at that time. She got it 
totally confused with the direct loan program by the Department 
of Agriculture, so they said the cost of the $100 million loan 
guarantee was going to be $68 million, which we said that is 
preposterous. You are comparing apples and oranges. You are 
comparing direct loans to a very, very poor population to a 
loan guaranteed to people who have demonstrated expertise in 
large projects and bringing--financing and bringing to fruition 
large projects that will be self-sustaining.
    We finally had an extraordinary meeting at VA where VA 
people were actually arguing on our side against OMB that we 
were correct and that they should score it much lower. I think 
CBO scored it at $8 million over the life of the program, the 
10-year life of the program. In the end, everybody was excited 
that OMB acceded that we were correct, though I was watching 
Ms. Hustead. While everybody else is buzzing and talking, I 
said, ``Let me ask a key question. Toni, are you going to 
change your mark?'' She smiled and said, ``No, I am not.'' 
Therefore, the mark stayed at $62 million and delayed another 2 
years us getting that bill enacted. And then they did not allow 
any loans for the first 6 years of the program. Now they want 
to flip it over and make it a direct loan.
    First, we do not object to that, but what we do object to 
is not accessing capital asset markets in a reasonable way to 
bring to bear the problem of adequate housing, and particularly 
adequate--well, both adequate transitional and adequate 
permanent housing for low-income and formerly homeless people; 
and, second, artificially limiting a program that is clearly 
designed to thwart the will of the Congress. We have a real 
problem with that, irrespective of administration, and it needs 
to be straightened out because that is what I would call an 
unaccountable fourth branch of government who makes decisions, 
gainsaying in some cases both the executive branch political 
appointees and the Congress. Nobody can seem to hold them 
accountable. We have a problem with that, sir. We fought to 
protect the Constitution, and we do not see a fourth branch of 
government anywhere in the Constitution.
    Senator Burr. Let me duly note that I have been as critical 
of every Office of Management and Budget before this one, so I 
am not singling this one out for some unique treatment.
    Do any of you have any suggestions as it relates to 
S. 3377, as to how it can be improved to accomplish the end 
goal of making sure we maximize transitional housing 
opportunity?
    Mr. Weidman. I would not limit it to five. Expanding the 
criteria and having the Secretary publish criteria of people 
who are creditworthy and have a history of bringing to fruition 
large projects is a reasonable and prudent thing to do, but 
there is no reason at this late date to limit it to five 
because that field is not that limited anymore, and you 
literally have hundreds upon hundreds of skilled providers out 
there who have transitional housing programs with services that 
are working. We need more options for people to be able to get 
financing, to create even more projects in high-need areas.
    Senator Burr. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Burr.
    Senator Murray?
    Senator Murray. Thank you very much, Mr. Chairman.
    Tom, I wanted to start with you. First of all, I want to 
thank you and the IAVA for all your help working with my staff 
as we developed the veterans employment bill. I do have a few 
questions about the vocational and on-the-job section of the 
bill, and I do know that about 16,000 veterans are trying to 
get vocational training, yet they cannot access the new GI bill 
as it currently stands. Those are really the groups that we are 
trying to focus on within this legislation, and I wanted to ask 
you if you could explain to the Committee some of the gaps that 
we are seeing with the current vocational benefits program for 
our veterans.
    Mr. Tarantino. Well, thank you very much, Senator. To start 
off, we only really need to look at history to explain why this 
is so important. Over half of the people that used the World 
War II GI bill did not use it for a 4-year degree. They used it 
for vocational training, for on-the-job training. They used it 
to build an educated workforce. And what we are seeing in this 
population of veterans is something similar. You are looking at 
the practical issues of people who want to obtain a vocational 
career and who cannot do that because of a technical issue with 
the GI bill. If I wanted to get a commercial trucking license, 
I can do that at Clark Community College, but I cannot do that 
at the AAA School of Trucking. So it is an almost laughable 
omission in the original bill, and this is one of the things we 
aim to fix.
    Also, we are looking at a population of highly skilled 
workers that are coming out of the military such as combat 
medics, mechanics, truck drivers who can drive anything from a 
tank to, you know, an 18-wheeled vehicle; but when they leave 
the military, they are barely able to drive an ambulance in the 
civilian world. They have to start over from scratch. They have 
to start over as apprentice mechanics after sometimes 15 years.
    So, by allowing these on-the-job training and 
apprenticeships, by allowing vocational schools into the GI 
bill, we are in the back end correcting something that we need 
to correct ultimately with our military vocational and 
certification program. We are allowing veterans to transition 
into a world more laterally so that a senior noncommissioned 
officer can translate into a civilian position that reflects 
their service and their level of expertise.
    Senator Murray. I assume you are hearing from a lot of 
veterans who are facing those kinds of barriers, as I have 
been.
    Mr. Tarantino. Every day we hear it through our GI bill Web 
site. We hear it over the phones. We hear veterans all over the 
country who call us and say, you know, ``I want to go get my 
EMT license, but I do not have a community college or 
university near me. What am I going to do?'' I unfortunately 
have to tell them they have to wait or they have to move, 
which, I mean, if someone told me that, I would probably want 
to punch them in the face.
    So, I hear their frustrations every day; and I thank you 
for including them in this bill.
    Senator Murray. Yes, and I would just say for the 
Committee's knowledge, the veterans I have talked to, they tell 
me how their peers who graduated with them from high school or 
community college many years ago went off into the regular 
civilian work world, got work experience, on-the-job training, 
paid for by their employers. They went into the service, went 
to Iraq or Afghanistan, had the same kind of training by the 
military, came back and now they are required to go back to 
school, which is not covered by the GI bill.
    So, this is to me a real issue that we need to address, and 
that is why I have included it in this bill. I want to thank 
you for your help with that.
    Mr. Tarantino. Thank you, Senator.
    Senator Murray. Eric, I want to thank you and the VFW, too, 
for your support and work with us on this. I know that GI bill 
equality is very important to the VFW, too, and I wanted to ask 
you what changes would the VFW like to see made to the Guard 
and Reserve Select Reserve GI bill.
    Mr. Hilleman. The Guard and Reserve Select Reserve GI bill 
is commonly referred to as Chapter 1606, I believe. That group 
of individuals has never activated outside of their military 
training or outside of their vocational training in uniform. 
That group of individuals is currently paid for by DOD under 
that program, which creates an interesting relationship with 
the rest of the GI bill where that section of the program 
languishes under DOD's willingness to fund.
    One of the suggestions that the VFW has maintained is that 
if that program were put on parity at the rate of 30 percent to 
the current GI bill, it would fit with the structure that 
Senator Webb put forward in graduating and rewarding equitable 
service with equitable benefits. So, we would probably advocate 
for 30 percent for them across the board.
    Senator Murray. OK. Thank you.
    Ian, I want to thank you and the American Legion for their 
support of this, too. In your testimony you mentioned the 
Disabled Veterans Outreach Program Specialists and Local 
Veterans Employment Reps, the DVOPs and LVERs. What are the 
shortfalls you see of the training support for those groups?
    Mr. de Planque. Thank you, Senator. The main problems that 
we are seeing in terms of outreach and reaching into the 
civilian sector, it is that the programs as they exist now, 
these programs are very good, they are very important for 
getting the veterans overcoming the barriers and getting them 
marketable working on the local level. It is not robust enough 
in the present system. The ability to translate the skills, as 
was mentioned earlier, translating the skills from the military 
sector to equitable civilian sector skills, there is not a 
reconciliation between them right now. Therefore, with the bill 
and with enhancing that, particularly with reaching toward the 
disabled veterans as you are going into the outreach, being 
able to take those skills, translate them across and have an 
understanding between that on the local level, because the 
local level is the easiest level to access those veterans. That 
is--what things seem on the national level or in a larger scope 
may be there, but it is not translating down to the local level 
as much, which is what we would like to see enhanced.
    Senator Murray. All right. Mr. Chairman, my time is up. I 
do have some additional questions. If I could submit them for 
the record, I would really appreciate it.
    Chairman Akaka. Yes.
    Senator Murray. Thank you.
    Chairman Akaka. Thank you very much, Senator Murray, for 
your questions.
    Let me just ask this one. Mr. Tarantino, would you like to 
comment on my bill to clarify that the failure of VA to 
notify--and this is a notification issue--to clarify that the 
failure of VA to notify a veteran promptly of a filing error to 
forward the document to the court should not deprive a veteran 
of the right of review or appeal, and that is S. 3348.
    Mr. Tarantino. Well, thank you, Senator. IAVA completely 
supports this bill. Our number 1 priority this year is to 
reform the disability claims process and that includes the 
appeals process. When a veteran tries to file an appeal, it is 
incredibly--when a veteran tries to file anything with the VA, 
it is an incredibly confusing process, especially with the 
appeals process. They have been dealing with their regional 
office for anywhere, you know, from 6 months to 2 years, and so 
it is only logical that they would go directly to where they 
know.
    The fact that the VA would deny an appeal because of their 
own inefficiencies is absolutely ridiculous, so I think this 
bill fixes an error that I think we can all agree should not be 
there. And it corrects an injustice. I think it is little 
things like this, little procedural changes that allow the 
claims process and the appeals process to enter into the modern 
world, which are going to be critical toward reducing the 
backlog long term. We talk about this backlog, we talk about 
numbers, and I think a lot of my colleagues here have used this 
analogy. It is like talking about a fever but ignoring the 
disease. The disease is not the backlog. The disease is a VA 
process that was developed when the world moved at the speed of 
mail and when the world did not hold expectations of customer 
service, information access, and efficiency which we hold 
today. I think S. 3348 is a great example of one of those small 
changes that we can make to bring that system more into the 
modern world and do what we are supposed to be doing, which is 
to provide our veterans with meaningful benefits that they 
deserve.
    So, I thank you very much, Senator, for putting this bill 
forward.
    Chairman Akaka. Senator Begich has submitted a bill that 
would eliminate co-payments when veterans use telehealth 
services. This is a question on telehealth. For all of the 
witnesses here, how do your members feel about using telehealth 
solutions? Mr. de Planque?
    Mr. de Planque. Thank you, Mr. Chairman. Telehealth is one 
of the important steps in reaching out particularly to rural 
veterans or veterans who do not have as much access. So, if a 
veteran has an opportunity to access the benefits that they 
otherwise would not be able to access because of geography, 
then it is an improvement for them, and that is something we 
consider important.
    We have a growing segment of rural veterans in America. It 
is a growing segment of the population. And many of those 
veterans have no qualms whatsoever about accessing telehealth. 
Telehealth would be a great respite, certainly better than 
driving 250 miles to try to get to a medical center. So, if 
there is anything that can make it easier to have access to 
those benefits, that would be an improvement.
    Chairman Akaka. Mr. Hilleman?
    Mr. Hilleman. Mr. Chairman, our members are pleased to have 
the opportunity to use telehealth because without telehealth in 
some areas, there is nothing, or there is a drive for 500 miles 
to the nearest local medical facility. So, we have long 
maintained that telehealth is a very affordable way for 
individuals to access health care, and we think if employed 
properly it would be a more cost-effective benefit to VA across 
the board.
    Chairman Akaka. Mr. Weidman?
    Mr. Weidman. Mr. Chairman, we are very much in favor of 
using telehealth, particularly for remote locations like some 
of the outer islands or many areas in Alaska, but also in rural 
areas.
    The one thing we would caution, however, is VA's pell-mell 
rush into telehealth for telecounseling, if you will, for 
neuropsychiatric counseling. We have only been able to find two 
clinical studies that proved the efficacy of this, and both of 
them by the same individual, an academic, a respected academic 
out of Toronto, Canada, but none in the U.S. So, on many of the 
things that VA is rushing pell-mell into that sound great--like 
virtual reality and teleconferencing to supplant in-person 
traditional cognitive therapy and pharmacological therapy--we 
would caution that they need to do clinical studies before we 
commit tens of millions of dollars and structure things on 
something that may not prove out over the long run to be as 
effective as we hope. It is promising, but we need to do the 
studies.
    So, we endorse it generally, but would caution that we need 
to have clinical studies to find out how well is it actually 
working for different kinds of veterans.
    Chairman Akaka. Mr. Tarantino?
    Mr. Tarantino. Thank you, Senator. I think it is important 
to note that, at least of our members, you know, you do not use 
telehealth because it is just such a great user experience and 
it is really cool; you use telehealth because you have to. You 
use telehealth because it is impractical for the VA to build a 
brick-and-mortar building in every community in America, as 
much as that would be awesome, but just does not make any 
sense. It is both logically and fiscally unsound for a veteran 
to drive 8 hours just to get a blood test. So, we are forced to 
use telehealth; so we think this is an excellent idea. We think 
it is something that the VA needs to look into.
    I do echo Mr. Weidman's concerns, but we fully support the 
bill, and we do not think that veterans should be penalized and 
charged for being forced to use a method that the VA otherwise 
would have seen them for.
    Chairman Akaka. Thank you very much.
    In closing, I again thank all of our witnesses for 
appearing today. I look forward to working with all Members of 
this Committee as we develop legislation based on today's 
hearing for a markup. As I said in my opening statement, moving 
legislation with significant mandatory scores will prove 
difficult. As Chairman, I am committed to ensuring that this 
Committee does all it can to ensure that veterans receive the 
benefits and services which they have earned through their 
service to this Nation, and I pledge my continued support for 
this goal as we move forward.
    I want to thank you because we know that to do it well we 
need to work together on all of this, and I look forward to 
that, too.
    So this hearing is adjourned.
    [Whereupon, at 11:14 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


           Prepared Statement of Hon. Kirsten E. Gillibrand, 
                       U.S. Senator from New York
    Mr. Chairman, Thank you for holding this hearing today on the Agent 
Orange Equity Act of 2009, legislation that I have introduced to ensure 
benefits for hundreds of thousands of Navy veterans who are afflicted 
with devastating health effects due to Agent Orange exposure in 
Vietnam. Since 2002, they have been shut out of VA care for Agent 
Orange related illness and this legislation corrects that injustice.
    We know that during the Vietnam War, the United States Military 
sprayed more than twenty million gallons Agent Orange, an herbicide 
used to remove foliage that was providing cover for many enemy fighters 
in Vietnam. We also know that this toxic chemical has had an often 
tragic effect on many of our soldiers, sailors, airmen, and Marines who 
served in Vietnam. They have been subjected to increased rates of 
cancer and other diseases and a study conducted by the Centers for 
Disease Control and Prevention reported that the rate of non-Hodgkins 
lymphoma in Vietnam veterans is fifty-percent higher than the general 
population.
    There is a large body of science that supports the claim that 
sailors who were serving in the waters around Vietnam were exposed to 
levels of Agent Orange. However, since 2002 the VA has enforced an 
exclusive policy that bars individuals who cannot provide orders 
requiring ``boots on the ground'' in Vietnam from receiving coverage 
for Agent Orange. This policy fails to take into account the amounts of 
Agent Orange contamination that existed in waterways in and around 
Vietnam, as well as Agent Orange carried by drifting winds over ships 
in the vicinity of where it was being sprayed. In 2005 article in the 
Journal of Law and Policy, Dr. Mark Brown, the Director of the 
Environmental Agents Service for the VA, wrote that there is no 
scientific basis for excluding individual who served in close proximity 
to mainland Vietnam.
    It is clear that Agent Orange exposure did not stop at the water's 
edge, and the current VA policy regarding Navy veterans is wrong. To 
highlight how absurd the ``boots on the ground'' rule is, even 
personnel who were stationed on Johnston Island and handled Agent 
Orange where it was stored and incinerated do not have the same access 
to benefits as those who served in-country.
    This legislation honors the sacrifice of all Vietnam veterans, 
regardless of whether they served on land or at sea, by expanding 
presumptive Agent Orange benefit coverage. This bill will clarify the 
law and restore the intent of Congress to provide benefits to veterans 
who served, among other places, on Johnston Island, waterways, ports, 
harbors, waters offshore, and air spaces above Vietnam, Navy veterans 
who were onboard ships or aircraft and who spent time on the ground 
transporting barrels of Agent Orange, and those who served on ships 
close to shore who were inadvertently sprayed by drifting winds that 
carried Agent Orange.
    We owe it to our Vietnam veterans to pass this legislation. This 
legislation is supported by the Veterans of Foreign Wars, Vietnam 
Veterans of American, and other organizations that join in our shared 
commitment to ensuring that our Nation's veterans are not denied the 
benefits that they have earned in the line of duty.
    Mr. Chairman, our veterans who have already sacrificed so much 
cannot wait any longer, nor do they deserve to wait. Each day that we 
delay passage of this bill, Vietnam veterans continue to become ill and 
die before they are able to receive benefits. Because of the urgency of 
this issue, I request that your committee mark-up this legislation and 
expeditiously report it favorably to the floor for consideration by the 
full Senate.
                                 ______
                                 
    Prepared Statement of Hon. William P. Greene, Jr., Chief Judge, 
           United States Court of Appeals for Veterans Claims
    Mr. Chairman and Members of the Committee: Thank you for inviting 
me, as Chief Judge of the United States Court of Appeals for Veterans 
Claims (the Court), to comment on the Committee's May 19, 2010, 
Legislative Agenda. Consistent with the Court's long-standing practice, 
I will not comment on proposals pertaining to Department of Veterans 
Affairs (VA) policy matters involving the provision of specific 
veterans benefits. Having the responsibility of conducting judicial 
review of VA's adjudication of benefits claims, the Court's position is 
best expressed in our decisions that may address those matters. I 
simply assure the Committee that the Court will continue to strive to 
decide all appeals as fairly and efficiently as possible under whatever 
laws Congress and the President decide upon.
    I will, however, briefly address those bills that pertain to the 
filing of a notice of appeal (NOA), and consequently to the 
jurisdiction of the Court: S. 3192 and S. 3348. My statements, however, 
are not offered as an endorsement or denouncement of any of the 
legislative proposals. Rather, they are offered to emphasize, as 
appropriate, some factors that Congress may wish to consider when 
making its legislative determinations.
               i. the veterans benefits appellate process
    As background, it is worth recalling that the appellate process for 
individuals seeking veterans benefits from VA has two distinct venues: 
administrative and judicial. Within VA, a VA regional office generally 
processes the claim and renders the first decision. When a claimant is 
dissatisfied with that decision, he or she may, within a specified 
period of time, appeal to the Board of Veterans' Appeals (Board). If 
the claimant is dissatisfied with the Board decision, he or she may 
seek reconsideration by the Board or, again within a specified period 
of time, may seek judicial review of the Board decision by appealing to 
the Court.
    The adjudication process within VA is designed to be paternalistic. 
Throughout the VA proceedings, the claimant and the Secretary work 
together to ensure that claimants may obtain benefits to which they are 
entitled by law. The Secretary must affirmatively assist a claimant by 
liberally reading the scope of the claim, gathering evidence to 
substantiate the claim, advising the claimant of what is needed to 
substantiate the claim, and providing the claimant with a medical 
examination when needed.
    Decisions on claims at the VA regional office are subject to one 
review on appeal by the Secretary. The Board conducts that review if 
the claimant files an appeal to the Board within one year after the RO 
decision. The Board reviews the claim anew, without giving deference to 
the initial decision, and ultimately renders the final decision for the 
Secretary of VA. If the claimant seeks to appeal to the Court, he or 
she, like other persons seeking judicial review of agency 
decisionmaking, leaves the administrative process and enters the 
judicial appellate arena. In the judicial appellate process, the 
parties are viewed equally, and the claimant-appellant generally has 
the burden of demonstrating that the Board decision is either clearly 
erroneous or that there is some procedural error that prejudiced a 
favorable VA adjudication of the claim. If dissatisfied with a decision 
from the Court, an appellant has the right to appeal to the U.S. Court 
of Appeals for the Federal Circuit. If no relief is achieved at that 
level, the last resort is to seek review by the Supreme Court of the 
United States.
    Through the Veterans Judicial Review Act of 1988, the U.S. Court of 
Appeals for Veterans Claims was cast into the unique role of a national 
court providing exclusive judicial review of final VA decisions. The 
paternalistic agency adjudication of VA claims becomes subject to 
independent judicial scrutiny to ensure that all of the laws and 
regulations governing VA benefits are fully implemented and applied.
    How a claimant may bring an appeal before the Court is one area 
that has undergone significant inspection and change since the Court 
opened its doors twenty years ago. Recognizing the distinctiveness of 
the types of appeals that come to the Court and the parties that bring 
them, and acknowledging the fact that historically many appellants who 
seek review at the Court come without legal representation, the Court 
and Congress have made efforts to ensure that the Court is accessible 
and navigable to all seeking judicial review. Relative recent 
legislation that authorizes legal representation of veterans during the 
VA adjudication process may change expectations that these appellants 
will be unrepresented when filing their Notices of Appeal.
                   ii. the jurisdiction of the court
    All Federal appellate courts require as a first step for appellate 
review, the timely filing of an NOA. The Federal Rules of Appellate 
Procedure (FRAP) (which are the rules from which this Court initially 
modeled its Rules of Practice and Procedure) govern the filing of 
appeals in Federal civil and criminal cases. Under FRAP 4, appeals 
involving the United States as a party (e.g., the Secretary of VA) must 
be filed within 60 days after judgment. Where the United States is not 
a party, the time period is shortened to 30 days after judgment. Both 
provisions allow for the appellant to move for a 30-day extension of 
the filing of the NOA upon a showing of excusable neglect or good 
cause.
    The FRAP rules governing notices of appeal were in existence when 
the U.S. Court of Appeals for Veterans Claims was established. Because 
of the unique nature of appeals and the special class of appellants, 
Congress provided veterans and their families a 120-day period in which 
to file an NOA with the Court. No doubt, this 60-day increase over the 
norm for filing appeals in other Federal courts was an expression that 
these potential appellants should be afforded ample opportunity to 
present their appeals. With the Board required to provide the veteran 
with notice of the decision and specific information on how and where 
to file an appeal to the Court, that intent for the most part has been 
fulfilled.
    The time to file an appeal has gradually broadened over the past 20 
years with the 1993 enactment of the Court of Veterans Appeals 
Improvement Act, which applied a postmark rule to the receipt of 
notices of appeal, and with the application of equitable tolling to the 
filing period in 1998 (See Bailey v. West 160 F.3d 1360 (Fed. Cir. 
1998)).
    The postmark rule was adopted by Congress in direct response to the 
Court's dismissal of appeals where the NOA was mailed before the 120-
day statutory timeframe, but received by the Court after that deadline. 
When that change was being contemplated by Congress, the Court's then 
Chief Judge, Frank Nebeker, identified to Congress what he thought were 
the advantages of a bright-line deadline for filing appeals and 
possible justifications for not adopting the postmark rule. Judge 
Nebeker identified the following issues for Congress' consideration in 
contemplating adoption of the postmark rule: the judicial resources 
that would need to be spent in determining the legibility of a 
postmark; the need to develop a body of case law on postmark-related 
issues; the relatively few number of prospective appellants that would 
be impacted; the desirability of finality in the appellate system; and 
the user-friendly nature of a bright-line standard for veterans.
    As we know, Congress considered these factors and ultimately 
decided to enact the postmark rule. Our case law demonstrates that many 
of the factors identified by Chief Judge Nebeker did indeed result, and 
our case law developed a robust body of law relating to postmarks. 
Certainly some delay was added to the overall system; but likewise, 
appeals were heard by the Court that would otherwise have been 
dismissed.
    In 1998, the United States Court of Appeals for the Federal Circuit 
held in Bailey v. West that the time limit for appealing a VA Board 
decision was subject to the doctrine of equitable tolling. This case 
law broadened the jurisdictional landscape by allowing the Court to 
entertain an appeal received after the 120-days where extraordinary 
circumstances beyond the appellant's control prevented a timely appeal. 
Similarly, a defective pleading within the time period or misfiling at 
a VA regional office or at the Board could be a basis for invoking the 
doctrine of equitable tolling. The statute governing the appeal 
process, 38 U.S.C. Sec. 7266, did not allow for the extension of the 
120-day window, but the practice at the Court for the next 10 years was 
to determine whether there was any basis to apply the doctrine of 
equitable tolling to NOAs received after the 120-day period. That 
changed when the Federal Circuit, in Henderson v. Shinseki, 589 F.3d 
1201, (Fed. Cir. 2009), overruled Bailey and pronounced in light of 
Bowles v. Russell, 551 U.S. 205 (2007), that equitable tolling of the 
time in which to file an NOA was not permitted. Senate bills S. 3192 
and S. 3384 are offered to respond to that case law.
    As Congress considers refining the manner in which an NOA may be 
filed and accepted or received by the Court, I join in former Chief 
Judge Nebeker's sentiment that a bright line rule for filing notices of 
appeal would promote efficiency and finality in the appellate process. 
Regardless of the outcome however, the Court will apply the law as 
efficiently and fairly as possible. Will a change allow some appellants 
to have their appeals considered on the merits when they otherwise 
would be dismissed as untimely? Yes. Will it delay the time in which 
all veterans wait to have their appeals heard? Probably somewhat. Will 
it result in benefits for those appellants? Who knows. Will it prompt 
the need for a new body of law to be developed surrounding this issue? 
Certainly. Will it blur the line between the agency and the Court? 
Perhaps. Will it confuse individuals who want to appeal our decisions 
to the Federal Circuit, where filing deadlines are more strictly 
enforced? Perhaps.
    It is for Congress to weigh these factors and determine the course 
it deems best. I do offer the following specific technical comments on 
the two bills that address NOAs to the Court.
                              iii. s. 3192
    Regarding S. 3192, I offer the following comments:

    Title: I recommend that the title be amended to clearly indicate 
that it is tolling the time for filing an appeal, rather than tolling 
the timing of review (for example: ``Tolling of time for filing notice 
of appeal of final decisions of the Board of Veterans' Appeals.'')
    Section 2(a)(2): Before the decision in Henderson, supra, the 
Court's case law permitted the time for filing an appeal at the Court 
to be tolled if the Court found that the delay was due to 
``extraordinary circumstances'' or for certain defective filings. In 
his remarks when introducing S. 3192, Senator Specter identified this 
proposal as a response to Henderson. S. 3192, however, contemplates 
tolling the time for filing an NOA upon a showing of ``good cause.'' 
This standard is not defined in S. 3192 and may be subject to varying 
definitions and interpretations. Perhaps the Committee should identify 
an accepted definition of that term to be included in the bill 
language. Further, in general, ``good cause'' is a lower threshold than 
``extraordinary circumstances.'' Thus, although the stated purpose of 
S.192 is to restore the status quo as it was prior to Henderson, this 
language may provide even more permissive tolling than was in effect 
prior to Henderson. I do note that there may be a body of law 
addressing good cause that applies to FRAP 4(a). In the other Federal 
courts, an appellant may move for a 30-day extension of time based upon 
excusable neglect or good cause, if the motion is filed within certain 
timeframes. A similar provision would probably not be appropriate 
because our Court's liberal construction of what constitutes an NOA 
makes it easier for an appellant to simply file the NOA rather than 
file a motion to later file that NOA.
    Section 2(b)(1) Applicability: S. 3192 Section 2(b)(1) would apply 
its provisions to an NOA filed with respect to a decision of the Board 
dated on or after July 24, 2008. For workload considerations, I would 
estimate that between July 2008 and now, approximately 13,000 appeals 
were filed at the Court. Of these, about 400 NOAs were dismissed as 
untimely. Potentially these NOAs could all be re-filed and there would 
have to be a determination made by the Court on whether there was good 
cause for that untimeliness. It is difficult to estimate how many other 
first time ``good cause'' NOAs could be filed related to Board 
decisions dated between July 24, 2008, and S. 3192's enactment.
    Section 2(b)(2) Reinstatement: Because in veterans law the term 
``petition'' generally refers to a petition for extraordinary relief, I 
recommend that this section be revised to eliminate use of the term 
``petition'' and instead use ``Notice of Appeal'' or ``notice'' as 
appropriate.
                              iv. s. 3348
    In his statement introducing S. 3348, Senator Akaka identified this 
proposal as a response to Posey v. Shinseki, ___ Vet. App. ___, No. 08-
0240 (April 23, 2010). Among the judges of the Court, there are 
differing views on how to address the question of misfiled NOAs. In 
addition to Posey, I would direct the Committee's attention to other 
recent cases such as Rickett v. Shinseki, 23 Vet. App. 366 (2010); 
Boone v. Shinseki, 22 Vet. App. 412 (2009); and Kouvaris v. Shinseki, 
22 Vet. App. 377 (2009).
    I urge the Committee to consider whether the title should include 
the word ``misfiled'' when the result is to treat such documents as 
properly filed motions for Board reconsideration? Historically, 
``misfiled'' is interpreted to mean that through neglect the potential 
appellant did not follow the clear instructions by the Board to mail 
the NOA specifically to the Court.
    Creating the fiction of a motion for Board reconsideration when a 
document clearly is intended as a NOA (but because of the delay in 
transmitting it must be treated as a motion for Board reconsideration) 
may be problematic. This practice will not only add further delay to an 
already burdened VA system, but will needlessly draw on VA's limited 
resources. I defer, however, to the Secretary of VA to highlight issues 
he may recognize in that provision, and comment on how he will respond 
to any conflicts this may create within his regulations.
    S. 3348 potentially has an internal conflict because it 
contemplates applicability to a document filed by a person who has not 
filed an NOA within the period identified in 38 U.S.C. Sec. 7266(a), 
thus suggesting that VA needs to wait for the period to end to 
determine whether that criteria is met. However, the provision then 
requires VA to act prior to the expiration of that time and in some 
instances, forward to the Court the document filed at the Board or the 
agency of original jurisdiction.
                             v. conclusion
    In conclusion, I assure this Committee that each judge on the Court 
strives to live up to the oath that we took when we were appointed to 
the bench--to administer justice and to faithfully and impartially 
discharge and perform the duties incumbent upon us as judges of a court 
of law. We appreciate the opportunity to engage in dialog aimed at 
strengthening and improving the veterans benefits adjudication system 
as a whole. However, we recognize that it is the legislative branch of 
government that must take the steps necessary to create the laws and 
the executive branch to administer the laws, and it is our 
responsibility to provide judicial review of the implementation of 
those laws. On behalf of the judges of the Court, I thank the Committee 
for the opportunity to share our views on this legislative agenda.
                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Mr. Chairman and Members of the Committee, on behalf of Paralyzed 
Veterans of America (PVA), we would like to thank you for the 
opportunity to submit a statement for the record regarding the proposed 
legislation. We appreciate the fact that you continue to address the 
broadest range of issues with the intention of improving benefits for 
veterans. We particularly support any focus placed on meeting the 
complex needs of the newest generation of veterans, even as we continue 
to improve services for those who have served in the past.
        s. 1780, ``honor america's guard-reserve retirees act''
    Paralyzed Veterans of America supports S. 1780, the ``Honor 
America's Guard-Reserve Retirees Act''. This bill incorporates 
``veteran'' into the Guard and Reserve community. PVA supports 
recognizing and honoring all servicemembers, Guard or Reserve, for 
their faithful and honorable service in defending the United States of 
America. Serving in a volunteer force should be credited to the 
servicemember and not discounted, by no fault of their own, because 
they were not activated.
 s. 1866, a bill to amend title 30, united states code, to provide for 
 the eligibility of parents of certain deceased veterans for interment 
                        in national cemeteries.
    Paralyzed Veterans of America supports S. 1866, a bill to amend 
title 38, United States Code, to provide for the eligibility of parents 
of certain deceased veterans for interment in national cemeteries. This 
legislation would provide eligible parents of certain deceased 
veterans' burial rights into national cemeteries, due to the 
servicemember not having a surviving spouse.
              s. 1939, ``agent orange equity act of 2009''
    PVA supports S. 1939, the ``Agent Orange Equity Act of 2009,'' 
which expands the presumption related to exposures for veterans who 
served in the Republic of Vietnam and supporting missions. S. 1939 
would also expand the law to allow Blue Water Naval Veterans and any 
other servicemembers awarded either the Vietnam Service Medal or the 
Vietnam Campaign Medal to be included for presumption. This bill, when 
enacted, will allow the VA to process Vietnam Veterans claims that 
suffer from illnesses linked to toxic exposure in a fast and more 
efficient manner.
                                s. 1940
    PVA supports the intent of this legislation to require VA to carry 
out a study on the effects on children of exposure of their parents to 
herbicides used in support of the United States and allied military 
operations in the Republic of Vietnam during the Vietnam era, and for 
other purposes. We believe this study will serve as a measure of 
research to broaden the knowledge of our veterans, VA, and the public 
communities of the exposure and its causes.
                                s. 2751
    PVA's National office has no position on renaming the Department of 
VA Medical Center in Big Springs, Texas as the George H. O'Brien, Jr. 
Department of VA Medical Center. PVA believes naming issues should be 
considered by the local community with input from veterans 
organizations within that community. For construction projects and the 
authorization of new facilities, PVA believes that if a demonstrated 
need exists, VA should establish facilities that will provide the best 
care for veterans in the area.
  s. 3035, ``veterans traumatic brain injury care improvement act of 
                                 2010''
    PVA supports S. 3035, the ``Veterans Traumatic Brain Injury Care 
Improvement Act of 2010.'' This legislation would require a report on 
establishing a Polytrauma Rehabilitation Center in the northern Rockies 
or Dakotas. It also requires the Fort Harrison Department of Veterans 
Affairs Hospital in Lewis and Clark County, Montana, to be evaluated as 
a potential location for such a Center or site.
    We fully support the expansion of the polytrauma system of care in 
the VA. Polytrauma care is a critical service provided to veterans and 
servicemembers who endured multiple traumatic injuries while serving in 
harm's way to a body system. Any traumatic injury can result in life 
threatening physical, psychological, cognitive, or psychosocial 
impairments or disability. With more servicemembers returning with TBI 
and catastrophic disabilities every day, the need for this capacity 
continues to grow.
  s. 3107, ``veterans' compensation cost-of-living adjustment act of 
                                 2010''
    PVA support S. 317, the ``Veterans' Compensation Cost-of-Living 
Adjustment (COLA) Act of 2010.'' This legislation increases the rates 
of compensation for veterans with service-connected disabilities and 
the rates of dependency and indemnity compensation for certain disabled 
veterans. As we have done in the past, we oppose again this year the 
provision rounding down the cost-of-living adjustment to the nearest 
whole dollar.
       s. 3192, ``fair access to veterans benefits act of 2010''
    Paralyzed Veterans of America supports S. 3192, the ``Fair Access 
to Veterans Benefits of 2010.'' This legislation would amend title 38, 
United States Code, to provide for the tolling of the timing of review 
for appeals of final decisions of the Board of Veterans' Appeal. This 
would provide flexibility in the claims process in favor of the veteran 
under unique circumstances due to medical or mental health problems. 
(An example of unique circumstances would be the case of Henderson. Due 
to Henderson suffering from paranoid schizophrenia, he was unable to 
meet the 120 day deadline for submitting his appeal and was denied the 
right to appeal to the United States Court of Appeals for Veterans 
Claims (CAVC)).
        s. 3234, ``veterans employment assistance act of 2010''
    PVA strongly supports S. 3234, the ``Veterans Employment Assistance 
Act of 2010.'' This legislation addresses the unemployment among 
recently separated Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF) veterans serving both in an active duty and mobilized 
status, which reaches out to active duty and reserve servicemembers. 
The bill also includes legislation regarding: business center programs, 
formal reporting to Congress on the productivity of Service Disabled 
Veterans Owned Small Business's, shortening the deadline from three 
years to one year for Disabled Veterans Outreach Program Specialist 
(DVOPS) and Local Veterans' Employment Representatives (LVER) to meet 
the prerequisite training requirements, integration and improvements to 
educational benefits, to name a few.
    PVA applauds Senator Murray for introducing this bill and urges 
Congress to move quickly on this legislation that impacts the lives of 
many veterans whom are unemployed.
                                s. 3286
    PVA supports the intent of S. 3286. This bill is intended to 
increase the effectiveness of outreach to veterans as it directs the 
Secretary to commence a pilot program on the awarding of grants to 
State and local government agencies and non-profit organizations to 
provide assistance to veterans with their submittal of claims. We 
believe successful outreach and awareness at the local level will 
result in an increased submission of claims. Additionally we encourage 
effective training of the individuals reaching out to veterans' as a 
measure of explaining services properly and effectively. We also urge 
that adequate funding for the Veterans Benefits Administration (VBA) be 
provided to keep pace with the potential increased number of claims 
filed.
                                s. 3314
    PVA supports S. 3314, a bill that would require VA and the 
Appalachian Regional Commission to carry out a program of outreach to 
veterans who reside in Appalachia. The Appalachian Region has faced 
high rates of poverty, unemployment, substandard housing, low 
educational levels, and poor health care. The veterans' population in 
that area is often unaware of the benefits provided by VA or other 
local or state veterans' services. The rural geographical location 
impacts access to care and limits finding adequate transportation to VA 
appointments. We agree that continued outreach is needed, but quality 
care is paramount to improving the quality of life for veterans.
                                s. 3325
    PVA supports S. 3325, a bill to amend title 38, United States Code, 
to authorize the waiver of the collection of copayments for telehealth 
and telemedicine visits of veterans, and for other purposes. 
Telemedicine has proven to be a cost effective service that connects 
the specialist via telecommunications to the veteran. It has been 
particularly useful in the rural setting. This is a new era of health 
care delivery and VA is doing its part in keeping up with technological 
advances to provide innovative solutions to the health care needs of 
veterans.
                                s. 3348
    PVA supports S. 3348, to amend title 38, United States Code, to 
provide for the treatment as a motion of reconsideration of decision of 
the Board of Veterans' Appeals of a notice of appeal of such decision 
misfiled with VA. This bill addresses the uncertainty involved with 
notices of disagreement or motions to reconsider an appeal. The 
legislation allows any written statement of disagreement from the 
veteran, with a Board of Veterans Appeals (BVA) decision and be treated 
as a motion received by the BVA within the 120 days appeal period, as a 
formal motion to reconsider.
               s. 3352, ``veterans pension act of 2010''
    PVA supports the intent of this bill, but would like to recommend 
the legislation be rewritten to allow any insurance settlement as 
excluded from the computation of pension. This will assist veterans 
during financial hardship while affording them the opportunity to 
replace a loss or damaged property.
              s. 3355, ``veterans one source act of 2010''
    PVA has no formal position on this legislation.
                                s. 3367
    PVA strongly supports S. 3367, to amend title 38, United States 
Code, to increase the rate of pension for disabled veterans who are 
married to one another and both of whom require aid and attendance. 
This legislation provides a correction to Public Law 105-178, Section 
8206, which increases the aid and attendance rates for veterans 
receiving VA pension but failed to provide the same increase to married 
couples receiving the same benefit. This bill will provide a long 
overdue additional $825 dollars to a veteran couple.
                                s. 3368
    PVA does not support this bill due to current VA regulation, CFR 
3.155, already incorporating filing of an information claim on behalf 
of a veteran by a Member of Congress, a duly authorized representative, 
or a ``next friend.'' PVA believes there would be increased opportunity 
for fraud in initiating a claim without the knowledge or consent of the 
veteran. Additionally, there is no specified language of the level of 
proof a family member must provide to the VA that encompasses the 
claimants' level of physical capacity or mental incompetence.
                                s. 3370
    PVA supports S. 3370, to amend title 38, United States Code, to 
improve the process by which an individual files jointly for social 
security and dependency and indemnity compensation. This legislation 
adds clarity to VA's interpretation of the law regarding the award of 
DIC and Social Security. The legislation would give VA authority to 
accept any documentation or electronic transmission as proof of 
eligibility in the case of a veterans' death.
  draft legislation on the multifamily transition housing loan program
    PVA supports this draft bill, to amend title 38, United States 
Code, to improve the multifamily transition housing loan program of the 
Department of Veterans Affairs by requiring the Secretary of Veterans 
Affairs to issue loans for the construction of, rehabilitation of, or 
acquisition of land for multifamily transitional housing 
projects instead of guaranteeing loans for such purposes. 
This legislation could be a particularly useful tool that could impact 
and end the era of veterans' homelessness.
                                 ______
                                 
      Prepared Statement of John Paul Rossie, Executive Director, 
              Blue Water Navy Vietnam Veterans Association
    To the Honorable Members of the Senate Veterans' Affairs Committee, 
Less than two weeks ago, I appeared before the House Committee on 
Veterans Affairs to testify regarding H.R. 2254. That bill is the 
sister bill to S. 1939. What I emphasized in that testimony was the 
fact that I am fighting to obtain veteran benefits for a class of 
individuals who have been carved out of the whole and are being set 
aside and treated differently from veterans who were often no further 
from them than a few hundred yards. Not because they are really so 
different that they deserve to be denied their earned veteran benefits, 
but because it is monetarily and administratively convenient the 
Department of Veterans Affairs to do so. In other words, as was brought 
out in the Haas Case, they are dong this simply because they can!
    These veterans of the Vietnam War are not eligible for health care 
and compensation benefits because of an irrational decision by the 
Veterans Benefits Administration (VBA). VBA contends that since these 
service men and women were offshore or involved in 'secret wars' in the 
countries surrounding Vietnam (such as Thailand, Cambodia and Laos), 
they could not have been contaminated by a Chemical Warfare agent that 
may have become part of the ambient air saturation in that entire 
region and whose fingerprint has been found in the fat cells of polar 
bears. BVA denies that the dioxin in Agent Orange could have travelled 
from the spray nozzles of Ranch Hand aircraft to the open waters of the 
South China Sea. They have held onto their absurd position in the face 
of glaring evidence from global scientific and medical research that 
proves the offshore personnel had the same or higher probability of 
contamination by dioxin as did many of the soldiers who are receiving 
their veteran health and compensation benefits because of dioxin 
contamination.
                            no documentation
    Let's set aside for a moment that the VBA is insistent on 
subscribing to Medieval Science as relates to this planet's water 
cycle. Let's ignore for a moment the outright lies, broken promises, 
deceit and intellectual ignorance that has seeped out of the office of 
the Department of Veterans Affairs (DVA) and which has been noted on 
the public record by Chairman Filner and other members of the House 
Veterans' Affairs Committee.
    Let's focus on what the hardest part of my job, as Executive 
Director of the Blue Water Navy Vietnam Veterans Association (BWNVVA) 
has been over the past 6 years as we've tried to help veterans claim 
their promised and rightful benefits. The majority of veterans being 
blatantly discriminated against, those who served offshore Vietnam and 
who served in Thailand, Cambodia and Laos, all have very a similar 
problem. Their service records lack the proper documentation to prove 
that they qualify for the narrow interpretation of the law set forth by 
BVA policy. It might be interesting to note that many of the veterans 
who receive their benefits from the BVA because of their boots-on-
ground status also lack this same documentation within their records, 
but they are never asked to provide it. Any indication that they had 
their boots-on-ground in Vietnam is enough to qualify them for these 
benefits and no further questions are asked. Additionally, there is a 
campaign of plausible deniability surrounding the existence, use and 
consequences of hazardous materials. Bullets and bombs are hazardous 
enough. Chemical, Biological and Nuclear (CBN) agents simply add to the 
depth and complicity of the issue.
    The lack of documentation indicates the lack of a paper trail 
recording where a servicemember was, what their exact duties were, and 
how and when they moved from place to place. No one kept those kinds of 
records, or such records were destroyed for lack of apparent 
usefulness. In the instance of those who were assigned to Thailand, 
Cambodia or Laos, many records are either intentionally non-existent or 
hidden under some sort of classification that makes access to them 
impossible. That classification is, at this point in time, nearly 40 
years old. What could we have possibly done so that, 40 years later, we 
remain embarrassed to let the truth be known?
    I'll answer that question as I expect it to be answered: ``It is a 
matter of national security and can't be discussed.'' Senators of this 
Committee, it is 40 years later and if we committed crimes so heinous 
that they cannot be known after this much time, then this government 
owes an apology to the citizens of this country and to the world for 
having done them. If it is worse than the dirty laundry we now have 
hanging on the line, my mind truly stumbles at comprehending it.
                                deja vu
    Governments and their military leaders must be the slowest learners 
on the planet. It is happening again. Or, rather, it appears that it is 
still happening. When our children returned from Operation Desert Storm 
with sicknesses that presented at an extraordinarily high rate, and it 
is almost 20 years after the fact that their health care and 
compensation benefits are just recently being acknowledged and made 
available to them, something is terribly wrong.
    War is `wrong' in the sense that it clearly shows that humans on 
this planet remain unenlightened. Use of CBN agents during warfare is 
`wrong' because it reflects a total disregard for the wider environment 
of the world that extends far beyond the battlefield. Not documenting 
involvement of our Armed Forces personnel is `wrong' because it puts 
them in a position that they are unable to show the proof needed to 
claim their earned veteran benefits once they leave active duty. We 
continue to use a system that keeps two sets of books that harms our 
current and future veterans by removing them, through their oath of 
secrecy, from the pool of veterans eligible for benefits they may need 
in their future.
    Will our Special Operation Teams returning from Afghanistan and 
Pakistan be able to claim their benefits for injuries received while on 
classified missions? Will they be able to claim their benefits if they 
are caught in a friendly fire incident in Pakistan as our unmanned 
aircraft bomb a country we have not declared war on? Will the Marines, 
who, up until a couple months ago, were training at 29 Palms with 
Iranian posers but have recently switched to Pakistani posers, ever be 
able to file for veteran benefits if they are injured in any boots-on-
ground operation in Pakistan?
    Senators of this Committee, when will we see this nonsense stop? 
When will this country start thinking of the consequences of its 
military actions on the veterans of the future and be fully prepared to 
care for those who live through our wars? You have an opportunity to 
put policy into place that will guarantee the VBA will honor all our 
veterans by providing their earned benefits regardless of what future 
war they participate in. You now have the power to restructure the 
policies of the VBA, as well as the DOD, so that we don't continue to 
commit the same mistakes that result in the problems of lost or missing 
documentation that I am wrestling with today. I think it is time to 
admit that it is the lies that cause the most harm; not the truth. And 
we are sadly deficient in truth speakers.
    Please help clean up the mess left from the Vietnam War of 40 years 
ago. And please put policy into place so that the veterans of the 
future can rest assured that any benefits that may be available to some 
will be available to all. Such policy is only common sense. And it is 
only a display of dignity and honor toward those we send out around the 
world to fight the wars we feel we need to have.
                             today's focus
    Senate bill S. 1939 is our focus today. It addresses the urgent 
needs of Vietnam veterans who honorably served their country as long 
ago as 40 years, and who are now in desperate need of health care and 
compensation for diseases found on the VA's list of presumptive 
diseases attributed to Agent Orange contamination. Those diseases are 
on that list for a reason. They flag the conditions that veterans of 
the Vietnam War display due to dioxin poisoning. Senate bill S. 1939 
extends the benefits of health care and compensation to men who served 
in the direct vicinity of Vietnam who have those identical diseases. Do 
you actually think it is some fluke of Nature that the offshore and 
near vicinity personnel have those exact diseases? Did they all just 
happen to beat all statistical odds and come down with those conditions 
without the intervention of dioxin?
    It does not matter how they came down with Agent Orange related 
diseases. It does not matter if the wind blew it or the water carried 
it or it appeared by magic on the decks of their ships. What does 
matter is there has been a concerted effort for more than a decade to 
eliminate the number of personnel that VBA is required to pay the bill 
to care all our Vietnam War veterans. Senators of this Committee, that 
is NOT ACCEPTABLE.
    In the ``Veterans and Agent Orange Update: 2008'', the Institute of 
Medicine (IOM) opined that there was equal probability for dioxin 
contamination at sea as on land. They recommended that offshore 
personnel be included in the presumption of exposure to herbicides in 
Vietnam. They stated that recommendation several times in that report. 
They presented an verification by a U.S. expert regarding a valid, 
scientific study done under contract to the Australian Government that 
describes quite clearly how dioxin-laden water taken into a ship's 
water treatment system not only ends up in a ship's potable water. It 
also describes quite clearly how the heat flash desalination systems on 
U.S. and Australian ships would amplify the toxicity of any dioxin 
molecules by 400%. This constituted a peer review of the Australian 
Study and the IOM passed favorable judgment on its conclusions.
    Rather than accepting the IOM's recommendations, VA Secretary 
Shinseki ordered an 18-month study that literally duplicates studies 
already done to show the links between dioxin and offshore ships. By 
doing that, he successfully delayed receipt of health care and 
compensation benefits to Vietnam veterans by 18 months. Senators of 
this Committee, that is NOT ACCEPTABLE.
    There are absolutely no additional studies required to settle this 
issue. There only remains the passage of S. 1939 to codify a law that 
was originally written in 1991 that did include offshore veterans and 
veterans in the proximity of Vietnam during that War. It was a law the 
VBA finagled its way around.
    If you wait for the duration of those 18-months, you will be 
presented with an IOM report that once again concludes that anyone on 
the water within the combat zone defined by the Vietnam Service Medal 
offshore Vietnam should be included in the presumption of exposure to 
Agent Orange.
    By not dealing openly and honestly with this problem, all you are 
doing is pushing a favorable decision in the matter further down the 
line, either for you to deal with later, or for your successor to deal 
with. I don't even want to know why. I just want you to realize that 
the longer you delay the more Vietnam veterans with offshore and near 
vicinity service will die due to your indecision. My recommendation to 
you is to grab this problem by the horns, wrestle it to the ground, and 
deal with it. Why are you so reluctant to settle this issue? What is it 
that scares this government so deeply that it is willing to ignore 
proven science and medicine? All we are asking for is recognition that 
we will be given the health care and compensation that will allow us to 
die with dignity and leave this world with less debt piled up for our 
surviving family. The only ones who will be applying for these benefits 
will be those who actually have disabilities from the listed diseases. 
Between approximately 2002 and now, these personnel have needed to pay 
for their own medical treatment and have watched their homes be 
repossessed and their families decimated by debt and a loss of basic 
human dignity.
    Ladies and gentlemen of this esteemed Committee, that is NOT 
ACCEPTABLE. Please pass S. 1939 into law. Thank you for this 
opportunity to present my thoughts and feeling to you as you review 
pending legislation.
            Respectfully,
                                          John Paul Rossie,
                                                Executive Director,
                      Blue Water Navy Vietnam Veterans Association.
                                 ______
                                 
Prepared Statement of CDR John B. Wells, USN (Ret.), Director of Legal 
 and Legislative Affairs, Blue Water Navy Vietnam Veterans Association
                                s. 1939
    Good Morning Mr. Chairman and Members of the Committee. I 
appreciate this opportunity to present to you today concerning S. 1939. 
I intend to address my remarks in support of those who have been left 
behind. Our friends and allies, the Australians, who fought beside us 
on land and at sea in Vietnam and every conflict subsequent to Vietnam, 
have taken the lead in granting Agent Orange benefits to those who 
served outside of the land mass of Vietnam. They have also taken the 
lead in the scientific research in this field, which has recently been 
validated by our own Institute of Medicine.
    By way of introduction, my name is John B. Wells and I am a retired 
Navy Commander as well as an attorney. I entered the Navy in February 
1972 and served in the Engineering Department on five Navy ships. I was 
the Chief Engineer on three of those ships. I was also the Executive 
Officer, second in command, of a ship whose mission was to repair other 
Ships. I have deployed throughout the globe in both the Atlantic and 
Pacific Fleets, serving in the Mediterranean, the Atlantic, Pacific and 
Indian Ocean, the North Arabian Sea, the Norwegian Sea and the Persian 
Gulf. I retired from the Navy, as a Commander on 1 August, 1994. I 
graduated from Duquense Law School night program with a Juris Doctor 
approximately 6 weeks prior to my retirement.
    In the Navy I was qualified as a Surface Warfare Officer, Officer 
of the Deck (underway), Combat Information Center Watch Officer, 
Command Duty Officer, Tactical Action Officer, Navigator, and 
Engineering Officer of the Watch. I was also qualified for command at 
sea. I received a mechanical engineering subspecialty based on 
significant experience. My ships operated with units of the Royal Navy 
and the Royal Australian Navy. This included NATO exercises, RIMPAC 
exercises and other multi-national exercises and global operations.
    I have testified before the Institute of Medicine's Seventh 
Biennial Agent Orange committee in 2008 and again before the Institute 
of Medicine's Blue Water Navy Committee on May 3, 2010. I also 
testified before the House Veterans Committee on May 5, 2010, in 
support of H.R. 2254, the companion bill to S. 1939.
    It is impossible to provide direct evidence as to the dioxin 
content of the South China Sea and the waters off Vietnam in the 1960s 
and 1970s. Too much time has passed to be able to make that 
determination. The circumstantial case, however, is compelling. I 
believe this circumstantial case will eventually be validated by the 
IOM Blue Water Navy committee but such validation will take many 
months. While I was impressed with the interest and competence of the 
members of that IOM board, I am convinced that this study is neither 
necessary nor beneficial. As the IOM admitted before the House 
Committee, they only review existing documentation and do not conduct 
independent research. Testimony before the House Committee on H.R. 2254 
established that the only relevant research is the various reports 
completed by the Australians for the Australian Department of Veterans 
Affairs. Moving forward with this study, which does not report until 
the summer of 2011, will only allow more veterans to die.
    The history of the blue water Navy tragedy begins in Australia. In 
the late 1990's, the Australian Department of Veterans Affairs noticed 
a significant number of Agent Orange related cancers in Royal 
Australian Navy veterans who had never set foot on land in Vietnam. Dr. 
Keith Horsley of the Australian Department of Veterans Affairs met Dr. 
Jochen Muller of the National Research Centre for Environmental 
Toxicology and the Queensland Health Services (hereinafter NRCET) at a 
conference in Stockholm. Dr. Horsley addressed the phenomena with Dr. 
Mueller who agreed to conduct a study to explore the reasons for this 
apparent dichotomy. Dr. Horsley arranged for funding from the 
Australian Department of Veterans Affairs and commissioned NRCET to 
explore the mystery. Their report, entitled the Examination of The 
Potential Exposure of Royal Australian Navy (RAN) Personnel to 
Polychlorinated Dibenzodioxins And Polychlorinated Dibenzofurans Via 
Drinking Water, (NRCET study) was published in 2002. I have talked with 
the authors of that report via telephone and e-mail. My wife, who is a 
Louisiana notary and paralegal, and also an Australian native, traveled 
to Brisbane to interview the authors of the report.
    At about the same time the NRCET report was published, the American 
Department of Veterans Affairs issued a change to their Adjudication 
Procedures Manual (M21-1 Manual) that deleted those soldiers, sailors 
and airmen who did not set foot on land in Vietnam from the presumption 
of herbicide exposure. This decision later led to the litigation 
discussed below.
    As a threshold matter, the vessels of both Australian and American 
origin operated side by side in the waters adjacent to Vietnam. The 
missions were driven by the ship capabilities and not by nationality. 
There was no tactical differences between the operations conducted by 
ships of the United States and Royal Australian Navy.
    The NRCET study noted that ships in the near shore marine waters 
collected waters that were contaminated with the runoff from areas 
sprayed with Agent Orange. NRCET Study at 10. The authors later 
reported to this office that estuary containing the dioxins extended 
more than three nautical miles from shore. This means that the 
contamination would have extended well past the gun line which was 
normally located 2000 to 5000 yards from shore. The distilling plants 
aboard the ship, which converted the salt water into potable drinking 
water, actually enhanced the effect of the Agent Orange. NRCET Study at 
42. The study found that there was an elevation in cancer in veterans 
of the Royal Australian Navy which was higher than that of the 
Australian Army and Royal Australian Air Force. NRCET Study at 13. This 
was confirmed by the The Third Australian Vietnam Veterans Mortality 
Study (hereinafter 2005 Mortality Study). The NRCET Study at page 35 
noted significant concentrations at Vung Tau, an area visited by 
Australian and American ships. Theories that the Agent Orange stopped 
at the water's edge are simply preposterous. Congress in enacting the 
Clean Water Act recognized that pollutants discharged from shore will 
contaminate the navigable waters, waters of the contiguous zone, and 
the oceans. Anecdotal evidence reports Agent Orange in the waters of 
the rivers which then empty out into harbors and eventfully the 
estuaranine waters. Sailors aboard the HMAS Sydney noted that brown 
water runoff would go many kilometers out to sea. 2005 Mortality Study 
at 196. Da Nang harbor was identified as a serious Agent Orange ``hot 
spot.'' Anecdotal evidence noted that clouds of Agent Orange were blown 
out to sea. Approximately 10-12% of the land area was sprayed with 
Agent Orange. In contrast everyone aboard a ship that distilled 
contaminated water from estuarine sources was exposed.
    The distillers all work on similar principles to produce water 
(feed water) for the boilers and potable water for the ship's crew. 
Water is introduced from the sea and is passed through the distilling 
condenser and air ejector condenser where it acts as a coolant for the 
condensers. It is then sent through the vapor feed heater into the 
first effect chamber and into the second effect chamber where it is 
changed to water vapor. Vapor then is passed through a drain regulator 
into a flash chamber and passes through baffles and separators into the 
distilling condenser where it is condensed into water and pumped to the 
ship's water distribution system. Sea water not vaporized is pumped 
over the side by the brine pump. Id. This is the same process discussed 
in the NRCET Study. It was used by American, British and Australian 
ships. In fact many Royal Australian Navy ships were retired United 
States Navy ships or ships of the same class as the American ships. 
Those that were not of American design were often constructed by the 
British. They all used the same system. This system was used well into 
the 1990's. More recently a new system, reverse osmosis, is being 
adopted, but that did not see service during the Vietnam War.
    Potable water was manufactured continuously along with ``feed'' 
water for the ship's boilers. It was a constant headache and as a Chief 
Engineer there were many times that I was given round the clock hourly 
briefings on the status of water. This was especially true in southern 
latitudes such as Vietnam since the higher ambient sea water 
temperatures reduced the efficiency of the distilling process.
    As discussed in the NRCET Study the distilling process enhanced the 
effect of the dioxin. Additionally the dioxin was ingested orally 
through drinking water, food, oral hygiene etc. On land, the dioxin, 
once sprayed, would become embedded in the soil. Since the water 
systems of the ships would have been thoroughly contaminated, the 
dioxin would have adhered to piping and continued to contaminate in an 
ever increasing amount. The authors confirmed this in their discussions 
with my office. The cumulative effect of the contamination would have 
resulted in a very high concentration. It would have taken weeks and 
perhaps months to completely flush the system once the ship moved away 
from contaminated waters. The Australian study confirmed the enhancing 
effects of the shipboard distilling plants. NRCET Study at 42. In other 
words, the effect was even more pronounced than if the veteran had 
merely ingested Agent Orange by breathing it or by drinking water from 
a contaminated stream.
    In their publication in the Federal Register, Vol. 73, No. 73, of 
April 15, 2008, the Department of Veterans Affairs complained that the 
NRCET study was not peer reviewed. Actually it was peer-reviewed and 
published. The report was presented to the 21st International Symposium 
on Halogenated Environmental Organic Pollutants and POPs in Gueongu 
Korea on 9-14 September 2001. It was them published in Volume 52 of 
Organohalogen Compounds (ISBN 0-9703315-7-6) which is published by Dr. 
Jae Ho Yang, Catholic University of Daegu, Korea. Please see http://
espace.library.uq.edu.au/view/UQ:95837 (last visited June 13, 2008). 
More importantly, the study was prepared at the request of and for the 
Australian Department of Veterans Affairs who accepted the study. The 
study was cited in The Third Australian Vietnam Veterans Mortality 
Study (hereinafter 2005 Mortality Study) published in 2005 by the 
Department of Veterans' Affairs and Australian Institute of Health and 
Welfare and resulted in the Department's consideration of Royal 
Australian Navy Vietnam Veterans as potentially exposed Vietnam 
Veterans. The study was further reviewed at the request of the 
Institute of Medicine's Agent Orange Committee, by Dr. Steven Hawthorne 
of the University of North Dakota. He certified that the NRCET study 
was scientifically viable and that the conclusions, based on Henry's 
Law were correct.
    In their Federal Register article, the DVA asserted that:

        ``VA's scientific experts have noted many problems with this 
        study that caution against placing significant reliance on the 
        study. In particular, the authors of the Australian study 
        themselves noted that there was substantial uncertainty in 
        their assumptions regarding the concentration of dioxin that 
        may have been present in estuarine waters during the Vietnam 
        War.''

    This is a blatant misrepresentation of the author's position. When 
Dr. Caroline Gaus, one of the report's author was questioned on this 
point, she replied as follows:

        ``The problem referred to in this comment is associated with 
        estimating the exposure level of Vietnam Veterans, not with the 
        study's primary finding that exposure to dioxins was likely if 
        (i) drinking water was sourced via distillation and (ii) the 
        source water was contaminated. As highlighted by the authors, 
        the exact level of exposure via this pathway is uncertain due 
        to the lack of data on contaminant levels in the source water 
        during the Vietnam War. The attempt made by the study to 
        estimate the level of exposure serves only as an indication 
        that exposure may have been considerable (and depends on the 
        concentrations in the source water). Hence, the problem lies in 
        the lack of exposure information, not with the study. The study 
        clearly demonstrates that if source water is contaminated, 
        dioxins are expected to co-distill with drinking water.
          ``This issue is also not related to the study's quality, but 
        rather highlights one of its findings out of context. The study 
        noted that, while increasing suspended sediment loads in the 
        source water decrease the co-distillation of dioxins, dioxins 
        still co-distill with water at the highest level of suspended 
        sediment in the water tested (i.e. at 1.44 g/L 38% of 2,3,7,8-
        TCDD co-distilled in the first 10% of source water). If 10% of 
        the source water is distilled, TCDD would enrich in the 
        drinking water by a factor of almost 4 compared to the source 
        water. This was confirmed by using water from a tropical 
        estuary with naturally high suspended sediment loading, where 
        48-60% of TCDD co-distilled with the first 10% of source water.
          ``As noted above and in the study itself, estimating the 
        level of exposure via this pathway is difficult due to the lack 
        of data on the concentrations of dioxins in the source water. 
        The level of exposure would depend strongly on the dioxin 
        concentrations in the source water (which would have varied 
        from location to location) as well as on the amount and 
        duration of water consumed for drinking and/or cooking.
          ``The study attempted to provide an estimate on the 
        concentrations of dioxins in source water (0.043-0.69 ng/L). 
        While the uncertainty around this value is large (approximately 
        in the order of a factor of 10 or more), it cannot be 
        determined whether it represents an over- or underestimate 
        (which would also depend on location). Hence, it would be 
        difficult to determine whether the level of exposure was 
        similar, higher or lower compared to veterans who served on 
        land. However, the study demonstrates that exposure is likely 
        to have occurred if source water was contaminated and suggests 
        that exposure may have been considerable.''

    Notably the study Identification of New Agent Orange/Dioxin 
Contamination Hot Spots in Southern Viet Nam Final Report conducted by 
Hatfield Consultants in 2006 noted significant hot spots in the land 
and waters internal to Vietnam, including Da Nang harbor. Concentration 
levels were still significant, over thirty years after the end of the 
war.
    The DVA Federal Register comment contained the curious remark that 
one had to assume that the sailors drank only the contaminated water 
and only for an extended period of time. That is a safe assumption. All 
Navy ships, manufacture potable drinking water from sea water. This 
water is replenished almost daily. These ships did not have the 
capacity to carry potable water throughout the voyage without 
replenishment via their distillers. These ships patrolled the entire 
coast of Vietnam and often anchored in harbors to provide gunfire 
support. To infer that these ships never steamed through contaminated 
waters is naive. Additionally, there was no means to transport large 
quantities of water outside of the reserve potable water tanks. Nor was 
there a long water hose connecting the ship with Hawaii.
    As previously discussed the NRCET study was cited in the 2005 
Mortality Study. That study was conducted by the Australian Institute 
of Health and Welfare for the Australian Department of Veterans 
Affairs. It found a 19% increase in mortality for Navy veterans over 
the Australian population. This is despite the fact that mortality 
among Vietnam veterans as a whole was lower than the general Australian 
community. In another study, the Cancer Incidence in Vietnam Veterans 
2005 (hereinafter the 2005 Cancer Study), the Australian Department of 
Veterans Affairs again cited the NRCET study. The 2005 Cancer Study 
found that Royal Australian Navy veterans had the highest rate of 
cancer, higher than expected by 22-26%, followed by Army veterans, 
higher than expected by 11-13% and Air Force veterans with a 6-8% 
higher than the expected rate of cancer. Navy and Army veterans showed 
a higher than the expected incidence of cancers of the colon, oral 
cavity, colon, pharynx and larynx and cancers of the head and neck and 
gastrointestinal. Whereas Navy veterans demonstrated a higher than the 
expected incidence of gastrointestinal cancer, Army and Air Force 
veterans showed higher than the expected incidence of Hodgkin's disease 
and prostate cancer. The cancers unique to the Navy would appear to 
support the ingestion of the dioxin orally rather than nasally.
    Notably, cancer in Navy veterans could not be attributed to the 
ship on which they served or the time spent in Vietnamese waters. This 
would indicate, I believe, that the contamination of the waters was 
extensive and the contamination of the water storage and distribution 
system long lasting. Although the passage of time as made it impossible 
to produce direct proof, the circumstantial evidence is certainly 
compelling,
    The Australians have stepped forward and began granting benefits to 
those who had served (i) on land in Vietnam, (ii) at sea in Vietnamese 
waters, or (iii) on board a vessel and consuming potable water supplied 
on that vessel, when the water supply had been produced by evaporative 
distillation of estuarine Vietnamese waters, for a cumulative period of 
at least thirty days. They have defined Vietnamese waters as an area 
within 185.2 kilometers from land (roughly 100 nautical miles). In 
reliance upon the NRCET Study, they began promulgating Statements of 
Principles, which are similar to our Code of Federal Regulations, 
covering various cancers. For several years now, Australian Navy 
veterans have been receiving benefits denied to their American 
counterparts.
    In my testimony before the Institute of Medicine's (IOM) Committee 
to Review the Health Effects in Vietnam Veterans of Exposure to 
Herbicides (Seventh Biennial Update) in San Antonio Texas in 2008, I 
discussed the various evidence and urban legends concerning the 
exposure of navy veterans. We provided them with copies of the NRCET 
study, the VA's Federal Register notice and reclamas by myself and Dr. 
Gaus. The IOM Committee conducted an exhaustive review of the NRCET 
study and requested an independent review by Dr. Steve Hawthorne who is 
the Senior Research Manager of the Energy & Environmental Research 
Center (EERC), University of North Dakota. Dr. Hawthorne's principal 
areas of interest and expertise include environmental chemistry and 
analysis, and supercritical and subcritical (superheated) fluid 
extraction. After reviewing the NRCET study, Dr. Hawthorne reported:

        * * * that leaves two questions to be answered:
          1. Is there a physiochemical basis to expect that non-polars 
        (like the dioxins) would distill, while polars (like 
        dimethylarsenic acid) do not distill?
          2. Do their experiments confirm expectations based on 
        physiochemical parameters that dioxins distill and DMA does 
        not?

          The answers to both questions are definitely yes. An 
        explanation of these results can be based on Henry's law--i.e., 
        the tendency of a solute to evaporate from water. This tendency 
        is enhanced by high vapor pressure (obviously), but also by low 
        water solubility. Thus, even molecules like 2,3,7,8-TCDD that 
        have high boiling points will evaporate from water because 
        their solubility is so low. Conversely, molecules like DMA that 
        are very soluble in water do not evaporate from water. The fact 
        that non-polar molecules (even those with high boiling points) 
        evaporate from water is well-known in environmental science, 
        and has been demonstrated to occur with a broad range of 
        pollutants such as PCBs, PAHs, organochlorine pesticides, as 
        well as dioxins. For example, the EPA estimates that the half-
        life for evaporation of 2,3,7,8-TCDD from a pond is 46 days. 
        The distillation process greatly enhances this process by 
        adding heat and reducing the pressure. The experiments 
        described confirm expectations based on Henry's law that 
        dioxins would be concentrated in the distillate, while DMA 
        would not. (The formation experiment was inconclusive, but I 
        don't believe it is important to their conclusions.) Assuming 
        that their apparatus mimics ship-board units (and that seems 
        reasonable), the increased concentration of dioxins in 
        distillate water should be accepted to a reasonable scientific 
        certainty.

    The IOM report accepted the proposition that Navy veterans off the 
coast were exposed and recommended that they be given the presumption 
of exposure. In their recommendation, the IOM committee stated: ``Given 
the available evidence, the Committee recommends that members of the 
Blue Water Navy should not be excluded from the set of Vietnam-era 
veterans with presumed herbicide exposure.''
    Although the DVA accepted other recommendations from this IOM 
report, including the extension of benefits for ischemic heart disease, 
Parkinsons disease and B cell leukemia such as hairy cell leukemia. 
Inexplicably The Department of Veterans Affairs refused to accept the 
IOM report, instead ordering the current ongoing study which will be 
reviewing areas previously addressed by the Agent Orange Committee and 
the Australians. The study was commissioned in February of this year 
and is expected to take 18 months. Meanwhile, our Navy veterans are 
dying of Agent Orange related diseases.
    The Department of Veterans Affairs has undertaken a project to 
cover some blue water Navy veterans. If a ship entered inland waters, 
such as a river, the presumption is granted. This is a classic case of 
doing the right thing for the wrong reason. It is doubtful that the 
distillers, designed to convert salt water to fresh would have been 
operating in the rivers. More importantly, Navy regulations at the time 
stated potable water should not distilled in rivers, streams etc. This 
project, while covering a few more veterans, is a mere extension of the 
DVA's irrational ``boots on the ground'' requirement.
    This project is complicated by the difficulty in proving ships 
locations. Logs are not always available and are handwritten. Specific 
locations are not always identifiable. Locations are often specified by 
directional bearings and/or ranges to navigational points that may no 
longer exist or may be called by a different name. Personnel going 
ashore are never documented unless they are permanently reporting to or 
transferring from the command. The project has resulted in a massive 
expenditure of time with little reward.
    I would be remiss if I did not address the case of Haas v. Peake, 
525 F.3d 1168 (Fed. Cir. 2008). I filed an amicus brief in Haas which 
centered on international law and the NRCET study. The presumption 
issue in Haas was a secondary issue. Actually Commander Haas was 
directly exposed from an airborne cloud.
    The Haas case was primarily decided on administrative law 
principles dealing with rulemaking. In revising their M21-1 Manual, the 
DVA failed to follow the rulemaking provisions of the Administrative 
Procedures Act (APA). The Court of Appeals for Veterans Claims found 
that the provision was irrational and not promulgated pursuant to law. 
The Court of Appeals for Veterans Claims had also ruled that the 
Department of Veterans Affairs's interpretation of the enabling 
statute, 38 U.S.C. Sec. 1116, which excluded the Navy veterans, was 
unreasonable and inconsistent.
    The Federal Circuit excused the VA's compliance with the rulemaking 
provisions of the APA. Acting on administrative law principles, it also 
reversed the Veterans Court holding that the DVA was not given 
sufficient deference in the way they interpreted the statute. The 
Federal Circuit relied upon the ``Chevron doctrine,'' that states 
``when an agency invokes its authority to issue regulations, which then 
interpret ambiguous statutory terms, the courts defer to its reasonable 
interpretations.'' In a split (2-1) decision, the Federal Circuit held 
that the DVA was entitled to Chevron deference because they found that 
the phrase ``served in the Republic of Vietnam in section 1116 is 
ambiguous.''
    In my amicus brief I raised the argument that the statutory 
language incorporated the territorial seas. U.S. Navy ships, like their 
Australian counterparts, steamed within the territorial waters of 
Vietnam. Territorial waters were historically defined as (1) the water 
area comprising both inland waters (rivers, lakes and true bays, etc.) 
and (2) the waters extending seaward three nautical miles from the 
coast line, i.e., the line of ordinary low water, (oft times called the 
`territorial sea'). Seaward of that three-mile territorial sea lie the 
high seas. C.A.B. v. Island Airlines, Inc. 235 F. Supp. 990, 1007 (D.C. 
Hawaii 1964). Most countries now claim a twelve mile limit starting at 
a straight baseline which encompasses the ``fringe'' of coastal 
islands. A wider area, the contiguous zone, reaches out twelve miles 
from the outer limit of the territorial sea. United States v. 
Louisiana, 394 U.S. 11, 23 n. 26. (1969). Vietnam claimed a 12 mile 
territorial sea limit, which defines its sovereignty. That is 
consistent with the limitations of the United Nations Convention on the 
law of the Sea Article 3 and the 1958 Treaty on the Territorial Sea and 
Contiguous Zone. Three nautical miles is within the outermost range of 
the 5"38 gun mounts of Destroyer type ships used in the Vietnam War. 
Twelve nautical miles (24,000 yards) is beyond the maximum range of the 
most commonly used shipboard batteries, the 5"38 or the 5"54 naval gun. 
The same holds true for the 6" and 8" guns. Only the Battleship could 
provide support beyond 12 miles.
    The enabling statute, 38 U.S.C. Sec. 1116(a)(1)(A) recognizes a 
presumption of service connection when the veteran manifests an 
enumerated disease, if the person was ``a veteran who, during active 
military, naval, or air service, served in the Republic of Vietnam 
during the period beginning on January 9, 1962, and ending on May 7, 
1975.'' The threshold factors are the existence of a prescribed disease 
and service in Vietnam.
    In Louisiana v. Mississippi, 202 U.S. 1, 52 (1906), the Supreme 
Court held that the Mississippi Sound, and by extension the waters 
surrounding all harbors as inland waters, were under the category of 
``bays wholly within [the Nation's] territory not exceeding two marine 
leagues in width at the mouth.'' Inland, or internal waters are subject 
to the complete sovereignty of the Nation, as much as if they were a 
part of its land territory. United States v. Louisiana, supra. Thus the 
presumption should apply to any harbor as well as waters landward of 
the baseline. The territorial waters to include the contiguous zone are 
also under the control of the sovereign Nation, although innocent 
passage may not be denied. Id. Subject to the right of innocent 
passage, the coastal state, in this case Vietnam, has the same 
sovereignty over its territorial sea as it has with respect to its land 
territory. See, 1958 Territorial Sea Convention Article 1-2; Law of the 
Seas Convention, Article 2. Notably, the VA has refused to recognize 
domestic and international law definitions of ``inland'' waters in 
determining whether or benefits should be granted.
    Thus any time a Navy ship was firing its guns ashore, it would have 
had to have been within the inland or territorial waters of Vietnam. 
When at anchor in a harbor, it was within the inland waters of Vietnam. 
At all relevant times, the ship was within the sovereignty of Vietnam 
and therefore its crew ``served in the Republic of Vietnam.'' The 
distance to shore directly corresponds to the maximum range of the 
support of forces ashore. Consequently, most naval units operated close 
to shore. Gunfire missions were often shot from two to three thousand 
yards of the shore, well within the straight baseline which marks the 
boundary between inland and territorial waters. Many were anchored in 
Da Nang Harbor. The closer a ship was to the coast, the higher the 
possibility that they steamed through waters contaminated with Agent 
Orange. In the case of the harbor anchorages, the ships were not only 
within the sovereign territory of Vietnam, they were within the inland 
waters. Under both national and international law, most ships served in 
the Republic of Vietnam. The Federal Circuit, in ruling on a petition 
for rehearing, refused to address the international law arguments 
stating that Mr. Haas had waived the argument by not presenting it at 
the Veterans Court.
    After the submission of all briefs and a few days before the May 8, 
2008 decision was rendered, the Department of Justice, acting on behalf 
of the DVA submitted a supplemental brief based on the erroneous April 
15, 2008, Federal Register notice. Although the information in that 
article has since been refuted, there was not sufficient time to 
respond to the supplemental brief. This left the Court under the 
impression that the NRCET study had not been peer reviewed, that the 
Australians used different ships and distilling systems, that American 
ships did not make water and that the authors doubted their own study. 
Those impressions were blatantly false, but this was not brought before 
the Court. Although not a holding of the Court, the DVA 
misrepresentations were discussed in dicta and obviously had some 
impact on the decision.
    While this adversarial ploy was a brilliant tactical move, it was a 
reprehensible act by an agency who claims to stand as a non adversary 
to care for the veteran, his widow and orphan. I am reminded of Justice 
Black's dissent in St. Regis Paper Co. v. United States, 368 U.S. 208, 
229 (1961) ``Our Government should not by picayunish haggling over the 
scope of its promise, permit one of its arms to do that which, by any 
fair construction, the Government has given its word that no arm will 
do. It is no less good morals and good law that the Government should 
turn square corners in dealing with the people than that the people 
should turn square corners in dealing with their government.''
    These men left their homes to go to war. It was an unpopular war, 
but they went. There were teach-ins telling them how to dodge the draft 
or flee to Canada. But they went. When they returned they were spat 
upon and called the most terrible of names. But they went. These men 
were and are casualties of war. Many have died and others are dying. 
Their names will never go on the Wall, but they are casualties who have 
had or will have their lives cut short. In the midst of recession they 
are left without medical care. Their families are left without support 
as they pass. These men are heroes and we owe them medical care and a 
pension.
    Currently Australia recognizes a presumption of exposure for all of 
those who served within the 185.2 kilometer radius of Vietnam for 
thirty days or more. That is roughly the same area as the Vietnam 
Service Medal area. While I am certainly happy that our Allies have 
taken the step of compensating and treating their Navy veterans, as an 
American, I am somewhat chagrined that we did not immediately follow 
suit. As the leader of the Free World we should take the lead in taking 
care of our veterans.
    As I mentioned earlier, It is impossible to provide direct evidence 
as to the dioxin content of the South China Sea and the waters off 
Vietnam in the 1960s and 1970s. Too much time has passed to be able 
to make that determination. The circumstantial case, however, is 
compelling. The 2005 Mortality Study and Cancer Incidence Study 
identifies an exposure problem unique to the Navy. The NRCET study 
shows how exposure most probably occurred. The type of cancers 
developed by Australian Navy veterans confirm that exposure did occur.
    S. 1939 is designed to correct years of neglect and degradation. It 
will restore earned benefits to these heroes and ensure that their 
families will receive a pension upon their premature death. It will 
also implement the recommendations of the IOM's Agent Orange committee. 
This is not a gift. It is not welfare. It is an earned benefit bought 
and paid for with their health and their lives. I urge this Committee 
to favorably report S. 1939 with a strong recommendation that it be 
sent to the full Senate for expedited passage.

    Again, thank you for the opportunity to speak with you today. It is 
a great personal honor both to appear before you and to represent the 
Navy heroes of the Vietnam War. God bless our veterans and God bless 
the United States of America.
                                 ______
                                 
 Prepared Statement of John L. Wilson, Assistant National Legislative 
                  Director, Disabled American Veterans
    Mr. Chairman and Members of the Committee: Thank you for inviting 
the Disabled American Veterans (DAV) to provide our views for the 
record at this important hearing on legislation pending before the 
Committee on Veterans' Affairs on the eighteen numbered bills and one 
draft measure under consideration by the Committee today. We appreciate 
the Committee's leadership in enhancing the Department of Veterans 
Affairs (VA) benefits programs on which many service-connected disabled 
veterans must rely, and we also appreciate the opportunity to offer our 
views.
          s. 1780--honor america's guard-reserve retirees act
    The purpose of this bill would deem the service of a person retired 
from the National Guard and Reserve as active duty service, when the 
person qualifies for retired pay for his or her Reserve (non-regular) 
service or, but for age, would be so entitled. This distinction would 
be for the purposes of extending eligibility for benefits provided 
through the VA.
    The DAV has no resolution on this matter and it is not within the 
scope of our mission.
 s. 1866--a bill to amend title 38, united states code, to provide for 
 the eligibility of parents of certain deceased veterans for interment 
                         in national cemeteries
    This bill would broaden eligibility for internments in National 
Cemeteries. In the event a parent of a deceased veteran who, at the 
time of the parent's death, did not have a spouse, surviving spouse, or 
child who had been interred, or who, if deceased, would have been 
eligible to be interred in a National Cemetery, this measure would 
authorize such burial in a National Cemetery.
    While the DAV has no adopted resolution from our membership 
pertaining to this specific matter, we would not oppose passage of this 
legislation.
                s. 1939--agent orange equity act of 2009
    The goal of this bill would redefine as geographic parts of the 
Republic of Vietnam such Republic's inland waterways, ports, and 
harbors, waters offshore, and airspace above, for purposes of the 
presumption of service connection for diseases associated with exposure 
by veterans to certain herbicide agents while in or near Vietnam. This 
bill would also include as veterans eligible for such presumption those 
who served on Johnston Island during the period beginning on April 1, 
1972, and ending on September 30, 1977, or those who were awarded the 
Vietnam Service Medal or the Vietnam Campaign Medal.
    In accordance with DAV Resolution 017, our membership has long 
supported legislation to clarify that military service in the former 
Republic of South Vietnam for purposes of benefits based on exposure to 
herbicides should include service in the waters offshore. Military 
personnel who served on ships no more distant from the spraying of 
these herbicides than many who served on the Vietnam land mass itself 
have arbitrarily and unjustly been denied benefits of the presumption 
of their exposure, and consequently the presumption of service 
connection for herbicide-related disabilities. Therefore, DAV supports 
this legislation and encourages its enactment.
 s. 1940--a bill to require the secretary of veterans affairs to carry 
out a study on the effects on children of exposure of their parents to 
  herbicides used in support of the united states and allied military 
      operations in the republic of vietnam during the vietnam era
    This measure would direct the Secretary of Veterans Affairs to 
complete, and report to the Committees on Veterans Affairs, the results 
of a study of the effects on children of their parents' exposure to 
herbicides used in support of U.S. and allied military operations in 
the former Republic of South Vietnam during the Vietnam era.
    In delivering the charge to the Institute of Medicine (IOM) 
Committee to Review the Health Effects in Vietnam Veterans of Exposure 
to Herbicides (Seventh Biennial Update), the VA made a request related 
to the purposes of this bill. The request asked the IOM committee to 
comment on whether effects of herbicide exposure might be manifested in 
veterans' children at later stages of their development than have been 
systematically evaluated to date or in later generations and on the 
feasibility of assessing such effects. In its 2008 Veterans and Agent 
Orange Update report, the IOM Committee reported:

        Developing understanding of epigenetic mechanisms leads this 
        Committee to conclude that it is considerably more plausible 
        than previously believed that exposure to the herbicides 
        sprayed in Vietnam might have caused paternally-mediated trans-
        generational effects. Such potential would most likely be 
        attributable to the TCDD contaminant in Agent Orange. 
        Consequently, this Committee recommends that laboratory 
        research be conducted to address and characterize TCDD's 
        potential for inducing epigenetic modifications. As the 
        offspring of Vietnam veterans grow older, the possibility of a 
        parental effect on the incidence of adult cancers, cognitive 
        problems, and other diseases of maturity are of increasing 
        interest. While information concerning the applicability of 
        epigenetic mechanism to TCDD is being gathered, the Committee 
        further recommends innovative epidemiologic protocols be 
        developed to address the logistically challenging task of 
        determining whether adverse effects are being manifested in the 
        adult children and grandchildren of Vietnam veterans.

    Further, enactment of this bill would be consistent with both the 
VA Secretary's decision in September 2009 as well as the House 
Committee on Veterans' Affairs recent oversight hearing to examine the 
feasibility and circumstances of recommencing the 1980's-era National 
Vietnam Veterans Longitudinal Study (NVVLS).
    DAV National Resolution No. 252 urges congressional oversight and 
Federal vigilance to provide for research, health care and improved 
surveillance of disabling conditions resulting from military toxic and 
environmental hazard exposures. Research conducted by the National 
Institutes of Health, the Department of Defense (DOD), VA and other 
Federal departments and agencies, has focused on associations linking 
toxic and environmental exposures with subsequent health status of 
veterans, and in the case of Vietnam veterans, some of their children. 
We urge Congress to actively oversee its established mechanism of 
delegation to the National Academy of Sciences and VA to determine 
validations of, and develop equitable compensation policy to support, 
environmentally exposed veterans and those whose children are affected.
s. 2751--a bill to designate the department of veterans affairs medical 
center in big spring, texas, as the george h. o'brien, jr., department 
                   of veterans affairs medical center
    This measure would designate the Department of Veterans Affairs 
medical center in Big Spring, Texas, as the ``George H. O'Brien, Jr., 
Department of Veterans Affairs Medical Center.'' DAV adopts no 
resolutions on matters such as these. This is a local issue and would 
be handled by a local Chapter or Department of the DAV; therefore, DAV 
has no position on this matter.
 s. 3035--the veterans traumatic brain injury care improvement act of 
                                  2010
    If enacted, this bill would require the Secretary of Veterans 
Affairs to provide a report to Congress on the feasibility and 
advisability of VA's establishment of a Polytrauma Rehabilitation 
Center or Polytrauma Network Site of the VA in the geographical area of 
the northern Rockies and Dakotas. The bill would require the report 
within 180 days of enactment. The bill describes required elements that 
would be addressed in the report, including adequacy of existing 
facilities available to polytraumatically-injured veterans within this 
frontier region; a comparative assessment of rehabilitation programs' 
effectiveness in urban versus rural and frontier regions; assessment of 
the cost of living and financial stresses of frontier life; and, an 
assessment of therapies to prevent or remediate neurologic conditions 
secondary to Traumatic Brain Injuries and whether such therapies can be 
interrupted by the stresses of urban life.
    As indicated in the findings section of the bill, VA has 
established polytrauma rehabilitation centers in four locations [and 
has announced a fifth location in San Antonio, Texas] and has 
designated other polytrauma network sites in each Veterans Integrated 
Service Network. Injured veterans in this particular six-state area 
might need to travel to Minneapolis, Minnesota or Palo Alto, California 
to receive specialized care for their polytrauma needs. Alternatively, 
they would need to travel significant distances to other urban areas 
such as Seattle or Denver to receive private care at VA or DOD expense. 
Several studies have shown that nearly half of our Armed Forces serving 
in Iraq and Afghanistan emanate from rural areas; thus, these wars are 
producing numbers of polytraumatically injured veterans from rural, 
remote and frontier regions.
    Consistent with DAV Resolution No. 241, adopted at our most recent 
National Convention in Denver, Colorado, focused on gaining proper care 
for veterans with Traumatic Brain Injury (often accompanied by 
polytrauma), we support the purposes of this bill and appreciate the 
intentions of its sponsors. Nevertheless, we would anticipate that 
should VA open such a specialized center in a frontier location such as 
Ft. Harrison, Montana or Cheyenne, Wyoming based on findings in the 
report required by the bill, VA's recruiting and retaining the types 
and variety of highly specialized providers might become a significant 
barrier to the maintenance of quality of care in such a 
technologically-advanced activity. The existing polytrauma centers all 
maintain vigorous affiliations with university schools of medicine, of 
other health professions and of the health sciences in general. They 
conduct significant biomedical and prosthetic research focused on 
polytrauma and its sequelae. There is no school of medicine in Montana, 
Wyoming, Idaho or eastern Washington. Also we would be concerned about 
the efficiency of such a center because of the generally low absolute 
numbers of polytrauma cases who may continue to reside in that frontier 
region. We would ask the Committee to consider amending the required 
elements of the report to add a census of the existing polytrauma 
veteran population continuing to reside in this five-state area, with 
an assessment of their service needs and their current providers.
    Our decades of experience with VA's spinal cord injury (SCI) 
centers would demonstrate that tens of thousands of SCI veterans in 
fact relocated their residences either temporarily or permanently in 
many cases in order to be nearer that vital VA service for them. VA 
maintains 23 SCI centers, all located in urban and academic 
environments.
    We have been made aware that many families of polytraumatically 
injured veterans of Iraq and Afghanistan service, many from rural 
areas, also are relocating to be nearer to VA's existing polytrauma 
sites of care and the specialized medical and surgical resources 
attendant to these centers. These are tragic but perhaps unavoidable 
consequences of severe disability caused by war.
 s. 3107--veterans' compensation cost-of-living adjustment act of 2010
    If enacted, this measure would direct the Secretary of VA to 
increase the rates of veterans' disability compensation, additional 
compensation for dependents, the clothing allowance for certain 
disabled veterans, and dependency and indemnity compensation for 
surviving spouses and children as of December 1, 2010. These increases 
would be required to be at the same percentage increase as benefits 
provided under title II (Old Age, Survivors and Disability Insurance) 
of the Social Security Act, on the same effective date.
    This Nation's first duty to veterans is to provide for the 
rehabilitation of its wartime disabled. In accordance with DAV's 
Resolution No. 072, we support enactment of legislation that provides a 
realistic increase in VA disability compensation rates to bring the 
standard of living of disabled veterans in line with that which they 
would have enjoyed had they not suffered their service-connected 
disabilities.
    While Congress passed similar legislation last year, veterans 
received no increase as a result of the general downturn in the 
economy. Despite this downturn, many items did increase in cost. 
Veterans generally find themselves in more vulnerable economic status 
than their peers who did not serve in the military and feel the loss of 
such annual increases more keenly than many others. We therefore urge 
Congress to ensure veterans are provided increased compensation to meet 
their daily needs.
         s. 3192--fair access to veterans benefits act of 2010
    The stated goal of this bill is to extend the 120-day limit for the 
filing of an appeal to the Court of Appeals for Veterans Claims (Court) 
after a final decision of the Board of Veterans' Appeals (BVA), upon a 
showing of good cause for such time as justice may require. Such an 
extension would be applicable to appeals of final Board decisions 
issued on or after July 24, 2008.
    The DAV supports legislation to allow for equitable tolling of the 
appeal period for claims before the VA and Court decisions. We note in 
DAV Resolution No. 226 that Congress created a benevolent system for 
the administration of veterans' benefits and services that is both ex 
parte and nonadversarial before the VA. Additionally, the law 
previously provided for equitable tolling of the appeal if a veteran 
was physically or mentally incapacitated and unable to file the appeal 
within the allotted time period, although this provision was seldom 
found in the veteran's favor. In many circumstances, the laws also 
provided for equitable tolling of an appeal should a veteran 
incorrectly send a request to appeal to the VA Regional Office (VARO) 
or to the BVA instead of the Court. DAV supports this legislation and 
encourages its enactment.
           s. 3234--veteran employment assistance act of 2010
    This multifaceted legislation would seek to help our veterans 
receive training in order to become gainfully and equitably employed.
    Section 3 would amend the Small Business Act to direct the 
Administrator of the Small Business Administration (SBA) to establish a 
program, headed by a Director, which designates veterans' business 
centers to provide entrepreneurial training and counseling to veterans 
in areas in which the number of veterans, especially veterans of 
Operations Enduring Freedom and Iraqi Freedom (OEF/OIF), exceed the 
national median. In addition, it requires the Director to establish a 
program of grants to veterans' business centers to provide Federal 
procurement assistance to small businesses owned and controlled by 
veterans, and develop outreach programs to create or further develop 
service-disabled veteran-owned small businesses. It also authorizes the 
Director to hold biennial veterans entrepreneurial development summits.
    DAV has no resolution on this matter but would not be opposed to 
its favorable consideration. However, we submit that such programs must 
focus equally on veterans of all eras, with no emphasis on a veteran 
from one conflict over that of another since all were in harm's way and 
all are deserving of equal consideration and support.
    Section 5 would reduce from three years to one year the period for 
completion of training of new Disabled Veterans' Outreach Program 
(DVOP) specialists and Local Veterans' Employment Representatives 
(LVERs).
    While a shortened training program may mean more specialists being 
fielded sooner to provide such critical services to this important 
population, we must express our concern. A shortened training program 
may have the unintended consequence of specialists not having achieved 
full proficiency in their area of expertise and thus providing less 
than satisfactory employment counseling and placement services to 
veterans. In accordance with DAV Resolution No. 048, we would recommend 
Congress provide adequate funding and permanency of staff, and training 
including for the National Veterans Training Institute, Small Business 
Administration, DVOPs, LVERs, and Homeless Programs.
    Section 6 would direct the Secretary of Labor to provide a training 
subsistence allowance for each month that an unemployed veteran is 
enrolled in a full-time employment and training program that is offered 
by an eligible training provider and teaches a skill connected to a 
career in an in-demand industry.
    Although DAV does not have a resolution on this matter we would not 
be opposed to its favorable consideration.
    Section 7 provides for the use of veterans' post-9/11 educational 
assistance for the pursuit of apprenticeships and on-job training.
    The DAV, in accordance with DAV Resolution No. 002, supports 
limited dual entitlement to vocational rehabilitation and employment 
under Chapter 31, and the Post-9/11 Education Assistance Program under 
Chapter 33 (GI Bill) in order to ensure that disabled veterans are not 
forced to choose the lesser of two available benefits. Programs such as 
these were set in place to provide veterans some recompense for their 
service and sacrifice, particularly those who were disabled as a result 
of their service. The current disparity between the more financially 
lucrative subsistence allowances of the new GI Bill will ultimately 
force service-connected disabled veterans with employment deficits to 
either utilize the Chapter 31 program (which is not as financially 
helpful as Chapter 33) in order to obtain the often critical vocational 
rehabilitation services available only under Chapter 31, or opt out of 
this program in order to provide subsistence for their families. We 
hold that veterans should not be placed in such an untenable position. 
Our Nation's first duty to veterans is the rehabilitation and welfare 
of its service-connected disabled. Precedent has already been set in 
that the Montgomery GI Bill currently allows veterans to use both its 
benefits and those of Chapter 31 on a limited basis. Therefore, DAV 
supports this legislation and recommends its enactment.
    Additionally, pursuant to DAV Resolution No. 047, we recommend that 
Congress make the Chapter 33 Post-9/11 GI Bill available to pay for all 
necessary civilian license and certification examination requirements, 
including necessary preparatory courses. In accordance with this 
resolution, we note that the DOD provides some of the best vocational 
training in the Nation for its military personnel. It has established 
measures and performance standards for every occupation within the 
Armed Forces. These occupational standards meet or exceed the civilian 
license or certification criteria but many former military personnel, 
certified as proficient in their military occupational career, are not 
licensed or certified to perform a comparable job in the civilian 
workforce. A January 14, 1999 study by the Congressional Commission on 
Servicemembers' and Veterans' Transition Assistance identified several 
military professions in which civilian credentialing is required for 
employment in the private sector. We therefore recommend that this 
legislation be modified to also make the Chapter 33 Post-9/11 GI Bill 
available to pay for all necessary civilian license and certification 
examination requirements, including necessary preparatory courses as a 
means to increase the civilian labor market's acceptance of the 
occupational training provided by the military and improve the post-
service employment opportunities for veterans.
    Section 8 would require the Secretary of Veterans Affairs to 
establish: (1) a program to award grants to states to establish a 
veterans' conservation corps to give veterans volunteer and employment 
opportunities under state conservation projects; and, (2) a center of 
excellence of methods for educational institutions to afford academic 
credit to veterans for previous military experience and training.
    Section 9 would amend the Workforce Investment Act of 1998 to 
direct the Secretary of Labor to establish: (1) information technology 
military pathways demonstration programs to enable veterans to build 
upon technical skills learned in the military when entering into the 
civilian information technology workforce; and (2) nursing, public 
health and allied health professional, and physician assistant military 
pathways demonstration programs to enable veterans to build upon 
military technical skills when entering into civilian positions in 
those fields.
    Section 12 would require the Secretary of Labor to carry out a 
veterans' energy-related employment program to encourage the employment 
of veterans in the energy industry.
    Section 14 would direct the Secretary of Defense to carry out the 
Veterans to Work pilot program to provide veterans with employment in 
military construction projects.
    Although DAV does not have resolutions from our membership on the 
specific matters entertained in sections 8, 9, 12, and 14, we would not 
be opposed to their favorable consideration.
    Section 15 requires: (1) a report on improvements and enhancements 
of the Transition Assistance Program (TAP) to better meet the needs of 
members of the Armed Forces and veterans; and (2) a study on a program 
of transition assistance modeled on the Employment Enhancement Program 
of the Washington National Guard.
    DAV has long held that DOD's TAP and Disabled Transition Assistance 
Program (DTAP) programs are not adequate in scope or resources to 
ensure a seamless transition from active duty to veteran status. The 
transition from military service to civilian life is very difficult for 
most veterans who must overcome many obstacles to successful 
employment. TAP and DTAP were created with the goal of furnishing 
separating servicemembers with vocational guidance to aid them in 
obtaining meaningful civilian careers. We therefore support efforts to 
improve such programs. We also ask Congress, in accordance with DAV 
Resolution 258, to ensure the level of funding and staffing is adequate 
to support the routine discharges per year from all branches of the 
Armed Forces, which has not been the case for some time. Additionally, 
in accordance with DAV Resolution 134, we recommend Public Law 101-510, 
codified in sections 1141-1150 of title 10, United States Code, which 
authorized TAP and DTAP, be amended to require every National Guard and 
Reserve member who is activated for 12 months or longer be afforded a 
period of active duty of five days, within 90 days of separation, in 
order to attend TAP and DTAP workshops.
 s. 3286--a bill to require the secretary of veterans affairs to carry 
     out a pilot program on the award of grants to state and local 
 government agencies and nonprofit organizations to provide assistance 
  to veterans with their submittal of claims to the veterans benefits 
                             administration
    If enacted, this bill would require the Secretary of Veterans 
Affairs to establish a pilot grant program (modeled to the degree 
practicable on Subchapter II of Chapter 20, title 38, United States 
Code, authorizing grants for comprehensive service centers to aid 
homeless veterans) to assist veterans in filing claims for VA benefits 
with the Veterans Benefits Administration. Eligible grantee 
organizations under this bill would be limited to State and local 
governmental agencies and nonprofit organizations as determined 
appropriate by the Secretary. The bill expresses several criteria to 
govern the program, and would limit the program to two years' duration.
    While DAV has no resolution on the matter, we do have concerns 
about how such a program would work and whether providing funding for 
such a program would be the best use of VA's limited resources. The 
legislation does not specify either the size or cost of the pilot 
program. Since there are already thousands of service officers working 
for States, local governmental agencies and veterans service 
organizations providing veterans with precisely the assistance 
contemplated under this legislation, it is not clear what new or 
additional purpose the pilot would serve.
     s. 3314--to require the secretary of veterans affairs and the 
appalachian regional commission to carry out a program of outreach for 
                   veterans who reside in appalachia
    This bill would require the Secretary of Veterans Affairs and the 
Appalachian Regional Commission to carry out a program of outreach to 
veterans who reside in the Appalachian region. The expressed intention 
of the bill would be to increase access and awareness of the 
eligibility of veterans for Federal, state and local government 
programs that provide compensation and other benefits for service in 
their military service who reside in the Appalachian region.
    While we have no resolution from our membership supporting the 
specific purposes of this bill, we note that VA has an outreach program 
in place as part of its overall mission. We are therefore concerned 
that contracting out such services may not only dilute the expertise VA 
has developed in its delivery of services and benefits to veterans and 
may instead divert critical funds that can best be utilized in-house to 
more costly contracted entities for delivery of the same services.
s. 3325--to amend title 38, united states code, to authorize the waiver 
of the collection of copayments for telehealth and telemedicine visits 
                              of veterans
    This measure would amend section 1722A of title 38, United States 
Code, to prohibit the VA from collecting a copayment for any service 
provided by VA under its telephone care program, also called VA 
Telehealth or telemedicine visit of a veteran under the laws 
administered by VA.
    This Committee is well aware that the Veterans Health 
Administration (VHA) has invested heavily in telehealth under the 
broader notion of care coordination. Telehealth, or telemedicine, is 
the use of telecommunications and information technology to provide 
health care when distance separates participants. For decades, 
telemedicine has been considered a means of overcoming barriers to 
providing rural health care. In addition, the American Telehealth 
Association indicated in a March 2007 position statement that there is 
a growing consensus that the supply of health care providers across the 
professions is going to be inadequate to meet the expanding needs for 
health care of the U.S. population--both in the short term and in the 
long term. Telehealth, while not the entire solution to the problems 
presented by the shortage and maldistribution of health care providers, 
can make important contributions to alleviating those problems.
    A study published in the Journal of Rehabilitation Research & 
Development suggests that using information and communication 
technology to deliver health services, expertise, and information over 
a vast geographical distance and implementing home telehealth 
modalities may enhance users' timely accessibility to needed care, 
reduce preventable hospitalization use, and decrease direct and 
indirect medical costs over time.\1\ In addition, a number of studies 
have shown that home telehealth interventions can improve clinical 
outcomes for conditions common among SCI patients, such as pressure 
ulcers (Phillips et al. 2001) and diabetes (Joseph 2006; Barnett et al. 
2007).
---------------------------------------------------------------------------
    \1\ Jia H, Chuang HC, Wu SS, Wang X, Chumbler NR. Long-term effect 
of home telehealth services on preventable hospitalization use. Journal 
of rehabilitation research and development. 2009 Jan 1; 46(5):557-66.
---------------------------------------------------------------------------
    DAV supports this measure according to our Resolution No. 234, 
calling for legislation to repeal all copayments for military retirees' 
and veterans' medical services and prescriptions. However, DAV would 
like to share some of our concerns regarding telemedicine/telehealth in 
the VA health care system.
    First and foremost, the 21 Veterans Integrated Service Networks 
(VISNs) currently have no financial incentive to invest in this 
important technology. The Veterans Equitable Resource Allocation (VERA) 
system is the method VA uses to distribute resources among its VISNs. 
It distributes funds to each VISN based both on patient workload, as 
well as on the complexity of care provided. This system allocated $31.8 
billion in general purpose funds during fiscal year (FY) 2009. As this 
Committee is aware, VERA does not currently factor telemedicine and 
telehealth visits into its workload data.
    In addition, according to Dr. Anthony A. Cavallerano, and Dr. Paul 
R. Conlin, VA physicians writing in the Journal of Diabetes Science and 
Technology in January 2008, diabetic retinopathy, a condition of the 
eye resulting from diabetes, is the most common cause of visual loss in 
the United States. These physicians further noted that only 60 percent 
of persons with diabetes receive timely and appropriate eye 
examinations. In FY 2000, Congress recognized the importance of making 
eye care accessible to all veterans when, in Senate Report 106-410 to 
accompany the 2001 Department of Veterans Affairs and Housing and Urban 
Development, and Independent Agencies Appropriations Act of 2001 
(Public Law 106-271), the Appropriations Committee recommended that VA 
collaborate with the DOD and the Joslin Diabetes Center to implement 
the Joslin Vision Network. This collaboration created a system allowing 
specialists at a remote location to detect diabetic retinopathy and 
other eye conditions by reviewing images transmitted across a 
telecommunications network. In 2001, VA convened an expert panel to 
evaluate teleretinal imaging to screen for diabetic retinopathy. In a 
statement regarding the implementation of VA's teleretinal program, 
this panel said, ``The VHA envisions developing and deploying a 
nationwide teleretinal imaging system that will be regionalized by VISN 
and will build on the VHA's robust information technologies for 
acquiring, transmitting, interpreting, and storing digital retinal 
images. A similar system for screening for [diabetic retinopathy] has 
been established in the United Kingdom.'' While the program has 
expanded to assist in providing eye care to almost 20 percent of VA's 
diabetic veteran population, VA only offers teleretinal imaging at some 
facilities. In FY 2008, VA had these services available at only 130 of 
its nearly 800 community-based outpatient clinics (CBOCs).
    In FY 2008, VA provided ambulatory services to a total of 4,901,797 
veterans. But a telehealth technology allowing health care workers to 
monitor veterans' chronic diseases while the veteran was at home was 
used on only 36,400 patients. This is less than one percent of all 
veterans treated on an outpatient basis.
    Under another program, VA provided general telehealth services 
using real time conferencing to an estimated 48,000 veterans, 29,000 of 
which utilized the services for mental health purposes. Adam Darkins, 
MD, Chief Consultant, Office of Care Coordination, in the Office of 
Patient Care Services, noted that outcomes data for tele-mental health 
have demonstrated a 24.6 percent reduction in hospital admissions and a 
24.4 percent reduction in bed days of care when these services are 
utilized. However, according to the National Rural Health Association, 
it has been estimated that about 20-23 percent of the U.S. population 
live in rural areas, but only 9 to 11 percent of physicians practice in 
rural areas. Among 1,253 communities designated as Mental Health 
Professional Shortage Areas in 2007, for example, almost 75 percent did 
not have a psychiatrist. For this reason, VA psychiatrists, writing in 
the Journal of Academic Psychiatry in November 2007, recommended 
ensuring competency in telemedicine technologies as part of a 
curriculum designed to emphasize rural practice in psychiatry residency 
training.
    Mr. Chairman, the ability of VA medical centers and CBOCs to offer 
specialty services is particularly important to the needs of returning 
OEF/OIF veterans, many of whom return to remote areas with conditions 
like PTSD or TBI. We offer our observations to ensure progress of 
telemedicine in the VA into a robust health care innovation. For 
decades, telemedicine has been considered a means of overcoming 
barriers to providing rural health care. According to Dr. Michael 
Hatzakis et al., a VA physician writing in the Journal of 
Rehabilitation Research and Development in May/June 2003, experimental 
programs in telehealth were funded through existing grants on Indian 
reservations, in psychiatric hospitals, in the prison systems, and in 
medical schools between the 1950s and the 1970s. Dr. Hatzakis also 
noted that none have survived, reflecting in part a failure to secure 
financial self-sufficiency.
    In conclusion, while we have no resolution adopted by our 
membership dealing with the specific matter of telemedicine and 
telehealth, we believe progress in these technologies is an important 
component of VA health care, especially for rural veterans and new 
veterans from OEF/OIF. Also, as indicated, our membership is firmly 
opposed to copayments in any form as a condition of access to VA health 
care. Therefore, we would not object to enactment of this bill but ask 
that the Committee use its oversight to examine the lack of financial 
incentives in the current allocation policy that may serve as a barrier 
to more effective uses of telehealth in VA health care.
       s. 3330--veterans health and radiation safety act of 2010
    If enacted, this bill would make certain improvements in, and 
promote safer practices in, the administration of radiation treatments 
at medical facilities of the VA.
    The genesis of this bill appears to be the recent finding by the VA 
Office of Inspector General (OIG) related to application of prostate 
brachytherapy in the treatment of prostate cancer patients at the 
Philadelphia, Pennsylvania VA Medical Center, when the wrong strength 
of implanted radioactive seeds was discovered.
    The OIG made five recommendations as follows, all of which VHA's 
Under Secretary for Health concurred with:

        (1) VHA's National Director of Radiation Oncology Programs 
        should have sufficient resources, to ensure that VHA provides 
        one high quality standard of care for the prostate 
        brachytherapy population. To achieve this end, VHA should 
        standardize, to a practical extent, the privileging, delivery 
        of care, and quality controls for the procedures required to 
        provide this treatment. (2) VHA should take the steps required 
        to ensure that patients who received low radiation doses in the 
        course of brachytherapy be evaluated to ensure that their 
        cancer treatment plan is appropriate. (3) VHA should review the 
        controls that are in place to ensure that VA contracts for 
        healthcare comply with applicable laws and regulations, and 
        where necessary, make the required changes in organization and/
        or process to bring this contracting effort into compliance. 
        (4) Senior VA leadership should meet with Senior NRC leadership 
        to determine if there is a way forward that will ensure the 
        goals of both organizations are achieved. (5) VHA should work 
        with the OIG to develop a list of documents that should 
        routinely be provided to the OIG when an outside agency is 
        notified of a (possible) untoward medical event.

    Section 2 of this measure would require an annual report on low-
volume patient programs--specifically, programs with fewer than 100 
participants in a calendar year--from all VA medical facilities that 
conduct such low volume treatment programs. Section 3 of the bill would 
require the VA Secretary to ensure that all VA health care employees, 
including contractor employees, receive appropriate training related to 
the use of radioactive isotopes, on what constitutes a medical event, 
and to whom it should be reported should such an event occur. Failure 
to provide such training would require the Secretary to enforce halting 
the use of radioactive isotopes at a VA facility until the Secretary 
deems safety to have been restored.
    The final section of the bill--Section 4--would mandate the VA 
Secretary establish specific requirements such as independent peer 
review of such services, written evaluations by managers of employees 
providing such services, and evaluation review prior to extension of 
any existing contracts with non-government entities to provide such 
services.
    DAV has no specific resolution from our membership with respect to 
S. 3330; however, we concur with the OIG recommendations that proper 
training, oversight and following all mandates and established 
procedures for radiation therapies are essential for VA and non-VA 
contractor health care personnel to ensure patient safety. We ask the 
Committee to provide oversight to ensure VA carries out all of the 
recommendations made by the OIG in this case. Also, DAV would not 
object to passage of S. 3330 to ensure Congress gains adequate 
oversight information about smaller, ``low volume'' VA treatment 
programs and ensure that proper training of health personnel 
administering radioactive isotope treatments is mandated along with 
appropriate training for identifying and reporting a medical event that 
could be harmful to veterans in VA care.
  s. 3348--to amend title 38, united states code, to provide for the 
treatment as a motion for reconsideration of a decision of the board of 
veterans' appeals of a notice of appeal of such decision misfiled with 
                   the department of veterans affairs
    This bill would amend current law so that if a veteran submits 
documents to VA that disagree with decisions of the BVA and that are 
misfiled with the Board within 120 days of such decisions, those 
submissions shall be treated as motions for reconsideration of such 
decisions.
    The law currently provides for equitable tolling, or good cause 
delays, for veterans who miss legal deadlines in circumstances when the 
veteran was unable to meet the deadline due to illness or injury. This 
legislation seeks to provide similar relief for circumstances in which 
a veteran expresses his disagreement with a decision of BVA by sending 
documentation to the VA Regional Office (VARO) or to the BVA within 120 
days of the decision instead sending it to the Court. Therefore, 
consistent with DAV Resolution No. 226, DAV supports this legislation 
and encourages its enactment.
         s. 3352--the veterans pensions protection act of 2010
    This bill would modify subsection 1503(a) of title 38, United 
States Code, to exempt reimbursements of expenses related to accident, 
theft, loss, or casualty loss from determinations of annual income with 
respect to VA pensions for otherwise eligible veterans, surviving 
spouses and children of veterans, thereby allowing these individuals to 
qualify for pension or prevent loss of eligibility for existing pension 
payments, that might occur if such reimbursements were counted as 
family income. DAV has no resolution on this matter.
              s. 3355--the veterans one source act of 2010
    This bill would provide for a Web site providing information on 
benefits, resources, services, and opportunities for veterans and their 
families and caregivers. Specifically, it would require the Secretary 
of Veterans Affairs, in collaboration with the Secretaries of the DOD, 
Labor, Education as well as the Commissioners of Internal Revenue and 
Social Security, the Administrator of the Small Business Administration 
and other Federal agencies as determined appropriate, to a single 
source Web site detailing the full range of benefits from the 
aforementioned.
    While DAV does not have a resolution on this matter, we do support 
efforts to simplify access to information about benefits and services 
for veterans, family members and caregivers. We note that VA already 
has several ongoing IT projects and Internet outreach efforts, as well 
as new outreach requirements as part of S. 1963, the Caregivers and 
Veterans Omnibus Health Services Act of 2010. We would therefore 
encourage dialog amongst Congress, the VA and other Federal agencies to 
ensure that new legislation is necessary and supportive of reaching the 
goals identified in the legislation.
s. 3367--to amend title 38, united states code, to increase the rate of 
 pension for disabled veterans who are married to one another and both 
               of whom require regular aid and attendance
    If enacted, this bill would increase the annual nonservice-
connected VA pension rate for a married couple, each of whom is a 
veteran in need of regular aid and attendance to $31,305, effective on 
date of enactment of the bill, an increase of $825.00
    Although DAV does not have a resolution from our membership on this 
specific matter, we would not be opposed to its favorable 
consideration.
 s. 3368--to amend title 38, united states code, to authorize certain 
individuals to sign claims filed with the secretary of veterans affairs 
                         on behalf of claimants
    This measure would amend Section 5101, title 38, United States 
Code, by broadening the definition of ``claimant'' for VA benefits 
purposes to include provisions to enable a person other than the 
veteran concerned to sign VA claims forms on behalf of a veteran in 
certain circumstances or conditions that serve to prevent a veteran 
from signing necessary forms to execute a claim. Under the bill the 
person authorized to sign such forms would be court-appointed in the 
case of mental incompetence of the veteran; in the case of a veteran 
who is a minor, a family member or other person responsible for the 
welfare of the veteran; or a designated institutional manager or 
official in the case of an institutionalized veteran. Although DAV does 
not have a resolution from our membership, there are circumstances 
where a veteran may be incapable of providing a signature but would be 
assisted with receipt of benefits, and therefore we are not be opposed 
to its favorable consideration.
s. 3370--to amend title 38, united states code, to improve the process 
by which an individual files jointly for social security and dependency 
                       and indemnity compensation
    This bill would simplify the documentation and application process 
of a widow or widower of a service-connected veteran in filing joint 
claims for Disability and Indemnity Compensation (DIC) with the VA and 
for social security benefits with the Social Security Administration.
    Although DAV does not have a resolution from our membership on this 
specific matter we would not be opposed to its favorable consideration.
   draft bill--to amend title 38, united states code, to improve the 
  multifamily transitional housing loan program of the department of 
  veterans affairs by requiring the secretary of veterans affairs to 
issue loans for the construction of, rehabilitation of, or acquisition 
   of land for multifamily transitional housing projects instead of 
                  guaranteeing loans for such purposes
    If enacted, this draft bill would modify the Multifamily 
Transitional Housing Loan Program in Subchapter VI of Chapter 20, title 
38, United States Code, by authorizing VA to issue loans for the 
construction, rehabilitation, or acquisition of land for transitional 
housing projects rather than VA's guaranteeing loans for such purposes. 
The bill would also fully utilize $48 million that was originally 
appropriated in 1999 for the Multifamily Transitional Housing Loan 
Guarantee Program and which remains available for obligation.

    The DAV has no resolution on this matter.
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                  
                                                      May 18, 2010.
Hon. Daniel K. Akaka,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

Hon. Richard Burr
Ranking Member,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Chairman Akaka and Ranking Member Burr: The undersigned 
organizations are writing to express our support for S. 3377, 
legislation to improve the multifamily transitional housing loan 
program of the Department of Veterans Affairs. We are especially 
appreciative of Senator Burr's leadership in crafting and introducing 
this legislation, and for Senator Akaka's leadership in bringing it 
before the Committee for consideration.
    Homelessness among veterans is a national tragedy. The Department 
of Veterans Affairs (VA) recently reported that on any given night, 
131,000 veterans are homeless. While most currently homeless veterans 
served during prior conflicts or in peacetime, the newest generation of 
combat veterans of Operation Enduring Freedom and Iraqi Freedom (OEF-
OIF), both men and women, are returning home and suffering from war 
related conditions and a weak economy that may put them at risk for 
homelessness. A growing trend in homelessness among these new veterans 
points to a need to develop a coordinated approach to reduce and 
ultimately eliminate homelessness among all veterans.
    In 1998, Congress authorized the Multifamily Transitional Housing 
Loan Guarantee Program (MTHLG) in section 601 of Public Law 105-368. 
While well-intentioned, this pilot program authorizing the VA to 
guarantee up to 15 secured loans to develop transitional housing fell 
far short of its potential. Despite the VA's best efforts to run an 
effective program, only one housing development--the St. Leo Campus for 
Veterans residence in Chicago, IL--was able to successfully utilize 
this program.
    In August 2008, then-Secretary James Peake delivered a final report 
to your and other key Congressional Committees detailing its findings 
on the MTHLG program. In his letter, Secretary Peake announced the VA 
would not expend any additional funding on guaranteeing new projects 
and noted that significant modifications to the program would be needed 
to ensure its success. Fortunately VA staff worked diligently to 
evaluate the program and make recommendations for improvement.
    Without Congressional action over $40 million designated to assist 
homeless veterans will go unspent. S. 3377 would correct this.
    S. 3377 incorporates many of the VA's prudent recommendations to 
improve the MTHLG that were issued in the Department's report to 
Congress. First, the legislation modifies the program in a very 
important way by allowing the Department to issue loans, rather than 
merely guaranteeing loans, to help produce transitional housing. The 
legislation also wisely creates a revolving fund so that more veterans 
can be assisted as loans are repaid, as property is disposed of, or if 
Congress should decide to directly allocate additional funds to this 
cause.
    Two other critical provisions grant the Department additional 
flexibility. By granting the Secretary additional authority in the 
terms and conditions of the loans provided under this program, the 
bill's sponsors made an astute read of the financial tools that must be 
made available for successful affordable housing development. By 
specifically allowing the Secretary to approve other types of spaces to 
be included in multifamily transitional housing projects, the 
legislation wisely recognizes demand for an array of affordable housing 
options. In addition, this provision allows very beneficial services, 
such as job training, to potentially be provided on site to the benefit 
of the veteran residents.
    Again, we are deeply grateful for your leadership in introducing 
and considering S. 3377. As you both have repeatedly articulated, our 
nation's veterans deserve so much. Access to safe and affordable 
housing for those who have fallen on hard times seems to be the least 
we can do. Please convey our support for this legislation to your 
fellow colleagues on the Committee and throughout the Senate.
            Sincerely,
                    Corporation for Supportive Housing,
                    National Alliance to End Homelessness,
                    Volunteers of America,
                    Common Ground,
                    Local Initiatives Support Corporation (LISC),
                    National Policy and Advocacy Council on 
                            Homelessness.
      

                                  <all>

</pre></body></html>
